<html>
<title> - NOMINATIONS TO THE U.S. DEPARTMENT OF TRANSPORTATION, THE U.S. DEPARTMENT OF COMMERCE, AND THE NATIONAL TRANSPORTATION SAFETY BOARD</title>
<body><pre>[Senate Hearing 115-222]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-222
 
                           NOMINATIONS TO THE
                   U.S. DEPARTMENT OF TRANSPORTATION,
                  THE U.S. DEPARTMENT OF COMMERCE, AND
                THE NATIONAL TRANSPORTATION SAFETY BOARD

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

                             


                Available online: http://www.govinfo.gov
                
                
                
                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-975 PDF             WASHINGTON : 2018       
              
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                      
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 8, 2017.....................................     1
Statement of Senator Gardner.....................................     1
    Letter dated June 6, 2017 to Hon. John Thune and Hon. Bill 
      Nelson from Evan Engstrom, Executive Director, Engine......    41
    Support letter dated September 26, 2017 to Hon. John Thune 
      and Hon. Bill Nelson.......................................    41
Statement of Senator Schatz......................................     3
Statement of Senator Wicker......................................    45
Statement of Senator Cruz........................................    47
Statement of Senator Klobuchar...................................    49
Statement of Senator Sullivan....................................    51
Statement of Senator Young.......................................    53
Statement of Senator Peters......................................    55
Statement of Senator Capito......................................    57
Statement of Senator Thune.......................................    59
Statement of Senator Cortez Masto................................    60

                               Witnesses

Derek T. Kan, Nominee to be Under Secretary of Transportation for 
  Policy, U.S. Department of Transportation......................     4
    Prepared statement...........................................     5
    Biographical information.....................................     6
David J. Redl, Nominee to be Assistant Secretary for 
  Communications And Information, U.S. Department of Commerce....    11
    Prepared statement...........................................    13
    Biographical information.....................................    14
Robert L. Sumwalt III, Nominee to be Member of the National 
  Transportation Safety Board (NTSB) for a 5-Year Term Expiring 
  December 16, 2021, and to be Designated Vice Chairman for a 
  Term of 2 Years................................................    19
    Prepared statement...........................................    20
    Biographical information.....................................    21

                                Appendix

Response to written questions submitted to Derek T. Kan by:
    Hon. John Thune..............................................    63
    Hon. Deb Fischer.............................................    64
    Hon. Bill Nelson.............................................    65
    Hon. Maria Cantwell..........................................    66
    Hon. Richard Blumenthal......................................    66
    Hon. Brian Schatz............................................    67
    Hon. Corey Booker............................................    67
Response to written questions submitted to David J. Redl by:
    Hon. John Thune..............................................    69
    Hon. Jerry Moran.............................................    71
    Hon. Roy Blunt...............................................    72
    Hon. Dean Heller.............................................    73
    Hon. Deb Fischer.............................................    74
    Hon. Bill Nelson.............................................    76
    Hon. Maria Cantwell..........................................    78
    Hon. Brian Schatz............................................    78
Response to written questions submitted to Robert L. Sumwalt III 
  by:
    Hon. John Thune..............................................    79
    Hon. Dan Sullivan............................................    81
    Hon. Bill Nelson.............................................    81
    Hon. Richard Blumenthal......................................    82
    Hon. Brian Schatz............................................    83
    Hon. Catherine Cortez Masto..................................    83


                 NOMINATIONS TO THE U.S. DEPARTMENT OF



                  TRANSPORTATION, THE U.S. DEPARTMENT



                     OF COMMERCE, AND THE NATIONAL



                      TRANSPORTATION SAFETY BOARD

                              ----------                              


                         THURSDAY, JUNE 8, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Cory Gardner 
presiding.
    Present: Senators Gardner [presiding], Schatz, Thune, 
Wicker, Fischer, Johnson, Inhofe, Sullivan, Cruz, Capito, 
Young, Klobuchar, Peters, and Cortez Masto.

            OPENING STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    The Chairman. At an overwhelming 5,9,,, I know I'm not 
quite as intimidating as John Thune in the Chair, so thank you 
very much for being here today. This hearing will come to 
order. We are here today to consider nominations for positions 
within the Department of Transportation, Department of 
Commerce, and National Transportation Safety Board.
    I welcome the nominees, Mr. Derek Kan, Mr. David Redl, and 
Mr. Robert Sumwalt to the Committee today and thank them for 
their willingness to serve. And I know their families are here, 
so thank you very much for your family's support and 
willingness to serve.
    Derek Kan.--The Committee has recent experience with Mr. 
Kan, having considered the nomination for his current position 
on the Amtrak Board of Directors in 2015. He was reported out 
of this Committee favorably and confirmed on the Senate floor 
with bipartisan support on a voice vote on December 15, 2015. I 
would like to take this opportunity to welcome you and your 
family here, who I understand drove across the country today 
just to be here and truly experience our Nation's 
transportation infrastructure firsthand.
    [Laughter.]
    The Chairman. To your family, these buildings belong to 
you. Make sure they give you a key on the way out.
    [Laughter.]
    The Chairman. Mr. Kan previously served as a Policy Adviser 
to Majority Leader Mitch McConnell, Chief Economist--I've been 
told nobody will use that against you--Chief Economist for the 
Senate Republican Policy Committee as well as the Presidential 
Management Fellow at the White House Office of Management and 
Budget. He received his bachelor's degree from the University 
of Southern California, a Master's of Science from the London 
School of Economics, and an MBA from the Stanford Graduate 
School of Business. This endeavor will help you pay off your 
student loans.
    If confirmed, Mr. Kan will be a top policy adviser to 
Transportation Secretary Elaine Chao as the administration 
pursues a significant infrastructure package and FAA 
reauthorization.
    David Redl.--Mr. Redl is well known here on Capitol Hill, 
including since at the House Energy and Commerce Committee, 
where he served as Chief Counsel on the Communications and 
Technology Subcommittee, had to put up with a number of members 
on the Committee in the Senate today. And as a former member of 
that Committee in the House, I witnessed firsthand Mr. Redl's 
commitment to working toward bipartisan consensus on 
telecommunication issues and something near and dear to my 
heart, how we make sure that these new technological 
breakthroughs in telecommunications opportunities can see their 
way into the most rural parts of our country.
    I witnessed firsthand the questioning of the previous NTIA 
Administrator that I carried out on the Eagle Net debacle in my 
home state of Colorado. So I hope you're not too nervous 
sitting in that spot today.
    [Laughter.]
    The Chairman. Prior to his service on the House Energy and 
Commerce Committee, Mr. Redl worked as a lawyer in the 
telecommunications industry advising on regulatory broadband 
and spectrum issues, among many others. A bachelor's degree 
from Pennsylvania State University, University Park, and earned 
his law degree in communications at the Catholic University of 
America's Columbus School of Law. If confirmed, Mr. Redl will 
serve as the President's Chief Adviser on Telecommunications 
and Information Policy.
    Mr. Sumwalt has been a member of NTSB for nearly 11 years, 
and on March 31, 2017, the President announced his intention to 
reappoint Mr. Sumwalt to serve as a Vice Chair for two years. 
Mr. Sumwalt currently serves as Acting Chairman of the NTSB.
    During this time, he served as Chairman for multiple NTSB 
hearings and forums and has been a Board member on scene for 
more than two dozen transportation accidents.
    Prior to his tenure at NTSB, Mr. Sumwalt has a long career 
in aviation, having served as a pilot for U.S. Airways from 
1981 to 2004. He followed up by managing the Corporate Flight 
Department of SCANA, I guess it is, that's how we pronounce it, 
a major energy company. He has a bachelor's degree from the 
University of South Carolina, and a Master's of Aeronautical 
Science specializing in aviation and aerospace safety systems 
and human factors in aviation systems from Embry-Riddle 
Aeronautical University. If confirmed, Mr. Sumwalt will 
continue his service in ensuring that our Nation's 
transportation and infrastructure systems and make sure that 
they are among the safest in the world, the safest in the 
world.
    So thank you all for your time today, your commitment to 
your country today, and your willingness to serve. We look 
forward to your testimony and to answer any questions that we 
may have for you. And I'll yield to the Ranking Member for 
Senator Schatz's opening statement.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman. This morning we're 
considering key positions in the Department of Transportation 
and the Department of Commerce, and we look forward to hearing 
from the nominees. For the Department of Transportation, we're 
considering the nomination of Derek Kan for the Under Secretary 
of Policy. In his questionnaire to this Committee, Mr. Kan 
identified refreshing and modernizing our transportation 
infrastructure as one of the Department's top challenges. I 
agree. Your kids just arrived.
    [Laughter.]
    Senator Schatz. The government must increase its investment 
in projects that will support the movement of goods and people 
by land, sea, and air. Mr. Kan, we hope that you will work with 
this committee on how we make real investments in 
infrastructure, not just how we make projects more attractive 
for private financiers. Our nation's transportation challenges 
include more than just deteriorating infrastructure.
    Safety continues to be a serious problem across all 
sectors, especially on America's highways. Both the Department 
of Transportation and the NTSB have an important role to play 
in safety, and we're counting on these agencies to use their 
authorities and their resources to keep more people safe on the 
road.
    We also look forward to working with Mr. Kan and Mr. 
Sumwalt to support the development and deployment of autonomous 
vehicle technology. It's important that as we spur innovation, 
we continue to make safety our highest priority.
    We also consider the nomination today of David Redl to head 
NTIA at the Department of Commerce. NTIA plays a key role in 
managing Federal spectrum policy, assisting FirstNet and 
carrying out its critical mission, helping to update our 911 
systems, and helping to represent the United States in 
international Internet governance matters. As a manager of 
spectrum used by Federal agencies, NTIA needs to ensure that 
the Federal Government has access to enough spectrum to meet 
its needs today and in the future, but it also must respond to 
consumers and the ever-increasing demand for wireless 
communications.
    Mr. Redl, as we discussed when we met recently, it's 
critical that NTIA strike the right balance between these 
needs. It's also important that in any comprehensive spectrum 
policy, our country continues to create opportunities for 
additional shared and unlicensed uses.
    Finally, if confirmed, you will have a major role in 
representing the United States in international 
telecommunications issues. I believe it's imperative that the 
multistakeholder approach to international Internet governance 
be protected during this administration. This Committee will be 
watching NTIA and the administration on all of these fronts.
    Thank you to all of the nominees and their families for 
joining us today.
    The Chairman. Thank you very much. And again welcome to the 
witnesses. And we'll go ahead and open up at this time for your 
testimony. We'll begin with Mr. Kan.

            STATEMENT OF DEREK T. KAN, NOMINEE TO BE

         UNDER SECRETARY OF TRANSPORTATION FOR POLICY,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Kan. Thank you, Senator Gardner. Thank you for the 
opportunity to appear before you today. If I am confirmed, I 
look forward to working with all of you and your staff to 
strengthen our Nation's infrastructure.
    I am joined today by my wife, Connie, my children, Jordan, 
Evan, and Avery, and my parents, Scott and Julie, and my sister 
and brother-in-law, Grace and Kenny Hsu, from Los Angeles.
    A recurring memory I have of my childhood is riding in the 
backseat of my parents' old Oldsmobile. Mom and Dad, who had 
recently immigrated and were struggling to make ends meet, 
would shuttle my sister and me around town, and so we spent 
most of our days sitting in that car fighting traffic around 
Los Angeles. That was the vehicle by which I began to discover 
the world, and that was the beginning of my fascination with 
transportation.
    As the Senators mentioned earlier, I started my career out 
as a program examiner at the White House Office of Management 
and Budget. It was there I began to learn about the different 
types of government programs, the regulatory and budget 
concepts, and, most importantly, the value of public service. I 
left OMB to join the Senate and spend time working for Senator 
Kyl, Senator Hutchison, and Senator McConnell.
    Since leaving the Senate, I've spent my career in the 
private sector advising companies, building and managing teams, 
and operating businesses. Most recently, I was the General 
Manager of Lyft in South California while also serving on the 
Board of Amtrak. These experiences showed me firsthand how to 
manage a fast-growing enterprise and effectively operate a 
business.
    I am fascinated by both passenger and freight 
transportation. Transportation makes possible the reunion of 
beloved family and friends, the epic adventures which shape and 
sometimes define our lives, and, of course, the commerce and 
trade which drives our economy. Transportation is one of the 
most critical components of infrastructure on which a society 
operates, yet over the past few decades we are beginning to see 
the consequences of an aging infrastructure and experiencing 
the fragility of our current system.
    President Trump and Secretary Chao have begun to lay out 
the administration's transportation priorities: number one, 
ensuring safety and security as the most important objectives; 
number two, rebuilding our nation's infrastructure; and number 
three, embracing new technologies that will lead us into the 
future. Rarely in our nation's history have we had so much 
technological innovation and opportunity to transform our 
nation's infrastructure. As one industry leader has put it, we 
will see more change in the next 5 years in transportation than 
we have seen in the past 50 years.
    And so we are now at an inflection point when it comes to 
transportation. New technologies, data analytics, new 
manufacturing techniques, and innovative solutions are being 
deployed around the world. Yet before us are some core 
fundamental questions around transportation policy, such as, 
one, the role of the Federal Government, and how do you balance 
Federal Government with local support? Number two, the 
allocation of Federal resources between urban and rural areas 
so that nobody is left behind. And three, economic and 
environmental stewardship. And four, the financing and 
permitting of transportation infrastructure projects. Together, 
I believe we can address these complex policy questions, 
rebuild our nation's infrastructure, and usher in new 
technologies.
    Finally, in my visits with each of you, many of you asked 
that I visit your respective states. These requests have ranged 
from visiting a rail along the Gulf ports to streets on 
Honolulu, to the Colorado passenger rail, and I-470, which, 
Senator Gardner, I know that you worked tirelessly and received 
a loan just 2 weeks ago for that project.
    I commit fully to visit each of your states to get an in-
depth look with you and to work together with you and your 
staff to build the world's safest, most efficient 
transportation system. In fact, on my way to this hearing, I 
spent about 18 days driving on 4,000 miles of our interstate 
highway, driving my family, these three munchkins, across the 
country. It seemed fitting that I should embrace and experience 
much of the nation's infrastructure up close as we spend the 
next few years really solving some of these big challenges.
    Thank you again for the opportunity to appear before you 
today. I am happy to take any questions.
    [The prepared statement and biographical information of Mr. 
Kan follow:]

  Prepared Statement of Derek T. Kan, Nominee for Under Secretary of 
      Transportation for Policy, U.S. Department of Transportation
    Thank you for the opportunity to appear before you today. If I am 
confirmed, I look forward to working with all of you and your staff to 
strengthen our Nation's transportation system.
    I am joined today by my wife, Connie Kan, my children, Jordan, 
Evan, and Avery, my parents, Scott and Julie Kan, and my sister and 
brother-in-law, Grace Kan and Kennie Hsu.
    A recurring memory I have of my childhood is riding in the backseat 
of my parents' old blue Oldsmobile. Mom and Dad, who had recently 
immigrated and were struggling to make ends meet in America, would 
shuttle my sister and me around town. So, we spent many hours sitting 
in that car and fighting traffic around Los Angeles. That was the 
vehicle by which I began to discover the world and that was the 
beginning of my fascination with transportation.
    I started my career as a Program Examiner at the White House Office 
of Management and Budget. It was there I learned about different types 
of government programs, regulatory and budget concepts, and, most 
importantly, the value of public service. I left OMB to join the 
Senate, and spent time working for Senator Jon Kyl, Senator Hutchison, 
and Senator McConnell.
    Since leaving the Senate, I have spent my career in the private 
sector advising companies, building and managing teams, and operating 
businesses. I most recently was the General Manager of Lyft in Southern 
California while also serving on the Board of Amtrak. This experiences 
showed me firsthand how to manage a fast-growing enterprise and 
effectively operate a business.
    I am fascinated by both passenger and freight transportation. 
Transportation makes possible the reunion of beloved family and 
friends, the epic adventures which shape, and sometimes define, our 
lives, and, of course, the commerce and trade which drives our economy. 
Transportation is one of the most critical components of infrastructure 
on which a society operates. Yet over the past few decades, we are 
beginning to see an aging infrastructure and experience the fragility 
of our current transportation system.
    President Trump and Secretary Chao have begun to lay out the 
Administration's transportation priorities: 1) ensuring safety and 
security as the most important objectives, 2) rebuilding our Nation's 
infrastructure, and 3) embracing new technologies that will lead us 
into the future. Rarely in our Nation's history have we had so much 
technological innovation and opportunity to transform our Nation's 
infrastructure. As one industry leader recently pointed out, we will 
likely see more changes with automobiles in the next five years than we 
have seen in the last fifty.
    We are now at an inflection point when it comes to transportation. 
New technologies and data analytics, new manufacturing techniques, and 
innovative solutions are being deployed around the world. Yet, before 
us are some core fundamental questions around transportation policy 
such as 1) the role of the Federal Government in critical, but local 
projects, 2) the allocation of Federal resources between urban and 
rural areas so that nobody is left behind, 3) economic and 
environmental stewardship, and 4) the financing and permitting of 
transportation infrastructure projects. Together, we can address these 
complex policy questions, rebuild our Nation's infrastructure, ensure 
the safety and security of our transportation system, and usher in new 
technologies.
    Finally, in my visits with the members of this committee, many of 
you have asked that I visit your respective states. These requests 
range from visiting a light rail system to a rural airport to an 
unfinished highway to a crumbling bridge. If confirmed, I commit to 
visit your states and work with you to build the world's safest and 
most efficient transportation system.
    Thank you again for the opportunity to appear before you today. I 
am happy to take any questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Derek Tai-
Ching Kan.
    2. Position to which nominated: Under Secretary of Transportation 
for Policy, U.S. Department of Transportation.
    3. Date of Nomination: May, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

    5. Date and Place of Birth: August 15, 1978; Los Angeles, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
        Spouse: Connie Kan.
    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Southern California, B.S. Business 
        Administration, 1999

        London School of Economics, Diploma in Economics, 2001

        London School of Economics, M.Sc. Economic History, 2004

        Stanford Graduate School of Business, MBA, 2012

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

  <bullet> White House Office of Management and Budget, Program 
        Examiner (2004-06)

  <bullet> U.S. Senate Republican Policy Committee, Chief Economist/
        Policy Advisor (2006-07)

  <bullet> U.S. Senate, Office of the Republican Leader (2008-10)

  <bullet> Bain & Company, Consultant (2012-14)

  <bullet> GenapSys Inc., Director of Strategy (2014-15)

  <bullet> Story and Heart, Advisor (2015-16)

  <bullet> GLG Research, Consultant (2016-17)

  <bullet> Amtrak, Board Member (2015 to Present)

  <bullet> Lyft, General Manager--Southern California (2015 to Present)

    9. Attach a copy of your resume.
    A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

        Board Member, Amtrak (2015 to present)

        General Manager, Lyft (2015 to present)

        Consultant, GLG Research (2016-17)

        Advisory Board Member, Los Angeles County Auto Show (2016-17)

        Advisor, Story and Heart (2015-16)

        Director of Strategy, GenapSys (2014-15)

        Board Member, Environmental Defense Action Fund (2013-14)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal benevolent or religious 
organization, private club or other membership organization. Include 
dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Advisory Board Member, Los Angeles County Auto Show, 2016-2017

        Member, Pacific Council on International Policy, 2010 to 
        present

        Board Member, Environmental Defense Action Fund, 2013-2014

        Board Member, Great Commission Community Church, 2007-2010

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period. None
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Arjay Miller Scholar, Stanford Graduate School of Business, 
        June 2012
        Harvey Fellowship, September 2011

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    TARP Without Strings, American Enterprise Institute
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I wish to serve because I believe I have both a passion for public 
service and background to help the Department of Transportation. My 
previous background includes time at OMB where I worked with agencies 
to develop strategic plans and budgets as well as time as a Senate 
staffer working on budget, appropriations, and other economic matters. 
More recently, I spent much of my time at Bain and Amtrak driving 
financial and operational excellence. One exciting developing in the 
transportation space includes the emergence of new technologies and 
services. I believe my time at Lyft positions me well to help develop 
policies that continue to encourage safety while not stifling 
innovation.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The mission of the Department of Transportation is to serve the 
United States by ensuring a fast, safe, efficient, accessible and 
convenient transportation system that meets our vital national 
interests and enhances the quality of life of the American people, 
today and into the future. As set by statute, the responsibilities of 
the Under Secretary is to provide leadership in the development of 
policy for the Department, supervise the policy activities of Assistant 
Secretaries with primary responsibility for aviation, international, 
and other transportation policy development and carry out other powers 
and duties prescribed by the Secretary. I have experience in managing a 
large organization starting from my time at OMB and more recently at 
Bain, Amtrak, and Lyft.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

  <bullet> Maintaining a high level of safety and safety regulation: 
        One of the critical components of DOT's is to regulate safety. 
        Policies and programs must be developed so as to ensure all 
        forms of transportation in this country as operated at a safe 
        and efficient level.

  <bullet> Effectively using taxpayer resources: The Federal Government 
        has faced persistent deficits. As a result, the Department of 
        Transportation, like all other agencies, must ensure that each 
        taxpayer dollar is spent wisely. Moreover, DOT must eliminate 
        waste, fraud, and abuse to ensure good stewardship of Federal 
        resources.

  <bullet> Refreshing and modernizing our transportation 
        infrastructure: Across the country, we have aging 
        infrastructure where bridges, roads, and other key 
        infrastructure have not been sufficiently maintained or 
        upgraded. Without a massive refresh, our infrastructure will 
        impair economic productivity.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I currently receive a salary from Lyft for my position as General 
Manager. As part of my compensation package with Lyft, I also own 
restricted stock units in Lyft, and I will receive a severance payment 
from Lyft. I also currently receive board fees from Amtrak for my 
position as a Board member, as well as occasional fees from GLG 
Research for my position as a Consultant. If confirmed, I will resign 
from these positions.
    I hold vested stock options with GenapSys, my former employer; I 
received these as part of my compensation package when I was employed 
there as Director of Strategy. If confirmed, I will retain these stock 
options. I also have a 401(k) plan retirement from my former employer, 
Bain & Company, which is housed with Vanguard and invested in a 
diversified mutual fund; neither I nor Bain makes any further 
contributions to the plan. If confirmed, I will retain my 401(k) plan 
from Bain. I have a TSP account from my previous government service; if 
confirmed, I wi11 retain my TSP account.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Ethics Official to identify potential conflicts of interest. 
Any potential conflicts of interest will be resolved with the terms of 
an ethics agreement that I have entered into with DOT's designated 
Agency Ethics Official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Ethics Official to identity potential conflicts of interest. 
Any potential conflicts of interest will be resolved with the terms of 
an ethics agreement that I have entered into with DOT's designated 
Agency Ethics Official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    As a Congressional staffer, I influenced the legislative process by 
advising Senators, drafting amendments, and negotiating legislation.
    6. Explain bow you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
Designated Ethics Official to identify potential conflicts of interest. 
Any potential conflicts of interest will be resolved with the terms of 
an ethics agreement that I have entered into with DOT's designated 
Agency Ethics Official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

        a. Provide the name of agency, association, committee, or 
        group;

        b. Provide the date the citation, disciplinary action, 
        complaint, or personnel action was issued or initiated;

        c. Describe the citation, disciplinary action, complaint, or 
        personnel action;

        d. Provide the results of the citation, disciplinary action. 
        complaint, or personnel action.

    No
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so. please explain. No
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    No. My current and former employers have been involved in 
litigation and administrative proceedings as part of their normal 
business dealings, but I was and am not an officer of those businesses 
and have not been named as a party in those actions.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None
                     d. relationship with committee
    1. Wil1 you ensure that your department/agency complies With 
deadlines for information set by congressional committees? Yes
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
fox their testimony and disclosures? Yes
    3. Will you cooperate in providing the Committee with requested 
witnesses including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes
                                 ______
                                 
                     Resume of Derek Tai-Ching Kan
Experience
Lyft Inc--Los Angeles, CA
General Manager; 2015-Current

  <bullet> Have P&L ownership over all SoCal operations, growing region 
        to become largest market within Lyft

  <bullet> Increased rides 5x, increased market share by 250 percent 
        while reducing CPAs and moving market to profitability

  <bullet> Grew team from 0 to 50 in twelve months and created new 
        operating model and org structure
Amtrak--Washington, DC
Board Member; Current

  <bullet> Unanimously confirmed by U.S. Senate; member of Finance and 
        Marketing Committees

  <bullet> Selected new CEO and assisted with transition to new 
        leadership

  <bullet> Actively managed executive team to improve strategy and 
        operational performance
Genapsys--Redwood City, CA
Director of Strategy; 2014-2015

  <bullet> Developed operating model; led fundraising efforts and 
        developed go to market strategy for product launch
Bain & Company--Los Angeles, CA
Consultant; 2012-2014

  <bullet> Designed operating model, strategy, and operational 
        improvement plan for nation's largest electrical utility

  <bullet> Developed operating model and org structure for $1 billion 
        consumer electronics company

  <bullet> Integrated two global sales forces and developed 
        implementation plan for $10 billion life sciences company
McKinsey & Company--Los Angeles, CA
Summer Associate

  <bullet> Evaluated leverage buyout opportunities and advised deal 
        team on the competitiveness of target industry
Elliott Management--New York, New York
Advisor; 2010-2011

  <bullet> Analyzed and developed financial model for a $50 million 
        hedged long/short equity investment

  <bullet> Advised portfolio managers on implementation of financial 
        regulatory reform and tax changes
U.S. Senate Office of the Republican Leader--Washington, D.C.
Policy Advisor; 2008-2010

  <bullet> Advised Senators on all economic-related matters, including 
        Highway Trust Fund solvency, new funding mechanisms for DOT, 
        budget process reform, appropriations, and capital markets 
        legislation

  <bullet> Helped negotiate Emergency Economic Stabilization Act of 
        2008 (TARP) and Economic Stimulus Act of 2008

  <bullet> Analyzed financial regulatory system and negotiated 
        comprehensive financial regulatory reform (Dodd-Frank)

  <bullet> Negotiated and developed communications strategy for 2008 
        auto bailout proposal
U.S.Senate Republican Policy Committee--Washington, D.C.
Chief Economist; 2006-2007

  <bullet> Published policy papers on capital markets competitiveness, 
        private equity industry, subprime mortgage market, credit 
        rating industry reform, Highway Trust Funds, and Federal budget 
        process reform

  <bullet> Advised Senators on legislation, regulatory developments and 
        general trends related to the U.S. economy, Federal budget, 
        banking, housing, and pension issues
White House Office of Management and Budget--Washington, D.C.
Presidential Management Fellow; 2004-2006

  <bullet> Assisted the President and his executive team with 
        management, policy development, and budget execution

  <bullet> Worked with agencies to implement the President's Management 
        Agenda

  <bullet> Managed and reorganized VA's $2.1 billion information 
        technology portfolio
Eli Lilly & Company--Los Angeles, CA
Sales Specialist; 2002-2003
  <bullet> Awarded highest sales achievement honor for performance in 
        the top 1 percent of entire company
KPMG,Structured Finance Group--Los Angeles, CA
Associate; 2001

  <bullet> Developed financial models to project cash flow and develop 
        sensitivity analysis of asset-backed securities
Education
Stanford Graduate School of Business Stanford, CA
Master of Business Administration 2010-2012
Arjay Miller Scholar (Top 10 percent)
London School of Economics and Political Science London, United Kingdom
Masters of Science, Economic History with Merit 2003-2004
Graduate Diploma, Economics 1999-2001
University of Southern California Los Angeles, CA
Bachelor of Science, Business Administration 1996-1999
Memberships
Los Angeles Auto Show, Advisory Board, 2015-2017
Pacific Council on International Relations, Member, 2011-2015
Great Commission Community Church, Board Member, 2007-2010
Environmental Defense Action Fund, 2013-2014

    The Chairman. Thank you, Mr. Kan. And I'm just curious if 
the streets of Honolulu are the first ones you'll be visiting?
    [Laughter.]
    The Chairman. Mr. Redl, please proceed. Thank you.

 STATEMENT OF DAVID J. REDL, NOMINEE TO BE ASSISTANT SECRETARY 
FOR COMMUNICATIONS AND INFORMATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Redl. Thank you, Senator. Mr. Chairman, Senator Schatz, 
and members of the Committee, thank you for the opportunity to 
appear today and for scheduling the hearing.
    My name is David Redl, and I'm the President's nominee to 
be Assistant Secretary of Commerce for Communication and 
Information, and Administrator of NTIA.
    I would like to start by thanking President Trump and 
Secretary Ross for this honor. The communications and 
information sectors are the backbone of modern commerce, and as 
principal adviser to the President on telecommunications, NTIA 
plays an integral role in preserving our Nation's leadership in 
these sectors. Whether it's broadband deployment, the digital 
economy, or managing our government spectrum resources, NTIA is 
at the forefront of preserving and advancing our information 
economy.
    I would also like to thank my family, who is here today. 
I'm joined by my mother, Susan Redl; my father, David Redl; my 
mother-in-law, Maria Smith; my wife of nearly 10 years, Amy 
Redl; and our son, who on his first day of summer vacation is 
wearing a tie----
    [Laughter.]
    Mr. Redl.--Benjamin Redl. He'll be turning 6 next week, and 
he's very excited.
    My family did everything they could to make sure a young 
man with a fascination for technology had the tools to succeed. 
When I turned 5 years old, my family got me an IBM PC jr. It 
had a whopping 128k of memory, a 5\1/4\-inch floppy drive, DOS 
3.2, and cartridges, and I was hooked. From then on, I wanted 
to work on anything electronic, whether it was helping my 
mother, Sue, process the family business's accounts receivable 
on a Monroe accounting machine with magnetic-stripe ledgers and 
a cassette drive or helping with the avionics from the right 
seat of my dad's Beechcraft Bonanza, I wanted in.
    As I got older, my dad instilled in me a curiosity that 
drives me to this day. My father, also David Redl, is a man who 
wants to know how things work. He's a man who likes to take 
things apart, right down to the nuts and bolts. In his case, 
literally, the family business is automotive recycling.
    You could also say that working in technology runs in the 
family. My grandfather, John Roberts, spent his career as an 
employee of IBM, including working on the Apollo program in the 
1960s at Cape Canaveral.
    Technology has always fascinated me, and its understanding 
and its inner workings have become my career, so I mean it with 
absolute sincerity when I say it's an honor to sit before you 
today.
    For the last six years, I've had the privilege of working 
as a member of the professional staff of the House Committee on 
Energy and Commerce. Under the leadership of Chairmen Fred 
Upton and Greg Walden, I dedicated my time on Capitol Hill to 
working closely with my colleagues, both Republican and 
Democratic, to find bipartisan solutions to contemporary 
telecommunications issues. We didn't agree on everything, but 
by focusing on the things we could agree on, the vast majority 
of our bills passed the House of Representatives by large 
bipartisan margins.
    In that spirit, I would like to offer a short list of 
commitments on which I hope there is bipartisan consensus. If 
confirmed, I'll work with Congress and the administration to 
ensure that the needs of our nation's government spectrum users 
are balanced with the continuing need for additional licensed 
and unlicensed commercial spectrum. I will advance policies to 
improve access to broadband for all Americans. I'll work to 
advance the U.S. digital economy. And I'll work to ensure that 
the Internet remains a driver of free speech, free market 
commerce, and economic opportunity.
    Mr. Chairman, the staff of NTIA are the unsung heroes of 
the U.S. digital economy. They're experts working for the 
American people in a small government agency all but unknown 
outside the Beltway. And like my father, they're people that 
revel in the nuts and bolts. It would be a privilege to have 
the chance to lead them.
    Again, thank you for holding this hearing. I look forward 
to any questions the Committee may have.
    [The prepared statement and biographical information of Mr. 
Redl follow:]

Prepared Statement of David J. Redl, Nominee to be Assistant Secretary 
    of Commerce for Communications and Information, U.S. Department 
                              of Commerce
    Mr. Chairman, Ranking Member Nelson, and Members of the Committee,

    Thank you for the opportunity to appear before you today and for 
scheduling this hearing. My name is David Redl and I am honored to be 
the President's nominee to be Assistant Secretary of Commerce for 
Communications and Information and the Administrator of NTIA.
    I'd like to start by thanking President Trump and Secretary Ross 
for the honor of this nomination. The communications and information 
sectors are the backbone of modern commerce and as principal advisor to 
the President on telecommunications, NTIA plays an integral role in 
preserving our Nation's leadership in these sectors. Whether it's 
broadband deployment, the digital economy, or managing our government 
spectrum resources, NTIA is at the forefront of preserving and 
advancing our information economy.
    For the past six years, I have had the privilege of working as a 
member of the professional staff of the House Committee on Energy and 
Commerce. Under the leadership of Chairmen Fred Upton and Greg Walden, 
I dedicated much of my time on Capitol Hill to working closely with my 
colleagues, both Republican and Democratic, on a number of 
telecommunications issues, among them improving the availability and 
use of spectrum.
    Spectrum is the invisible infrastructure of our digital economy, 
and it enables our increasingly mobile society. Despite the good work 
that has been done to make more spectrum available, demand continues to 
grow as smart cities, connected cars, and 5G wireless technologies 
become closer to widespread deployment. Among NTIA's responsibilities 
is management of the Federal Government spectrum. Improving the 
performance of government spectrum systems, providing incentives for 
government agencies to make better use of spectrum, and promoting 
spectrum research and development have been critical to the digital 
economy and will continue to be important for NTIA. The recent changes 
made by Congress to the Spectrum Relocation Fund are already driving 
Federal agencies to reach for new efficiencies, but the work on this 
front is far from over. If confirmed, I will work to continue to 
improve government spectrum efficiency and make additional spectrum 
available to fuel our Nation's licensed and unlicensed wireless needs.
    In addition to working to expand the spectrum available for 
broadband, NTIA plays a critical role in working to ensure no American 
is left out of our digital society. The unfortunate reality is that 
there continue to be Americans for whom access to basic broadband is 
lacking, particularly
    in rural areas. Recently, Transportation Secretary Elaine Chao 
testified before the Senate Committee on Environment and Public Works 
that the Trump Administration's infrastructure initiative will include 
broadband infrastructure. As the President's principal advisor on 
communications policy, NTIA will play a role in developing the 
Administration's approach. And rightly so. The staff of NTIA have 
decades of experience in what works--and what doesn't--when it comes to 
promoting private sector investment in broadband networks. If 
confirmed, I will work with the talented professionals at NTIA to drive 
investment in rural America to bring the economic opportunity of 
broadband to the unserved parts of our country.
    Finally, I'd like to discuss the important work that NTIA does to 
promote the U.S. digital economy. That work takes many forms. NTIA is 
the United States' representative on the Internet Corporation for 
Assigned Names and Numbers' Government Advisory Committee where it 
works to ensure the Internet remains an engine for global communication 
and commerce; NTIA engages industry and the public in multistakeholder 
groups to address issues of privacy and the Internet of Things; and, 
NTIA works to protect the Internet and Internet users through its 
policy work on cybersecurity.
    This work is critical to preserving the Internet as an engine of 
free speech and free-market commerce, and to protecting Americans 
online. The multistakeholder process NTIA has employed holds the 
potential to bring a fresh approach to communications policy challenges 
and new levels of engagement with the Internet community. This same 
approach can also further NTIA's work on cybersecurity. The President's 
recent Executive Order on the topic recognizes the Department of 
Commerce's role in cybersecurity and NTIA's approach has the potential 
to provide a new voice to the commercial Internet and its users in this 
important discussion.
    The NTIA's approach to policy, engagement, and its role as the 
President's ``principal adviser on telecommunications policies 
pertaining to the Nation's economic and technological advancement,'' 
make NTIA uniquely qualified to tackle the communications challenges of 
the twenty-first century. If confirmed, I will work with the men and 
women of the NTIA to expand broadband availability, preserve the 
Internet as a driver for economic growth, promote the U.S. digital 
economy, and to drive investment in the broadband networks that 
comprise the global Internet.
    Again, I thank President Trump and Secretary Ross for the honor of 
this nomination and I look forward to answering any questions for the 
Committee.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): David John 
Redl.
    2. Position to which nominated: Assistant Secretary for 
Communications and Information, Department of Commerce and 
Administrator of the National Telecommunications and Information 
Administration.
    3. Date of Nomination: 5/18/2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not provided to the public.
        Office: 2125 Rayburn House Office Building, Washington, D.C. 
        20515.

    5. Date and Place of Birth: February 1, 1981; Rhinebeck, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Amy Luella Redl, Director, Federal Government Relations, Sanofi 
Inc.
    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A., Journalism, Penn State, 2003

        B.A., Political Science, Penn State, 2003

        J.D., Catholic University of America, 2006

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

------------------------------------------------------------------------
         Employer                   Title           Period of Employment
------------------------------------------------------------------------
Committee on Energy and     Chief Counsel          July 2013 to present
 Commerce, U.S. House of
 Representatives
                           ---------------------------------------------
                            Counsel                February 2011-July
                                                    2013
------------------------------------------------------------------------
CTIA--The Wireless          Director, Regulatory   July 2009-February
 Association                 Affairs                2011
                           ---------------------------------------------
                            Counsel, Regulatory    April 2007-June 2009
                             Affairs
                           ---------------------------------------------
                            Legal Intern           Summer 2005, August
                                                    2006-April 2007
------------------------------------------------------------------------
Office of Congresswoman     Intern                 Spring 2006
 Sue Kelly
------------------------------------------------------------------------
Federal Communications      Legal Intern           Fall 2004; Spring
 Commission                                         2005
------------------------------------------------------------------------
Arnold & Porter (UK), LLP   Summer Associate       Summer 2004
------------------------------------------------------------------------

    9. Attach a copy of your resume.
    See Attachment 1.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Pennsylvania Lambda Corp.        Director                      2012-2016
------------------------------------------------------------------------
                                 Vice President                2012-2013
------------------------------------------------------------------------
                                 President                     2013-2015
------------------------------------------------------------------------
                                 Vice President                2015-2016
------------------------------------------------------------------------
Maryland Gamma Corp.             President                     2011-2012
------------------------------------------------------------------------

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    I am a member of the Phi Kappa Psi Fraternity, a collegiate 
fraternity of men. I served as a member of the Executive Council of the 
fraternity from 2001-2003.
    I am a member of the Federal Communications Bar Association, the 
FCBA ``is a volunteer organization of attorneys, engineers, 
consultants, economists, government officials and law students involved 
in the study, development, interpretation and practice of 
communications and information technology law and policy.'' I have been 
a member since my time in law school in the early 2000s. To my 
knowledge, the FCBA does not discriminate on the basis of sex, race, 
color, religion, national origin, age, or handicap.
    I am a member of The Federalist Society for Law and Public Policy 
Studies. I also serve as a member of the Telecommunications & 
Electronic Media Practice Group Executive Committee. I have been a 
member since 2012. To my knowledge, the Federalist Society does not 
discriminate on the basis of sex, race, color, religion, national 
origin, age, or handicap.
    13. Have you ever been a candid ate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    The FEC website lists a donation of $500 to Joseph Pitts (via 
Friends of Joe Pitts) on 6/30/2014. My wife made this donation from our 
joint checking account. It should have been attributed to her.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Bishop's Scholarship, Catholic University of America, 2003
        Scholarship, Kennedy School of Government, Harvard University, 
        2016

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    As part of my duties for both CTIA--The Wireless Association and 
the Committee on Energy and Commerce, I have appeared on panels and 
spoken at events on matters within my job responsibilities. Most 
recently, I gave a speech in March 2017 at an event hosted by the U.S. 
Council on International Business on the Energy and Commerce 
Committee's priorities.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    My job responsibilities with the Committee on Energy and Commerce 
require me to serve as counsel at the witness table from time to time, 
but I have never been invited to testify before Congress.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    Throughout my career I have worked to promote the availability of 
broadband, improve spectrum use and efficiency, and promote the 
innovation and investment that have made the Internet the greatest 
engine of communications and commerce the world has ever known. For the 
last six years, I have been an employee of the Committee on Energy and 
Commerce in the U.S. House of Representatives and been privileged to 
serve my country working toward these goals. The responsibilities of 
the Assistant Secretary of Commerce for Communications and Information 
would be a continuation of the work that I have done in both the public 
and private sectors and an opportunity to continue to serve the 
country.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    If confirmed, I will work to ensure that NTIA promptly addresses 
deficiencies identified by the GAO and the Inspector General of the 
Department of Commerce. I believe that my experience with the Committee 
on Energy and Commerce managing groups of Members and staff, as well as 
the myriad outside parties that have business before the subcommittee 
will enable me to lead the agency effectively.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing NTIA are:

  1.  Modernizing Federal spectrum systems to maximize spectrum use for 
        Federal and non-Federal users. Spectrum continues to be a 
        finite resource in increasing demand. Left unaddressed, the 
        challenge of balancing mission and commercial demands could 
        impact the Nation's leadership in 5G technology.

  2.  Improving broadband availability, particularly in rural areas.

  3.  Effectively addressing the needs of the U.S. digital economy both 
        domestically as the principal adviser to the President on 
        telecommunications policies pertaining to the Nation's economic 
        and technological advancement and internationally in 
        multistakeholder and multinational fora.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts. None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of my ethics agreement with the Department's 
designated agency ethics official. I understand that my ethics 
agreement has been provided to the Committee. I am not aware of any 
potential conflicts of interest other than those that are the subject 
of my ethics agreement.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    From 2008 to 2009 I was a registered lobbyist for my employer, 
CTIA--The Wireless Association. My work focused on telecommunications 
regulation and legislation consistent with CTIA's lobbying disclosure 
filings.
    As an employee for the Committee on Energy and Commerce, my job 
responsibilities include working directly on the drafting and 
disposition of legislation and the oversight of agencies within the 
jurisdiction of the Subcommittee on Communications and Technology.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of my ethics agreement with the Department's designated 
agency ethics official. I understand that my ethics agreement has been 
provided to the Committee. I am not aware of any potential conflicts of 
interest other than those that are the subject of my ethics agreement.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:
        a. Provide the name of agency, association, committee, or 
        group;

        b Provide the date the citation, disciplinary action, 
        complaint, or personnel action was issued or initiated;

        c. Describe the citation, disciplinary action, complaint, or 
        personnel action;

        d. Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                              Attachment 1
                        Resume of David J. Redl
Education
The Catholic University of America, Columbus School of Law--Washington, 
D.C.

  <bullet> Juris Doctor, May 2006

  <bullet> Graduate, Institute for Communications Law Studies

  <bullet> CommLaw Conspectus: Articles Editor, 2006 Symposium 
        Coordinator

Pennsylvania State University--University Park, PA

  <bullet> B.A. Journalism, May 2003; B.A. Political Science, May 2003
Experience
Committee on Energy and Commerce, U.S. House of Representatives--
Wahington, D.C.
Chief Counsel--July 2013 to Present
Counsel--February 2011-July 2013

  <bullet> Served as primary legal advisor to Chairman Fred Upton and 
        Subcommittee on Communications and Technology Chairman Greg 
        Walden.

  <bullet> Managed subcommittee staff comprised of a team of lawyers 
        and non-legal professional staff.

  <bullet> Provided legal and drafting advice to all Members of the 
        Subcommittee on Communications and Technology on matters within 
        the subcommittee's jurisdiction.

  <bullet> Worked with media and advocacy groups to support Committee 
        policy goals, including media interviews, participation on 
        discussion panels, and drafting op-eds.

  <bullet> Represented the United States at international conferences, 
        including multiple ICANN conferences and two treaty-level 
        conferences of the U.N. International Telecommunication Union 
        (2012 World Conference on International Telecommunication and 
        2014 Plenipotentiary Conference).
Legislative Achievements:

  <bullet> Title VI of the Middle Class Tax Relief and Job Creation Act 
        of 2012

    <ctr-circle> Required the FCC to auction certain spectrum assets to 
            the public. To date this has resulted in more than $40b in 
            revenue for the U.S. Government.

    <ctr-circle> Authorized spectrum incentive auctions--auctions in 
            which the government shares a portion of proceeds with 
            licensees that volunteer to relinquish their licenses. 
            First auction under this model is set to take place in the 
            first quarter of 2016.

    <ctr-circle> Established and funded FirstNet, an independent 
            government agency dedicated to building and operating an 
            interoperable wireless broadband network for public safety 
            entities.

  <bullet> H. Con. Res. 127/S. Con. Res. 50 (112th Congress)

    <ctr-circle> A concurrent resolution expressing the sense of 
            Congress in support of the multistakeholder model of 
            Internet governance. Served as the catalyst for the 
            congressional discussion of additional Internet governance 
            issues, including ICANN and the IANA transition.

  <bullet> STELA Reauthorization Act of 2014

    <ctr-circle> Reauthorization of the laws that govern the carriage 
            of broadcast television on satellite television platforms. 
            Includes both communications law and copyright law 
            provisions.

  <bullet> Title X of the Bipartisan Budget Act of 2015

    <ctr-circle> Generated more than $4b in revenue from the auction of 
            government spectrum assets. Additionally requires the 
            government to develop plans for the reallocation of an 
            additional 100 MHz to improve commercial wireless 
            broadband.

CTIA-The Wireless Association--Washington, DC
Director, Regulatory Affairs July 2009-February 2011
Counsel, Regulatory Affairs April 2007-June 2009

  <bullet> Researched and drafted regulatory filings representing the 
        wireless industry in nearly all aspects of regulation. Specific 
        emphasis on spectrum issues, broadband, new technology and 
        regulatory mandates.

  <bullet> Prepared and presented ex parte presentations to FCC 
        Commissioners, legal advisors and staff.

  <bullet> Prepared and presented weekly regulatory updates for 
        representatives from member companies.

CTIA-The Wireless Association--Washington, DC
Legal Intern Summer 2005, August 2006-April 2007

  <bullet> Assisted in drafting comments and reply comments in FCC 
        proceedings on universal service

  <bullet> Prepared presentation materials and participated in ex parte 
        meetings with FCC Commissioners and staff

Office of Congresswoman Sue Kelly--Washington, DC
Intern Spring 2006

  <bullet> Drafted general correspondence on policy issues for use in 
        responding to common questions and concerns

    <ctr-circle> n various communications policy matters

  <bullet> Researched and d rafted internal memoranda on current 
        communications policy issues

  <bullet> Drafted responses to individual constituents' on 
        communications issues

Federal Communications Commission--Washington, D.C.
Legal Intern, Wireless Telecommunications Bureau Fall 2004; Spring 2005

  <bullet> Researched and drafted staff orders pertaining to wireless 
        service licensing

  <bullet> Researched novel wireless broadband service issues

Arnold & Porter (UK), LLP--London, England
Summer Associate Summer 2004

  <bullet> Researched impact of European Union telecommunications 
        regulations on existing client properties

  <bullet> Reviewed client contracts as part of due diligence report
Security Clearance

  <bullet> Active TS/SCI clearance.

    The Chairman. Thank you, Mr. Redl.
    And, Benjamin, 6-year-old birthdays are great. They're 
unlimited sugar.
    [Laughter.]
    The Chairman. Mr. Sumwalt, please proceed with your 
testimony.

STATEMENT OF ROBERT L. SUMWALT III, NOMINEE TO BE MEMBER OF THE 
 NATIONAL TRANSPORTATION SAFETY BOARD (NTSB) FOR A 5-YEAR TERM 
EXPIRING DECEMBER 16, 2021, AND TO BE DESIGNATED VICE CHAIRMAN 
                     FOR A TERM OF 2 YEARS

    Mr. Sumwalt. Good morning. And thank you, Chairman Gardner, 
Ranking Member Schatz, and distinguished members of the 
Committee. I'm honored to appear before you today as you 
consider my nomination as a member of the National 
Transportation Safety Board, and I am grateful to President 
Trump for the confidence he has placed in me through this 
nomination.
    I've been honored to serve on the NTSB for nearly 11 years, 
where I've served as a member, the Vice Chairman, and now as 
Acting Chairman. In my most recent role as Acting Chairman, 
I've placed renewed focus on ensuring that the agency lives our 
core values of safety, excellence, independence, integrity, 
diversity and inclusion, and transparency.
    During my tenure on the Board, I've been a fierce advocate 
for improving safety in all modes of transportation, including 
issues such as teen driver safety, impaired driving, 
distractions in transportation, and professionalism in 
aviation. I've testified before Congress regarding rail safety 
initiatives, including Positive Train Control and the transport 
of flammable liquids by rail. It has been my duty to serve as 
the voice of objectivity and reason when deliberating and 
determining the probable cause of more than 150 transportation 
accidents. I believe that in order to truly improve safety, we 
must not simply focus on the obvious human error, but, instead, 
we must determine the underlying factors that led to the 
accident.
    I've been privileged to serve as Chairman of the Board of 
Inquiry for a number of high profile investigative hearings, 
including the 2009 Washington Metropolitan Area Transit 
Authority, or WMATA, train-to-train collision near the Fort 
Totten Metro station right here in the District of Columbia. 
While that investigation identified technical issues within the 
train control system, it also uncovered systemic organizational 
deficiencies, including WMATA's lack of a safety culture, the 
ineffective safety oversight by WMATA's Board of Directors, and 
the insufficient regulatory oversight and authority by the Tri-
State Oversight Committee.
    Although our transportation system generally performs very 
well, when transportation accidents do occur, it is imperative 
that we be able to reassure the American public that the 
government is conducting an honest, competent, thorough, and 
unbiased investigation. The Board must act with an objective 
dispassionate eye, calling the facts as we see them, and then 
conducting a thorough analysis of those facts. Simply 
investigating the accident alone does not prevent accidents. To 
accomplish that, we must use our analysis to formulate safety 
recommendations to government and industry, and we must also 
follow up on the status of those recommendations. Clearly, the 
American public and the transportation community depend on the 
NTSB to fulfill its mission, not only in the wake of an 
accident, but to also be proactive through the Board's advocacy 
role and by conducting safety studies.
    Additionally, the Board has an important role in assisting 
victims and their families in the wake of transportation 
disasters. The NTSB must also keep up with emerging 
technologies in transportation, which have the potential to 
certainly improve safety, but they may present challenges as 
well.
    If confirmed, I will continue to support the Board in all 
of its endeavors. Additionally, if confirmed, I look forward to 
continuing to work in a professional and collegial fashion with 
my fellow Board members, the dedicated NTSB staff, and, of 
course, with this Committee as we work together to enhance 
transportation safety for us all.
    Thank you for your time, and I look forward to answering 
your questions.
    [The prepared statement and biographical information of Mr. 
Sumwalt follow:]

   Prepared Statement of Robert L. Sumwalt III, Nominee to be Board 
              Member, National Transportation Safety Board
    Thank you, Chairman Thune, Ranking Member Nelson, and distinguished 
Members of the Committee. I am honored to appear before you today as 
you consider my nomination as a Member of the National Transportation 
Safety Board (NTSB). I am grateful to President Trump for the 
confidence he has placed in me through this nomination.
    I've been honored to be on the NTSB for nearly 11 years, where I 
have served as Member, Vice Chairman, and Acting Chairman.
    In my most recent role as Acting Chairman, I have placed renewed 
focus on ensuring the agency lives our core values of Safety, 
Excellence, Independence, Integrity, Diversity and Inclusion, and 
Transparency.
    During my tenure on the Board, I have been a fierce advocate for 
improving safety in all modes of transportation, including issues such 
as teen driver safety, impaired driving, distractions in 
transportation, and professionalism in aviation. I have testified 
before Congress regarding rail safety initiatives, including Positive 
Train Control and the transport of flammable liquids by rail. It has 
been my duty to serve as a voice of objectivity and reason when 
deliberating and determining the probable cause of more than 150 
transportation accidents. I believe that to truly improve safety, the 
investigation must not simply stop at finding the obvious error, but 
instead, must uncover each underlying factor that led to the accident.
    I've been privileged to serve as Chairman of the Board of Inquiry 
for a number of high-profile investigative hearings, including the 2009 
Washington Metropolitan Area Transit Authority (WMATA) train-to-train 
collision near the Fort Totten Metro Station here in the District of 
Columbia. While that investigation identified technical failures within 
the train control system, it also uncovered systemic deficiencies, 
including WMATA's lack of a safety culture, the ineffective safety 
oversight by the WMATA Board of Directors, and the insufficient 
regulatory oversight and authority by the Tri-State Oversight 
Committee.
    Although our transportation system generally performs very well, 
when transportation accidents do occur, it is imperative that we be 
able to reassure the American public that the Federal Government is 
conducting an honest, competent, thorough, and unbiased investigation. 
The Board must act with an objective, dispassionate eye, calling the 
facts as we see them, and then conducting a thorough analysis of those 
facts. But simply investigating the accident, alone, doesn't prevent 
accidents; to accomplish that, we must use our analysis to formulate 
safety recommendations to government and industry. We must also follow 
up and track the status of those recommendations.
    Clearly, the American public and the transportation community 
depend on the NTSB to fulfill its mission, not only in the wake of an 
accident, but also to be proactive through the Board's advocacy role 
and by conducting safety studies. Additionally, the NTSB has an 
important role in assisting victims and their families in the wake of 
transportation disasters. The NTSB must also keep up with emerging 
technologies in transportation, which have the potential to 
dramatically improve safety, but may present challenges, as well.
    If confirmed, I will continue to support the Board in all its 
endeavors.
    Mr. Chairman, if confirmed, I look forward to continuing to work in 
a professional and collegial fashion with my fellow Board Members, the 
dedicated NTSB staff, and this Committee, to enhance transportation 
safety for all.
    Thank you for your time and I look forward to answering your 
questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Robert 
Llewellyn Sumwalt III.
    2. Position to which nominated: Board Member, National 
Transportation Safety Board.
    3. Date of Nomination: May 10, 2017.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: National Transportation Safety Board, 490 L'Enfant 
        Plaza, Washington, D.C. 20594

    5. Date and Place of Birth: June 30, 1956; Columbia, SC.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Anne Macdonald Sumwalt (spouse) Sales Associate
        Kaylyn Mackenzie Sumwalt (daughter) Age 22

    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Science, 1979
        Business Administration
        University of South Carolina

        Master of Aeronautical Science) 2014
        Aviation/Aerospace Safety Systems and Human Factors in Aviation 
        Systems
        Embry-Riddle Aeronautical University

    8. List all post-undergraduate employment, and highlight all 
management level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        National Transportation Safety Board
        Incumbent NTSB Board Member
        August 2006 to present

        SCANA Corporation
        Manager of Aviation
        November 2004-August 2006
        (Managing corporate flight department for a Fortune 500 
        company)

        U.S. Airways
        Airline Pilot
        February 1981-November 2004
        Assigned to Corporate Safety Department on temporary 
        assignment, 1997-2004

        Aviation consultant
        1991-2006
        Self employed while working as an airline pilot and aviation 
        department manager.

    9. Attach a copy of your resume.
    Resume is attached.
    10. List any advisory, consultative, honorary, or other pmt time 
service or positions with Federal State, or local goverrunei1ts, other 
than those listed above, within the last ten years. None
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm. partnership, or other business, enterprise, 
educational, or other institution within the last ten years. None
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    Note: None of these organizations restrict membership on the basis 
of sex, race, color, religion. national origin, age or handicap.

        Academie de L'Air et de L'Espace
        Foreign Associate Member
        2014 to present

        Aircraft Owners and Pilots Association
        Member
        2005 to present

        Columbia Ball
        Member
        Approximately 1995-2014

        Cotillion Ball
        Member
        Approximately 2003-2014

        Eastminster Presbyterian Church
        Member
        1995 to present

        Forest Lake Club
        Member
        1981-2010

        International Society of Air Safety Investigators
        Member
        Approximately 1995 to present

        Royal Aeronautical Society
        Fellow
        2014 to present

        University of South Carolina Alumni Association
        Member
        Approximately 1980 to present

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    I have not given any political contributions exceeding $500 in the 
past ten years. Additionally, I have held no offices for, nor rendered 
any services to, any state or national political party or election 
committee during the past ten years.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Cecile S. Hatfield Award for Excellence in Aviation, 2017

        Bombardier Safety Standdown Award, 2016

        Fellow, Royal Aeronautical Society, 2014

        Association of Air Medical Services Public Service Award, 2010

        South Carolina Aviation Hall of Fame, 2009

        Professional Pilot Magazine Aviation Safety Advocate of the 
        Year, 2009

        ALPA Air Safety Award, 2004

        Flight Safety Foundation's Laura Taber Barbour Air Safety 
        Award, 2003

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Congressional and Legislative Testimony
        Testimony before the Joint Committee on the Judiciary, 189th 
        General Court, The Commonwealth of Massachusetts, on House bill 
        1187, Primary enforcement seat belt legislation, Boston, MA 
        (November 18, 2015).

        Testimony before the Subcommittee on Railroads, Pipelines, and 
        Hazardous Materials Committee on Transportation and 
        Infrastructure, United States House of Representatives, Hearing 
        on oversight of Passenger and Freight Rail Safety, Washington, 
        D.C. (February 26, 2014).

        Testimony Before the Subcommittee on Aviation, Committee on 
        Transportation and Infrastructure, United States House of 
        Representatives, Hearing on the Oversight of Helicopter Medical 
        Services, Washington, D.C. (February 24, 2009).

        Testimony Before the U.S. House of Representatives, 
        Subcommittee on Aviation, Committee on Transportation and 
        Infrastructure, Hearing on Runway Safety, Washington, D.C. 
        (February 13, 2008).

        Testimony Before the U.S. Senate, Committee on Commerce, 
        Science and Transportation, Subcommittee on Surface 
        Transportation and Merchant Marine, Infrastructure, Safety, and 
        Security, Rail Safety Legislation (May 22, 2007).

        Testimony Before the U.S. House of Representatives Committee on 
        Transportation and Infrastructure, Subcommittee on Railroads, 
        Pipelines and Hazardous Materials, Washington, D.C. (January 
        30, 2007).

        Testimony Before Illinois Task Force on Graduated Driver 
        Licensing, Chicago, IL (October 11, 2006).

        Testimony Before Commerce, Science, and Transportation 
        Committee of the United States Senate, Opening Statement of 
        Senate Confirmation Hearing (July 27, 2006).
Published Books or Book Chapters
        Sumwalt, R.L. (2016). Foreword, in Schultz, J., Fielkow, B. 
        Leading people safety: How to win on the business battlefield. 
        Minneapolis: North Loop Books.

        Sumwalt, R.L. (2015). The role of the NTSB, in Blumen et al. 
        (Eds.) Principles and Direction of Air Medical Transport, 2nd 
        edition.Salt Lake City: Air Medical Physician Association.

        Sumwalt, R.L., & Lemos, K.A. (2010). The accident investigators 
        perspective, in Kanki, B., Helmreich, R., & Anca, J. (Eds.) 
        Crew Resource Management, 2nd Edition.San Diego: Academic 
        Press.

        Sumwalt, R.L. (2002). Aircraft accident and incident 
        investigation, in The Standard Handbook for Aeronautical and 
        Astronautical Engineers. New York: McGraw Hill.

        Walters, J.M., & Sumwalt, R.L. (2000). Aircraft Accident 
        Analysis: Final Reports. New York: McGraw Hill.

        Schwab, A., & Sumwalt, R.L. (1990). The Terminal Checklist 
        Book. Alexandria, VA: Queensmith Publications.
Articles. Columns, Publications
        Sumwalt, R.L. (2016). A unique perspective: Moving from the 
        Airbus left seat to the NT5B board seat. Safety Preflight. 
        American Airlines flight safety publication. April, 2016.

        5umwalt, R.L. (2016). Call to action asks air med operators to 
        voluntarily adopt NTSB recommended practices, training and new 
        equipment. Professional Pilot Magazine. February, 2016.

        Sumwalt, R.L. (2015). The Gulfstream IV operator had all the 
        appearance of a good operation but the flightcrew lacked 
        cockpit discipline. Professional Pilot Magazine. November, 
        2015.

        Sumwalt, R.L. (2015). The effect of national culture on crew 
        resource management. Vectors. Fall issue.

        Sumwalt, R., Cross, D., & Lessard, D. (2015). Examining 
        breakdowns in pilot monitoring of the aircraft flight path. 
        International Journal of Aviation, Aeronautics, and Aerospace, 
        2(3).

        Sumwalt, R.L. (2015). NTSB places public helicopter safety on 
        its 2015 Most Wanted List. Professional Pilot Magazine. 
        February 2015.

        Sumwalt, R.L. (2015). Public helicopter safety on NTSB 2015 
        Most Wanted List. Rotor. Winter 2015.

        Sumwalt, R.L. (2015). Challenges remain in public helicopter 
        safety: Crash mistakes and mindsets. Air Beat. January/February 
        2015.

        Sumwalt, R.L. (2014). You, me and NTSB: Setting the record 
        straight Professional Pilot Magazine. February 2015.

        Sumwalt, R.L. (2013). Safety management systems are proving 
        their value in fixed-wing and helo flight ops. Professional 
        Pilot Magazine. May 2013.

        Sumwalt, R.L. & Dalton, S.L. (2012). Navigating the course to a 
        true safety culture. Marine Technology. April 2013.

        Sumwalt, R.L. (2011, September 27). A message to the HEMS 
        community. Association of Air Medical Services web page.

        Sumwalt, R.L. ``NTSB Most Wanted List.'' Professional Pilot 
        Magazine. August, 2011.

        Sumwalt, R.L. ``Equipment, Training and Infrastructure--Three 
        Keys to Improving HEMS Safety.'' Professional Pilot Magazine. 
        October, 2010.

        Sumwalt, R.L. ``Helicopter EMS: Life-saving Changes Needed for 
        a Life-Saving Industry.'' OpEd piece in The State. September 
        26, 2010.

        Sumwalt, R.L. ``NTSB Studies Helicopter EMS Safety, Acts to 
        Improve it.'' Professional Pilot Magazine. January 2010.

        Sumwalt, R.L. ``Professionalism Means Doing the Right Things--
        Even When no one is Watching.'' Professional Pilot Magazine. 
        January 2008.

        Sumwalt, R.L. ``Do You Have a Safety Culture?'' AeroSafety 
        World. July 2007.

        Sumwalt, R. L. ``Get Habitual Drinking Drivers off South 
        Carolina's Highways.'' Op Ed piece in The State. November, 
        2006.

        Sumwalt, R.L., & Boyer, R.D., ``Applying Operational Risk 
        Management in Corporate Flight Operations.'' In Proceedings 
        from the 51st annual Flight Safety Foundation/National Business 
        Aviation Association Corporate Aviation Safety Seminar (CASS), 
        May 9-11, 2006. Phoenix, AZ.

        Sumwalt, R.L. ``Accident Analysis: Failure to Monitor Airspeed 
        Leads to Loss of Control.'' Professional Pilot Magazine. 
        November 2005.

        Sumwalt, R.L., ``Enhancing Flight-crew Monitoring Skills Can 
        Increase Corporate Aviation Safety.'' In Proceedings from the 
        49th annual Flight Safety Foundation/National Business Aviation 
        Association Corporate Aviation Safety Seminar (CASS), April 27-
        29, 2004. Tucson, Arizona.

        Walters, J.M., & Sumwalt, R.L. ``Accident Analysis: Aspen CFIT 
        Accident.'' Professional Pilot Magazine. October 2003.

        Sumwalt, R.L. ``Airplane Upset Recovery Training: A Line 
        Pilot's Perspective.'' Flight Safety Digest. July August 2003.

        Sumwalt, R.L., Thomas, R.J., & Dismukes, R.K. ``The Last Line 
        of Defense Against Aviation Accidents.'' Viewpoint Editorial in 
        Aviation Week and Space Technology. August 25, 2003.

        Sumwalt, R.L. ``Cockpit Monitoring.'' Professional Pilot 
        Magazine. August 2003.

        Sumwalt, R.L., & O'Neill, J. ``Runway Changes: Managing the 
        Threat.'' Safety On Line. Spring, 2003.

        Sumwalt, R.L., Thomas, R.J.,& Romeo, C. ``Newly implemented 
        line Operations Safety Audit produces valuable data for air 
        carrier.'' ICAO Journal. Number 1, 2003. Volume 58.

        Sumwalt, R.L., & Walters, J.M. ``Accident Analysis: Missing the 
        Runway Completely.'' Professional Pilot Magazine. January 2003.

        Sumwalt, R.L., ``Setting the FCU Improperly Can lead to an 
        Unauthorized Open Descent.'' Safety On Line. Winter,2003.

        Sumwalt, R.L., Thomas, R.J.,& Dismukes, R.K. ``Enhancing 
        Flight-crew Monitoring Skills Can Increase Flight Safety.'' In 
        Proceedings from the Joint Meeting of the 55th annual FSF 
        International Air Safety Seminar (IASS), 32nd IFA International 
        Conference. November 4-7, 2002. Dublin, Ireland.

        Sumwalt, R.L., ``How to Set Up a LOSA--U.S. Airways 
        Experience.'' Chapter 4 in ICAO Line Operations Safety Audit 
        (LOSA) Manual. ICAO Document 9803 AN/761. First Edition--2002.

        Sumwalt, R.L. and Walters, J.M. ``Accident Analysis: Lear 35A 
        vanishes from radar near LEB.'' Professional Pilot Magazine. 
        June 2002.

        Sumwalt, R.L., & Thomas, R.J. ``Findings from the U.S. Airways 
        Line Operations Safety Audit (LOSA).'' Safety On Line. Spring 
        2002.

        Sumwalt, R.L., & Walters, J.M. ``Accident Analysis: Falcon 900 
        overrun. Hyannis, MA, March 17, 2000.'' Professional Pilot 
        Magazine. April 2002.

        Sumwalt, R.L. ``Error management gives pilots weapons against 
        taxiway and runway problems.'' Professional Pilot Magazine. 
        January 2002.

        Sumwalt, R.L., & Walters, J.M. ``Accident Analysis: 
        Destabilized flare and hard landing lead to disaster.'' 
        Professional Pilot Magazine. November 2001.

        Sumwalt, R.L., & Walters, J.M. ``Accident Analysis: Niner Mike 
        is in trouble.'' Professional Pilot Magazine. September 2001.

        Sumwalt, R.L., & Walters, J.M. ``Accident Analysis: Failure to 
        monitor level-off at MDA leads to CFIT accident.'' Professional 
        Pilot Magazine. April 2001.

        Sumwalt, R.L., & Walters, J.M. ``Accident Analysis: Nothing 
        good comes from an unstabilized approach.'' Professional Pilot 
        Magazine. March 2001.

        Walters, J.M., & Sumwalt, R.L. ``Accident Analysis: Revisiting 
        the steps that can lead to disaster,'' Professional Pilot 
        Magazine. December 2000.

        Walters, J.M., & Sumwalt, R.L. ``Accident Analysis: On HOU to 
        IAH, First Approach was Bad, Second was Fatal.'' Professional 
        Pilot Magazine. March 2000.

        Sumwalt, R.L., & Thomas, R.J. ``Enhancing Safety Through Error 
        Management.'' In Proceedings from the Joint Meeting of the 52nd 
        annual FSF International Air Safety Seminar (IASS), 29th IFA 
        International Conference. November 8-11, 1999. Rio de Janeiro, 
        Brazil.

        Sumwalt, R.L. ``Enhancing Flight-crew Monitoring Skills Can 
        Increase Flight Safety.'' Flight Safety Digest. March 1999.

        Sumwalt, R.L. ``Enhancing Safety Though Error Management.'' US 
        Airways SAFETY ON LINE. March 1999.
        Sumwalt, R.L. ``The Wrong Stuff: Troubled Cockpit Interpersonal 
        Relations Can Affect Safety.'' Professional Pilot Magazine. 
        February 1999.

        Dismukes, K., Young, G., and Sumwalt, R.L. ``Cockpit 
        Interruptions and Distractions.'' ASRS Directline. December, 
        1998.

        Sumwalt, R.L. ``Integrating Human Factors into Aircraft 
        Accident Investigations.'' ISASI Forum. June-August 1998. 
        International Society of Air Safety Investigators.

        Sumwalt, R.L. ``Closing the Gap on CFIT.'' Professional Pilot 
        Magazine. January 1998.

        Sumwalt. R.L. ``Can You Throw Another Log on the Fire: Be 
        Careful What You Say.'' US Airways SAFETY ON LINE. December 
        1997.

        Sumwalt, R.L., Morrison, R.F., Watson, A. and Taube, E. ``What 
        ASRS Date Tell About Inadequate Flight Crew Monitoring.'' In 
        Proceedings of the Ninth International Symposium on Aviation 
        Psychology, Columbus, Ohio. April, 1997. (This paper prepared 
        under subcontract for NASA's Aviation Safety Reporting System.)

        Sumwalt, R.L. ``Avoiding the Fate of Icarus.'' Air Line Pilot. 
        April 1997.

        Sumwalt, R.L. ``A Human Performance Evaluation: The Effects of 
        Airport Curfews on Flight Crew Performance.'' Air Line Pilot. 
        March, 1997.

        Sumwalt, R.L. ``Finding Fault.'' Professional Pilot Magazine. 
        February 1997.

        Sumwalt, R.L. ``Aircraft Malfunctions Require Crew 
        Coordination.'' Professional Pilot Magazine. January 1996.

        Sumwalt, R.L. ``Altitude Awareness Programs Can Reduce Altitude 
        Deviations.'' Fight Safety Digest. December, 1995.

        Sumwalt, R.L. ``ASRS Incident Data Reveal Details of Flight-
        crew Performance During Aircraft Malfunctions.'' Flight Safety 
        Digest. October, 1995.

        Sumwalt, R.L. ``The Quest for Aviation Safety's Holy Grail: 
        Finding Underlying Causes of Accidents and Incidents, or, If 
        You Really Want to Improve Aviation Safety, You Must First 
        Identify Systemic Problems.'' In Proceedings of Workshop on 
        Accident and Incident Human Factors. FAA, June 1995.

        Mancuso, V., & Sumwalt, R.L. Human Factors Evaluation: Runway 
        Collision Between TWA Flight 427 and Superior Aviation Cessna 
        441, STL Airport, November 22, 1994. Air Line Pilots 
        Association, May 1995.

        Sumwalt, R.L. ``Coping with Tiredness--Fatigue Part 2.'' 
        Professional Pilot Magazine. May 1995.

        Sumwalt, R.L. ``Flying Alert--Fatigue, Part 1.'' Professional 
        Pilot Magazine. April 1995.

        Sumwalt, R.L., & Watson, A. ``What ASRS Incident Data Tell 
        About Flight Crew Performance During Aircraft Malfunctions.'' 
        In Proceedings of the Eighth International Symposium on 
        Aviation Psychology, Columbus, Ohio. April, 1995.) (This paper 
        prepared under subcontract for NASA's Aviation Safety Reporting 
        System.)

        Sumwalt, R.L., & Cox, J.M. ``Aircraft Incident Report. 
        Controlled Flight Into Terrain: American West Flight 754, DFW 
        Airport, December 8, 1993.'' Air Line Pilots Association. 
        September 1994.

        Sumwalt, R.L. ``Accident and Incident Reports Show Importance 
        of `Sterile Cockpit' Compliance,'' Flight Safety Digest. July 
        1994.

        Sumwalt, R.L. ``Crew Resource Management for All Operators.'' 
        ASRS Callback. July 1994. (This paper prepared under 
        subcontract for NASA's Aviation Safety Reporting System.)

        Sumwalt, R.L. ``There's No Such Thing as a Little Ice.'' 
        Professional Pilot Magazine. January 1994.

        Sumwalt, R.L. ``Watch Your Altitude.'' ASRS Callback. December 
        1993. (This paper prepared under subcontract for NASA's 
        Aviation Safety Reporting System.)

        Sumwalt, R.L. ``Incident Reports Highlight Problems Involving 
        Air Carrier Ground Deicing/Anti-icing.'' Flight Safety 
        Foundation Airport Operations. September/October 1993.

        Sumwalt, R.L. ``The Sterile Cockpit.'' ASRS Directline.June 
        1993. (This paper prepared under subcontract for NASA's 
        Aviation Safety Reporting System.)

        Sumwalt, R.L. ``Aircraft Ground Deicing Problems: 
        Recommendations from Analysis of ASRS Incident Data.'' In 
        Proceedings of SAE Aircraft Ground Deicing Conference, Salt 
        Lake City, Utah, June 1993.

        Sumwalt, R.L. ``ASRS Problems Involving Air Carrier Ground 
        Deicing/Anti-Icing.'' In Proceedings of the Seventh 
        International Symposium on Aviation Psychology, Columbus, Ohio. 
        April, 1993. (This paper prepared under subcontract for NASA's 
        Aviation Safety Reporting System.)

        Sumwalt, R.L. ``Ground Deicing Problems in Air Carrier 
        Operations.'' ASRS Callback. February 1993. (This paper 
        prepared under subcontract for NASA's Aviation Safety Reporting 
        System.)

        Sumwalt, R.L. ``Rejected Take-off Considerations for Fokker 100 
        and F28.'' Fokker Aircraft Wing tips. December 1992.

        Sumwalt, R.L. ``Preventing Pilot-caused Runway Incursions.'' 
        Professional Pilot Magazine. December, 1992.

        Sumwalt, R.L. ``Accident Investigation School Teaches How to 
        Find Probable Cause.'' An inside look at the NTSB's accident 
        investigation school Professional Pilot Magazine. October, 
        1992.

        Sumwalt, R.L. ``Leadership on the Flightdeck Reflects 
        Training.'' Professional Pilot Magazine. June 1992.

        Sumwalt, R.L. ``Taxi!'' ASRS Directline. Summer 1992. (This 
        paper prepared under subcontract for NASA's Aviation Safety 
        Reporting System.)

        Sumwalt, R.L. ``NTSB's John Lauber Digs for Probable Cause.'' 
        Professional Pilot Magazine. January 1992.

        Sumwalt, R.L. ``Weather or Not to Go.'' Professional Pilot 
        Magazine. January 1992.

        Sumwalt, R.L. ``Be Prepared to Abort: Rejected Takeoffs, Part 
        Two.'' Professional Pilot Magazine. December 1991.

        Sumwalt, R.L. ``Rejected Takeoffs, Part One.'' Professional 
        Pilot Magazine. November 1991.

        Sumwalt, R.L. ``The Importance of Proper Aviation Weather 
        Dissemination to Pilots: An Airline Captain's Perspective.'' In 
        Proceedings of the Fourth International Symposium on Aviation 
        Weather Systems, Paris, France. June 1991.

        Sumwalt, R.L. ``Eliminating Pilot-Caused Altitude Deviations: A 
        Human Factors Approach.'' In Proceedings of the Sixth 
        International Symposium on Aviation Psychology, Columbus, OH. 
        May 1991.

        Sumwalt, R.L. ``Checking the Checklist,'' Professional Pilot 
        Magazine. March 1991.

        Sumwalt, R.L. ``Altitude Callouts: Who, When and Why.'' 
        Airwaves. February 1991.

        Sumwalt, R.L. ``Flightcrew Interactions,'' Professional Pilot 
        Magazine. November 1990.

        Sumwalt, R.L. ``Altitude Awareness,'' Professional Pilot 
        Magazine. September 1990.

        Sumwalt, R.L. ``Gulfstream 4 Phase 2 Flightcheck,'' 
        Professional Pilot Magazine. February 1990.

        Sumwalt, R.L. ``Piaggio P180 Avanti Flightcheck,'' Professional 
        Pilot Magazine. July 1989.

        Sumwalt, R.L. ``Slippery When Wet,'' Professional Pilot 
        Magazine. March 1989.

        Sumwalt, R.L. ``Stop! More Efficiently,'' Professional Pilot 
        Magazine. September 1988.

        Sumwalt, R.L. ``The Cat's Eye (FLIR Technology to Enhance 
        Instrument Landings),'' Professional Pilot Magazine. September 
        1988.

        Sumwalt, R.L. ``Fokker 50 Flightcheck,'' Professional Pilot 
        Magazine. August 1988.

        Sumwalt, R.L. ``Advanced Avionics: The New Generation,'' 
        Professional Pilot Magazine. May 1988.

        Sumwalt, R.L. ``Fokker 100 Flightcheck,'' Professional Pilot 
        Magazine. March 1988.

        Sumwalt, R.L. ``Cockpit Resource Management,'' Professional 
        Pilot Magazine. December 1987.

        Sumwalt, R.L. ``Category 3 Operations,'' Piedmont Airlines 8737 
        Flight Crew Training Manual. September 1987.

        Sumwalt, R.L. ``TCAS Growing Pains,'' Professional Pilot 
        Magazine. April 1987.

        Sumwalt, R.L. ``Improving Stopping Efficiency,'' Piedmont 
        Airlines Operations Update. December 1986.

        Sumwalt, R.L. ``Improving Pilot Interpretation of Airborne 
        Weather Radar,'' Professional Pilot Magazine. June 1986.

        Sumwalt, R.L. ``F28 Flightcheck,'' Professional Pilot Magazine. 
        March 1986.

        Sumwalt, R.L. ``Low Visibility Operations,'' Professional Pilot 
        Magazine. February, 1986.

        Sumwalt, R.L. ``Deadly Persuader: Low Altitude Windshear,'' 
        Professional Pilot Magazine. October, 1985.

        Sumwalt, R.L. ``Fuel Management Guide for Pilots,'' Piedmont 
        Airlines Route Manual. August 1985.

        Sumwalt, R.L. ``Flying By the Book,'' Professional Pilot 
        Magazine. May 198S.

        Sumwalt, R.L. ``Descent Techniques for Fuel Efficiency,'' 
        Piedmont Airlines Operations Update. Piedmont Airlines. March 
        1985.

        Sumwalt, R.L. ``Fuel Conservation,'' Piedmont Airlines 
        Operations Update. December, 1984.
Speeches and Presentations
        May 9, 2017--Presentation to the NorCal Business Aviation 
        Association-Meeting your customers' safety expectations. 
        Mountain View, CA

        April 25, 2017--Board Meeting Opening and Closing Statements: 
        Aircraft Accident Report--Collision with Terrain, Promech Air, 
        Inc., de Havilland DHC-3, N270PA, Ketchikan, Alaska, June 25, 
        2015

        March 31, 2017--Presentation on Leadership to the American 
        Studies Program, Washington, D.C.

        March 7, 2017--Presentation to the Air Charter Safety 
        Foundation, NTSB Training Center, Ashburn, VA

        February 14, 2017--Presentation to the Wichita Aero Club, 
        Wichita, KS

        January 24, 2017--Presentation to the NBAA Safety Committee 
        Annual Risk Assessment Meeting, Fort Lauderdale, FL

        January 12, 2017--Presentation on the critical importance of 
        flight path monitoring at Atlas Air WW, Miami, FL

        December 12, 2016--Presentation to the FAA Chief Counsel's 
        December All Hands meeting, Washington, D.C.

        December 9, 2016 Opening and Closing Statements--NTSB 
        Investigative Hearing: Accident Involving Heart of Texas 
        Balloons near Lockhart, TX. Hearing conducted in Washington, 
        D.C.

        December 1, 2016--Presentation at the NTSB Training Center's 
        ``Investigating Human Fatigue Factors'' course, NTSB Training 
        Center, Ashburn, VA

        November 14, 2016--Speech to students in the American Studies 
        Program, Washington, D.C.

        November 9, 2016--Presentation to Middle Tennessee State 
        University, Murfreesboro, TN

        October 31, 2016--Presentation to National Business Aviation 
        Association Emergency Response Seminar, Orlando, FL

        October 27, 2016--Presentation to the Railway Tie Association's 
        Annual Symposium and Technical Conference. Bonita Springs, 
        Florida

        October 19, 2016--Presentation to the AQP Working Group 
        conference, Dallas, TX

        October 17, 2016--Dinner speech for Flight Safety 
        International's ``Best of the Best'' celebration, Grapevine, TX

        October 14, 2016--Presentation at the University of North 
        Texas' Aviation Logistics Program, Denton, TX

        October 12, 2016--Web presentation to the Kent State Student 
        Chapter of American Association of Airport Executives (AAAE): 
        Improving Safety Through Accident Investigation.

        October 6, 2016--Keynote speech on professionalism at the 2016 
        Mid-Atlantic Safety Standdown in New Castle, Delaware.

        September 29, 2016--Presentation to Bombardier Safety 
        Standdown: ``Ten Years of Learning with The NTSB'' in Wichita, 
        Kansas.

        September 27, 2016--``Your company plane just crashed: Are you 
        prepared to deal with the NTSB?'' Workshop presentation at the 
        Bombardier Safety Standdown, Wichita, Kansas.

        September 22, 2016--Presentation to the Safety Leadership 
        Symposium & Workshop, Houston, Texas.

        September 9, 2016--Presentation to Boeing North Charleston 
        Employees about making safety a core value.

        September 1, 2016--Presentation to North Texas Business 
        Aviation Safety Show Down.

        August 18, 2016--``Improving Safety Through Accident 
        Investigation'' presentation to the Atlanta Aero Club, Atlanta, 
        Georgia.

        July 23, 2016--Presentation at Jack Henry Safety Day 2016 in 
        Monett, Missouri: ``Are your customers getting what they 
        expect?''

        July 23, 2016--Presentation at Jack Henry Safety Day 2016 in 
        Monett, Missouri: ``Case studies of two aircraft accidents.''

        July 13,2016--Roundtable discussion: ``A Dialogue on What's 
        Next in Rail Tank Car Safety.''

        June 28, 2016--Presentation to Westchester Aviation 
        Association's annual safety standdown.

        June 21, 2016--NTSB Forum: ``PI REPs: Pay it Forward . . . 
        Because Weather for One is Weather for None.''

        June 8, 2016--Safety Leadership: Presentation to the 
        International Association of Missionary Aviation.

        June 2, 2016--Speech to the Academie de I'Air et d'Espace on 
        aircraft automation. Toulouse, France.

        May 10, 2016--Commencement address to the Embry-Riddle 
        Aeronautical University commencement, Daytona Beach, Florida.

        May 6, 2016--Crisis communications presentation to the Flight 
        Safety Foundation's Business Aviation Safety Summit.

        April 29, 2016--Presentation to the International Air and 
        Transportation Safety Bar Association's Spring Conference, 
        Washington, D.C.

        April 28, 2016--Presentation to the Twin Cessna Flyers 
        organization at the annual convention in Charleston, South 
        Carolina.

        April 27, 2016--Presentation to the Carolinas Aviation 
        Professionals Association's Regional Safety Seminar in 
        Charlotte, North Carolina.

        April 22, 2016--Presentation at Vaughn College in New York, New 
        York.

        April 14, 2016--Presentation at NTSB Training Course for Junta 
        de Investigadon de Accidentes de Aviacion Civil (JIAAC), Buenos 
        Aires, Argentina.

        April 6, 2016--Webinar on distractions in transportation, with 
        National Safety Council.

        March 30, 2016--Presentation to JetBlue instructor pilots on 
        the importance of standardization.

        March 11, 2016--Presentation to Hardwood Manufacturers 
        Association National Conference about creating a positive 
        safety culture, Fort Worth, Texas.

        March 8, 2016--Presentation to employees of Koppers Inc., about 
        creating a future of safety.

        February 26, 2016--Presentation on the SpaceShip Two 
        investigation to the American Bar Association's Forum on Air 
        and Space Law, Washington, D.C.

        February 3, 2016--Presentation on Crisis Communications at the 
        Airline Symposium, McLean, Virginia.

        January 22, 2016--Presentation to Embry-Riddle Aviation Law & 
        Insurance Symposium in Orlando, Florida.

        January 19, 2016--Interview on CBS Baltimore ``Baltimore 
        Barristers'' with Alex Bush.

        January 16, 2016--Presentation on a case study of the Bedford, 
        Massachusetts G-IV crash at A31R Conference in Arizona.

        January 16, 2016--Presentation about ways to improve aviation 
        emergency response at A31R Conference in Arizona.

        January 11, 2016--Presentation to TRB Task Force on Transit 
        Safety.

        January 7, 2016--Presentation to the University Aviation 
        Association.

        November 11, 2015--Webinar presentation: ``Improving Safety 
        Through Accident Investigation'' at ERAU Worldwide.

        November 2, 2015--Presentation on crisis communications to 
        Flight Safety Foundation International Air Safety Summit in 
        Miami, FL

        October 20, 2015--Presentation to JetBlue Executive Leadership 
        in New York City

        October 13, 2015--Presentation to the Patriot Rail's Leadership 
        Workshop in Jacksonville, FL

        October 8, 2015--Workshop on Safety Culture, at the Bombardier 
        Safety Standdown, Wichita, KS

        October 7, 2015--Presentation to the Bombardier Safety 
        Standdown, Wichita, KS

        September 29, 2015--Investigating Fatigue in Transportation 
        Accidents: A Board Member's Perspective, NTSB Training Center, 
        Ashburn, VA

        September 14, 2015--Presentation to Michigan State University 
        Railway Management Program, Washington, D.C.

        September 10, 2015--Luncheon Speech, Short Line Safety 
        Institute Forum, Washington, D.C.

        August 26, 2015--Presentation to SC Aerospace Conference, 
        Columbia, SC

        July 30, 2015--Keynote Address at the Flight Safety Foundation 
        3rd Annual Dinner, Washington, D.C.

        July 22, 2015--Remarks at the Air Line Pilots Association, 
        International (ALPA) ``Keep America Flying: A Flight Plan for 
        Safe and Fair Skies'' Safety Forum, Washington, D.C.

        June 17, 2015--Presentation to American Express Safety 
        Standdown, Newburgh, NY

        May 20, 2015--Presentation to Sky Regional Airlines, Toronto, 
        Canada

        May 12, 2015--Presentation to Northeast Aviation Safety 
        Roundtable at the Flight Safety Foundation's Business Aviation 
        Safety Summit in Weston, FL

        May 6, 2015--Speech to Stanford University engineering on 
        organizational accidents & risk management, Stanford, CA

        May 2, 2015--Commencement Address to the Embry-Riddle 
        Aeronautical University Worldwide Campus, Daytona Beach, FL

        April 24, 2015--Presentation at the College of Aeronautics at 
        Vaughn College, New York, NY

        April 23, 2015--Presentation to Chicago Area Business Aviation 
        Association, Glenview, IL

        April 21, 2015--Keynote Speech at the FAA International 
        Rotorcraft Safety Conference, Hurst, TX

        March 31, 2015--Roundtable: Disconnect from Deadly 
        Distractions--Opening Statement

        March 23, 2015--Presentation to NBAA International Operators 
        Conference, San Antonio, TX

        March 18, 2015--Presentation to the Aviation Law Enforcement 
        Association (ALEA) Midwest Regional Safety Seminar in Chicago, 
        IL

        March 10, 2015--Presentation to Air Charter Safety Foundation 
        at NTSB Training Center, Ashburn, VA

        February 13, 2015--Speech to Columbia, SC Rotary Club

        January 30, 2015--Panel Discussion of New Realities in 
        International Aviation, Orlando, FL

        January 16, 2015--Keynote address to the Aviation, Aeronautics, 
        Aerospace International Research (A3IR) Conference, Phoenix, AZ

        January 16, 2015--Presentation to the Aviation, Aeronautics, 
        Aerospace International Research (A3IR) Conference on 
        breakdowns in flight path monitoring & flight path deviations, 
        Phoenix, AZ

        January 14, 2015--Presentation to students visiting from 
        Southern Illinois University, Washington, D.C.

        October 20, 2014--Presentation to National Business Aviation 
        Association's Emergency Response Planning Workshop, Orlando, FL

        October 16, 2014--Keynote Speaker at LifeFlight Eagle Safety 
        Symposium, Kansas City, MO

        October 9, 2014--Presentation to Bombardier Safety Standdown, 
        Wichita, KS

        October 8, 2014--Presentation to United Airlines Leadership 
        Safety Summit, Denver, CO

        September 25, 2014--Presentation to the Bristow Group 
        operations leadership team at the NTSB Training Center, 
        Ashburn, VA

        September 15, 2014--Presentation to the 2nd Annual VA 
        Distracted Driving Summit, Richmond, VA

        September 5, 2014--Presentation to the Cincinnati Business 
        Aviation Symposium, Cincinnati, OH

        August 11, 2014--Controlled Flight Into Terrain (CFIT) The 
        problem that never went away. Presentation to Bombardier Safety 
        Standdown, Sao Paulo, Brazil

        July 27, 2014--The Crash of Asiana Flight 214. Presentation to 
        Aviation Section of American Association of Justice, Baltimore, 
        MD

        July 24, 2014--Presentation to the Lawyer Pilot Bar Association 
        in Albuquerque, NM

        June 6, 2014--Presentation The NTSB's Approach to Accident 
        Investigation to the Junta de lnvestigaci6n de Accidentes de 
        Aviaci6n Civil, Buenos Aries, Argentina

        May 29, 2014--Presentation on the critical role of safety 
        leadership, Houston's Transportation Safety Day, Houston, TX

        May 29, 2014--Presentation on the Anatomy of an NTSB 
        Investigation, Houston's Transportation Safety Day, Houston, TX

        May 21, 2014--Accident Investigation Orientation for Rail 
        Professionals, NTSB Training Center, Ashburn, VA

        May 12, 2014--Luncheon speech at Annual Meeting of Aerospace 
        Medical Association, San Diego, CA

        May 2, 2014--Speech at the 261st Anniversary of the Winyah 
        Indigo Society, Georgetown, SC

        April 30, 2014--Presentation to Duke Energy Aviation Safety 
        Seminar, Charlotte, NC

        April 17, 2014--Presentation to the 59th annual Business 
        Aviation Safety Summit in San Diego, CA

        April 2, 2014--The impact of hands-free cell phone use, 
        presentation at National Safety Council webinar on distraction

        March 18, 2014--Presentation to the Regional Airlines 
        Association Symposium in Orlando, Florida

        March 5, 2014--Presentation to the Air Charter Safety 
        Foundation at the NTSB Training Center, Ashburn, VA

        February 27, 2014--Keynote to the International Helicopter 
        Safety Symposium banquet, Anaheim, CA

        February 27, 2014--Keynote to the International Helicopter 
        Safety Symposium banquet, Anaheim, CA
        February 8, 2014--Presentation to Inspection Authorization 
        Renewal Seminar, Hickory, NC

        February 4, 2014--Presentation on aviation professionalism to 
        the Aviation Institute at the University of Nebraska, Omaha, NE

        February 4, 2014--Presentation to Nebraska Business Aviation 
        Association, Omaha, NE

        January 18, 2014--Presentation to FAA Wings Seminar, Phoenix, 
        AZ

        January 17, 2014--Keynote presentation to Aerospace 
        International Research (A3IR) Conference, Phoenix, AZ

        January 14, 2014--Presentation to Southeastern Aviation Safety 
        Roundtable on Enhancing Crew Monitoring and Cross-checking, 
        Huntersville, NC

        January 12, 2014--TRB Human Factors luncheon Speaker, 
        Washington, D.C.

        January 10, 2014--Presentation to the University Aviation 
        Association, Washington, D.C.

        December 6, 2013--Presentation on safety culture at Embry-
        Riddle President's Safety Education Day, Daytona Beach, FL

        December 5, 2013--Presentation to the Embry Riddle student 
        chapter of ISASI about the mission of the NTSB, Daytona Beach, 
        FL

        November 14, 2013--ALTA Airlines Leaders Forum in Cancun, 
        Mexico

        November 11, 2013--Presentation to the Patriot Rail Leadership 
        Conference in Jacksonville, FL

        October 31, 2013--Presentation at the Flight Safety Foundation 
        International Air Safety Summit in Washington, D.C.

        September 27, 2013--Presentation on creating a healthy safety 
        culture to Embry-Riddle Aeronautical University's Prescott 
        campus, Prescott, AZ

        September 16, 2013--Presentaf1on on Standard Operating 
        Procedures to Southern California Aviation Association

        September 16, 2013--Presentation on Working with the NTSB to 
        Southern California Aviation Association

        August 8, 2013--Presentation to International Business Class, 
        Wichita State University

        August 7, 2013--Presentation to the Wichita Aero Club, Wichita, 
        KS

        July 17, 2013--Presentation to the ALPA 59th Air Safety Forum, 
        Washington, D.C.

        June 25, 2013--Keynote address to Fourth Pan American Safety 
        Summit, San Jose, Costa Rica

        May 23, 2013--Presentation to the Southwest Airlines Flight 
        Operations Spring Symposium

        May 16, 2013--Presentation to the Washington Area National 
        Business Aviation Association, Ashburn, VA

        May 5, 2013--Presentation to Aviation Insurance Association, 
        Orlando, FL

        April 15, 2013--Presentation to Bombardier's Safety Standdown 
        about creating a positive safety culture, Shanghai, China

        April 4, 2013--Presentation to Pacific Northwest Business 
        Aviation Association (PNBAA), Seattle, WA

        April 4, 2013--Presentation to Pacific Northwest Business 
        Aviation Association (PNBAA), Seattle, WA

        March 4, 2013--Presentation to HEU-EXPO, Las Vegas, NV

        February 13, 2013--Presentation to the South Carolina Aviation 
        Association about working with the NTSB after an accident, 
        Myrtle Beach, SC

        February 7. 2013--Inadequate Monitoring and Cross-checking--How 
        do we make vast improvements?, Atlanta, GA

        January 24, 2013--Presentation to Patriot Rail Operations Team 
        Leadership Workshop, Jacksonville, FL

        January 14, 2013--Presentation to the Transportation Research 
        Board on Human, Organizational, and Cultural Factors in 
        Accidents

        January 13, 2013--Presentation to the Transportation Research 
        Board Human Factors Workshop on Automation, Washington, D.C.

        January 13, 2013--Presentation to the Transportation Research 
        Board Human Factors Workshop on Safety Data, Washington, D.C.

        December 10, 2012--Telecon presentation to Steel River 
        Infrastructure Partners on role of leadership in preventing 
        organizational accidents

        December 7, 2012--Luncheon Remarks for International Air and 
        Transportation Safety Bar Association, Washington, D.C.

        December 3, 2012--Keynote Remarks for National Organizations 
        for Youth Safety (NOYS)--Teen Distracted Driving Prevention 
        Summit, Washington, D.C.

        November 27, 2012--Presentation to U.S. Air Force's Safety 
        Center, Albuquerque, NM

        November 7, 2012--Presentation on Inadequate Monitoring and 
        Cross-checking ``The Problem that Never Went Away'' Human 
        Factors industry roundtable, Irving, TX

        October 29, 2012--Presentation on Threat and Error Management 
        at NBAA's Single Pilot Safety Standdown in Orlando, FL

        October 24, 2012--Presentation on how to create the right kind 
        of safety culture, Railway Tie Assn Symposium in Tampa, FL

        October 23, 2012--Presentation on Understanding the Critical 
        Role of Leadership in Preventing Organizational Accidents, at 
        CPUC Safety Leadership Conference, Los Angeles, CA

        October 18, 2012--Luncheon Remarks Before American Bar 
        Association Tort Trial & Insurance Practice Section, Aviation 
        and Space Law Committee, Washington, D.C.

        October 8, 2012--Safety Management Systems workshop at 
        Bombardier Safety Standdown in Wichita, KS

        August 26, 2012--Presentation to Flight Safety Foundation in 
        Alexandria, VA, on working with the NTSB after an accident 
        occurs

        August 20, 2012--Presentation to Boeing Training and Flight 
        Services personnel in Seattle on adherence to standard op 
        procedures, Seattle, WA

        August 8, 2012--Presentation to Avantair employees on the 
        importance of adhering to standard ops procedures, Clearwater, 
        FL

        July 11, 2012--Presentation to the M&N Aviation Safety 
        Standdown, Englewood, CO

        June 26, 2012--California Public Utilities Commission (CPUC) 
        Safety leadership Conference in San Francisco, CA

        June 26, 2012--California Public Utilities Commission (CPUC) 
        Safety leadership Conference in San Francisco, CA

        June 12, 2012--Pilot and ATC professionalism presentation to 
        Beaver County Community College

        May 8, 2012--Remarks for Launch of Global Youth Traffic Safety 
        Month, Washington, D.C.

        May 7, 2012--Remarks to NTSB Youth Open House, Washington, D.C.

        May 3, 2012--Remarks to To the International Society of Air 
        Safety Investigators, Mid Atlantic Regional Chapter IMARC, 
        Washington, D.C.

        April 26, 2012--Presentation to the Chicago Area Business 
        Aviation Association conference, Chicago, IL

        April 25, 2012--Remarks at Meharry--State Farm Alliance Teen 
        Safe Driving Champion Award Presentation and ThinkFast Program, 
        Blythewood, South Carolina

        April 19, 2012--Presentation at Flight Safety's Corporate 
        Aviation Safety Seminar in San Antonio, TX

        April 17, 2012--Presentation to Purdue University on 
        Professionalism in Aviation, West Lafayette, IN

        April 4, 2012--Presentation to the Volpe Center's Roundtable on 
        Automation and the Human, Cambridge, MA

        March 29, 2012--Presentation to Embry-Riddle Aeronautical 
        University, Daytona Beach, FL

        March 20, 2012--Presentation at the SCRRA seminar, Los Angeles, 
        CA

        March 8, 2012--Presentation at the Veriforce 2012 Annual 
        Contractor Safety and Training Conference

        March 1, 2012--Presentation at the 24th Annual European Air 
        Safety Seminar (EASS) of the Flight Safety Foundation (FSF), 
        Dublin, Ireland

        November 11, 2011--Presentation to the 2011 Interstate Natural 
        Gas Association of America (INGAA) Foundation Annual Meeting, 
        San Diego, CA

        November 9, 2011--Presentation at the Fifth International 
        Helicopter Safety Symposium, Fort Worth, TX

        October 26, 2011--A Practical Look at Establishing a Safety 
        Culture, presented to the Bombardier 15th Annual Safety 
        Standdown, Wichita, KS

        October 26, 2011--Address on SMS to the Bombardier 15th Annual 
        Safety Standdown, Wichita, KS

        October 26, 2011--Address to the Bombardier 15th Annual Safety 
        Standdown: Raising the Bar on Pilot Professionalism, Wichita, 
        KS

        October 17, 2011-September 28, 2011--Keynote address to General 
        Aviation Air Safety Investigator Workshop, Wichita, KS

        August 23, 2011--Luncheon keynote address to the American 
        Association of Motor Vehicle Administrators Annual 
        International Conference, Milwaukee, WI

        June 28, 2011--Keynote address to University of Southern 
        California/Metrolink Safety Conference, Los Angeles, CA

        June 21, 2011--Presentation at the Airborne Law Enforcement Law 
        Enforcement Association Conference, New Orleans, LA

        June 7, 2011--Remarks to the American Waterways Operators 
        Safety Costal Committee Summer Meeting, Las Vegas, NV

        May 10, 2011--Opening Remarks at the Truck and Bus Safety 
        Forum, Washington, D.C.

        May 5, 2011--Remarks to the Chicago Area Business Aviation 
        Association's Annual Safety Stand-Down, St. Charles, IL

        May 4, 2011--Remarks to the Society of Chest Pain Centers 14th 
        Congress, Miami, FL

        April 20, 2011--Remarks at Flight Safety Foundation's 56th 
        Annual Corporate Aviation Safety Seminar 2011, San Diego, CA

        March 30, 2011--Remarks to the University of North Dakota John 
        D. Odegard School of Aerospace Sciences' Spring Aviation Safety 
        Seminar, Grand Forks, NO

        March 26, 2011--Remarks at South Carolina Aviation Safety 
        Council 2011 Safety Fly-In, Rock Hill, SC

        March 23, 2011--Remarks to NTSB Training Center Aircraft 
        Accident Investigation for Aviation Professionals (AS 301) 
        Course, Ashburn, VA

        January 25, 2011--Remarks before the Transportation Research 
        Board 90th Annual Meeting, Washington, D.C.

        January 19, 2011--Remarks to the Dombroff, Gilmore, Jaques, & 
        French 5th Annual 2011 Airline Symposium, McLean, VA

        November 16, 2010--Remarks on Eliminating Distractions for 
        Young Drivers, Most Wanted List Press Conference: State Issues, 
        Washington, D.C.

        November 12, 2010--Remarks to the Trauma Center Association of 
        America Annual Conference, San Diego, CA

        October 13-14, 2010--Public Forum on Fishing Vessel Safety, 
        Washington, D.C.--Chairman's Opening Remarks, Washington, D.C.

        September 21, 2010--Remarks to the Flight Safety Foundation's 
        Corporate Advisory Committee Workshop, Alexandria, VA

        September 18, 2010--Commencement address to the Embry-Riddle 
        Aeronautical University Worldwide Beaufort Teaching Site, 
        Charleston, and Greenville Campus, Charleston, SC

        September 9, 2010--Remarks before the Transit Rail Advisory 
        Committee for Safety Meeting, Washington, D.C.

        September 1, 2010--Remarks before the Georgia Business Aviation 
        Association's Annual Safety Day, Marietta, GA

        August 24, 2010--Keynote Address for the 2010 Training, 
        Standardization and Compliance Conference, Concord, NC

        May 12, 2010--Remarks before the Flight Safety Foundation's 
        55th Annual Corporate Aviation Safety Seminar, Tucson, AZ

        March 17, 2010--Remarks before the 2010 Association of Air 
        Medical Services Spring Conference, Washington, D.C.

        March 2, 2010--Remarks before the NASA Langley Research 
        Center--Colloquium and Sigma Series Lectures, Hampton, VA

        February 23-24, 2010--Public Hearing on Collision of Two 
        Washington Metropolitan Area Transit Authority Trains Near Fort 
        Totten Station, Washington, D.C., June 22, 2009--Chairman's 
        Opening Statement, Washington, D.C.

        February 12, 2010--Remarks before the South Carolina Aviation 
        Association's 32nd Annual Aviation Conference, Myrtle Beach, SC

        February 11, 2010--Keynote Address for the South Carolina 
        Aviation Association, Hall of Fame Banquet, Myrtle Beach, SC

        January 8, 2010--Remarks before the Embry-Riddle Aeronautical 
        University's 21st Annual Aviation Law & Insurance Symposium, 
        Orlando, FL

        December 10, 2009--Remarks before the Massachusetts Institute 
        of Technology Flying Club, Boston, MA

        December 7, 2009--Remarks to the 2nd Annual Gulfstream Safety 
        Standdown, Savannah, GA

        December 1, 2009--Remarks to the FAA International Runway 
        Safety Summit, Washington, D.C.

        November 3, 2009--Remarks to the Flight Safety Foundation's 
        62nd Annual International Air Safety Seminar, Beijing, China

        October 21, 2009--Remarks to the National Business Aviation 
        Association's 62nd Annual Meeting & Convention, Safety Town 
        Hall Meeting, Orlando, FL

        October 8, 2009--Remarks to the Flight Safety Foundation 
        Corporate Advisory Committee, Alexandria, VA

        October 5, 2009--Remarks to the American College of Emergency 
        Physicians Meeting, Boston, MA

        September 29, 2009--Remarks to the Third International 
        Helicopter Safety Symposium, Montreal, Quebec, Canada

        September 17, 2009--Remarks to the International Society of Air 
        Safety Investigators (ISASI) 2009 40th Annual Seminar, Orlando, 
        Florida

        September 2, 2009--Remarks to the 21st Annual FAA/ATA 
        International Symposium on Human Factors in Maintenance and 
        Ramp Safety, San Diego, CA

        July 9, 2009--Remarks to the Lawyer--Pilots Bar Association 
        Golden Anniversary Meeting, Mackinac Island, Michigan

        June 23, 2009--Remarks to the PALMATT 2nd Aviation Safety and 
        Risk Management Symposium, Teaneck, NJ

        June 11, 2009--Opening Statement For the Public Hearing on U.S. 
        Airways Flight 1549 Airbus A320, N106US, Hudson River, NJ 
        January 15, 2009, Washington, D.C.

        June 3, 2009--Remarks to the Federal Interagency Committee on 
        EMS, Arlington, VA

        May 20, 2009--Remarks to the Training Committee, Regional 
        Airlines Association Annual Convention, Salt Lake City, UT

        May 6, 2009--Remarks to the Advanced Qualification Program 
        Conference, Phoenix, AZ

        April 28, 2009--Remarks on Human Error in the Context of 
        Accidents to the Society of Experimental Test Pilots, Flight 
        Test Safety Workshop, Ottawa, Canada

        Apri1 28, 2009--Remarks on Threat and Error Management to the 
        Society of Experimental Test Pilots, Flight Test Safety 
        Workshop, Ottawa, Canada

        March 18, 2009--Remarks to Flight Safety Foundation's European 
        Aviation Safety Seminar (EASS), Nicosia, Cyprus

        March 11, 2009--Remarks to the Association of Air Medical 
        Services Spring Conference, March 11, 2009, Washington, D.C.

        March 3, 2009--Remarks to the 2009 Air Charter Safety 
        Foundation Symposium, Ashburn, VA

        February 3, 2009--Opening Statement at the Public Hearing the 
        in the Matter of the Issues on Emergency Medical Services, 
        Helicopter Operational Safety, Washington, D.C.

        January 22, 2009--Remarks to the 2009 Cessna Safety Stand-down, 
        Wichita, KS

        October 29, 2008--Remarks to the Regional Airlines 
        Association's Presidents Council Luncheon, Washington, D.C.

        October 22, 2008--Remarks to the 2008 Airports Council 
        International-North America (ACI-NA) Accident Response 
        Workshop, Arlington, VA

        October 20, 2008--Remarks to the Air Medical Transport 
        Conference 2008, Minneapolis, MN

        October 7, 2008--Remarks to NBAA Safety Town Hall Meeting, 
        Orlando, FL

        September 10, 2008--Remarks to the Flight Deck Automation 
        Working Group, Washington, D.C.

        August 19, 2008--Remarks to the FAA Air Traffic Organization 
        Leadership Summit, Washington, D.C.

        July 31, 2008--Remarks to the Pipeline and Hazardous Materials 
        Safety Administration's Public Workshop for Stakeholders: 
        Transporting Hazardous Materials Safely--the Next 100 Years, 
        July 31, 2008, Washington, D.C.

        July 20, 2008--Remarks to the FlightSafety's Senior Leadership 
        Course, Orlando, FL

        July 9, 2008--Remarks to the Pipeline and Hazardous Materials 
        Safety Administration, Washington, D.C.

        June 26, 2008--Remarks to the Southern Gas Association's Safety 
        and Health Round Table during the Environmental, Safety, and 
        Training Conference, Charlotte, NC

        June 19, 2008--Remarks to the South Carolina Electric and Gas 
        Company, Columbia, SC

        June 17, 2008--Keynote Remarks to the FAA Aviation Fatigue 
        Management: Partnerships for Solutions Symposium, Vienna, VA

        May 28, 2008--Keynote Remarks to the Federal Aviation 
        Administration Shared Vision of Aviation Safety Conference, San 
        Diego, CA

        May 22, 2008--Remarks to the Regional Air Cargo carriers 
        Association, 7th Anniversary Spring Conference, Chantilly, VA

        May 14, 2008--Remarks to the Nautical Institute Seminar, United 
        States Merchant Marine Academy, Kings Point, New York

        May 8, 2008--Remarks of Robert Sumwalt, Vice Chairman to the 
        27th Annual Conference of the Aviation Law Association of 
        Australia and New Zealand, Sydney, Australia

        May 1, 2008--Remarks to the International Society of Air Safety 
        Investigators, Mid Atlantic Regional Chapter, Washington, D.C.

        April 17, 2008--Remarks to the 2008 International Boating and 
        Water Safety Summit, San Diego, CA

        April 9, 2008--Remarks to Embry-Riddle Aeronautical University, 
        Daytona Beach, FL

        February 28, 2008--Remarks to the National Business Aviation 
        Association 2008 Leadership Conference, San Antonio, TX

        February 21, 2008--Remarks to the SMU Air Law Symposium, 
        Dallas, TX

        February 19, 2008--Remarks to the Air Charter Safety 
        Foundation, Alexandria, VA

        February 8, 2008--Remarks to the South Carolina Aviation 
        Association, Hilton Head, SC

        January 14, 2008--Opening Remarks to the Southeastern 
        Transportation Center Student Breakfast during the 
        Transportation Research Board of the National Academies' 87th 
        Annual Meeting, Washington, D.C.

        January 9, 2008--Remarks to the University Aviation 
        Association, Washington, D.C.

        December 6, 2007--Opening Remarks to the Aviation Directors 
        Roundtable, Washington, D.C.

        November 6, 2007--Open&middot;mg Remarks Before the NATA 
        Aviation Business Roundtable, Washington, D.C.

        October 15, 2007--Opening Remarks Before the Airline 
        Dispatchers Federation Safety Symposium, Houston, TX

        September 19, 2007--Opening Remarks Before the General Aviation 
        Air Safety Investigators (GAASI) 2007 Advanced Technical 
        Workshop, Wichita, Kansas

        September 6, 2007--Remarks to 19th FAA/ATA International 
        Symposium Human Factors in Maintenance and Ramp Safety, 
        Orlando, Florida

        August 22, 2007--Remarks to the Chief Aircraft Accident 
        Investigators Programme of Air Accident Investigation Bureau of 
        Singapore and Singapore Aviation Academy, Singapore, Republic 
        of Singapore

        August 8, 2007--Remarks to the Air Line Pilots Association, 
        International, 2007 Air Safety & Security Forum, Washington, 
        D.C.

        May 23, 2007--Remarks Before the Flight Safety Foundation Board 
        of Governors, Washington, D.C.

        May 17, 2007--Remarks to the Regional Air Cargo Carriers 
        Association 5th Anniversary Spring Conference, Scottsdale, AZ

        May 12, 2007--Remarks to the National Coalition of 
        Motorcyclists, Charlotte, NC

        April 11, 2007--Remarks to the Air Line Pilots 
        Association,International Pilots Assistance Forum, Denver, CO

        February 12, 2007--Remarks Before the Columbia (SC) Rotary 
        Club, Columbia, SC

        February 2, 2007--Remarks Before the Embry-Riddle Aeronautical 
        University's Eighteenth Annual Aviation Law & Insurance 
        Symposium, Orlando, FL

        January 18, 2007--Remarks Before the United Motorcoach 
        Association Motorcoach EXPO 2007, New Orleans, LA

        November 18, 2006--Remarks Before the 68th Annual Conference, 
        National Foundation for Women Legislators, Avon, CO

        November 10, 2006--Keynote Address for the 30th Anniversary 
        Celebration NASA Aviation Safety Reporting System, San Carlos, 
        CA

        November 3, 2006--Introductory Remarks Before the FAA 3rd 
        Annual International Aviation Safety Forum, Chantilly, VA

        September 24, 2006--Remarks During his Swearing-In Ceremony, 
        Washington, D.C.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        February 26, 2014--Testimony before the Subcommittee on 
        Railroads, Pipelines, and Hazardous Materials Committee on 
        Transportation and Infrastructure, United States House of 
        Representatives, Hearing on Oversight of Passenger and Freight 
        Rail Safety, Washington, D.C.

        April 22, 2009--Testimony Before the Subcommittee on Aviation, 
        Committee on Transportation and Infrastructure, United States 
        House of Representatives, Hearing on the Oversight of 
        Helicopter Medical Services, Washington, D.C.

        February 24, 2009--Testimony Before the Subcommittee on 
        Aviation, Committee on Transportation and Infrastructure., 
        United States House of Representatives. Hearing on the U.S. 
        Airways Flight 1549 Accident, Washington, D.C.

        February 13, 2008--Testimony Before the Subcommittee on 
        Aviation, Committee on Transportation and Infrastructure, 
        United States House of Representatives, Hearing on Runway 
        Safety, Washington, D.C.

        May 22, 2007--Testimony Before Committee on Commerce, Science, 
        and Transportation, Subcommittee on Surface Transportation and 
        Merchant Marine, Infrastructure, Safety, and Security, United 
        States Senate, Hearing on Rail Safety Legislation, Washington, 
        D.C.

        January 30, 2007--Testimony Remarks Before the Subcommittee on 
        Railroads, Pipelines and Hazardous Materials, Committee on 
        Transportation and Infrastructure, United States House of 
        Representatives, on safety of U.S. Railroads. Washington, D.C.

        July 27, 2006--Testimony before the Committee on Commerce, 
        Science, and Transportation, United States Senate. Confirmation 
        Hearing for consideration to become NTSB Board Member, 
        Washington, D.C.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have a strong background in transportation safety. As a Member of 
the NTSB for nearly 11 years, I have been a fierce advocate for 
improving transportation safety and accident investigation processes in 
all transportation modes. I have been involved with deliberating and 
determining the probable cause of over 150 transportation accidents, as 
well as serving as chairman of six NTSB investigative hearings and 
forums. I have been Board Member on Scene for 28 transportation 
accidents, which involved conducting over 60 media briefings, 
interfacing with families of victims, and meeting with elected 
officials. Additionally, while serving as a Member of the NTSB, I have 
presented over 250 speeches, as well as testified to Congress and State 
legislative branches regarding transportation safety issues. 
Additionally, I have served as Acting Chairman of the agency since 
March 31, 2017. I have a deep passion for, and commitment to, improving 
the safety of our Nation's transportation system. I feel that I am 
making positive contributions and would be honored to continue serving.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I have served as Acting Chairman of the NTSB since March 31, 2017. 
I have met with each of the agency's 13 departments to emphasize the 
need for us live by the agency's values of Safety, Excellence, 
Independence, Integrity. Diversity and Inclusion, and Transparency. I 
have also held listening sessions with each of these groups to seek 
their ideas for how the agency can operate more effectively and 
efficiently. As Acting Chairman of NTSB, I meet on a regular basis with 
the Acting Managing Director and the Chief Financial Officer regarding 
our Management Accountability and Controls (MAC) program. I have 
charged our management team with developing an action plan-one that 
requires management accountability-for closing-out risks items that 
were identified by the agency's Senior Management Oversight Council. I 
will ensure these items are properly addressed.
    From 2004-2006, I led an aviation department for SCANA, a Fortune 
500 energy company. There I managed personnel along with ground and 
flight safety, flight crews, aircraft, unit operations, maintenance, 
budgeting, and all associated fiduciary matters. Additionally I was 
responsible for managing the disposition, acquisition, and deployment 
of multi-million dollar aircraft and support assets, including 
construction planning for a multi-million dollar aviation facility to 
house company aircraft and personnel My duties involved supervising 
department personnel, including hiring of departmental employees, as 
well as leading the development of first-ever department strategic 
plan, flight operations manual, and formulating practices to ensure 
standardization in critical night and maintenance practices.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        Budgetary issues--The current reality of Federal Government is 
        the need to cut budgets and spend wisely. The NTSB is no 
        exception. Like most other agencies, we are challenged with 
        doing more with less.

        Maintaining workforce--The NTSB has talented, dedicated 
        employees, many of whom are experts in their respective fields. 
        Many of these employees are approaching (or have already 
        reached) retirement age. I believe it is vital that we recruit 
        and train workers to replace these experienced employees as 
        they retire or otherwise leave the agency.

        Ensuring we maintain our edge--Closely linked to the above two 
        items, I feel it is essential that the NTSB maintain its 
        investigative edge. In order to do that, we need to ensure we-
        have well-trained employees and good equipment. I believe in 
        investing in people by providing training, and I am fearful 
        that, due to budgetary restrictions, we may run into a 
        situation where we don't have enough resources to provide 
        training to maintain that edge. Technology is advancing and the 
        agency needs to be postured to address the investigation needs 
        associated with those changes. Among those advancing 
        technologies are Unmanned Aerial Systems, autonomous vehicles, 
        and commercial space transportation.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, defe1red compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I am retired from U.S. Airways, for which I served as an airline 
pilot for approximately 24 years. The retirement/pension to which I 
should have been entitled is now provided and handled under the 
auspices of the Pension Benefit Guaranty Corporation, a governmental 
agency. I began receiving these retirement benefits effective June 30, 
2006 and they will continue until my death. U.S. Airways was acquired 
by America West in 2005, but the merged airline kept the U.S. Airways 
name. In 2013, that airline acquired American Airlines and retained the 
name of American Airlines.
    My previous Ethics Agreement dated October 11, 2011 stated that I 
would not participate in any particular matter that comes before the 
Board involving specific patties in which U.S. Airways, or any wholly 
owned subsidiary of U.S. Airways, is or represents a party unless 
authorization to participate is granted in accordance with the 
procedures set forth at 5 C.F.R. Sec. 2635.502. Upon consulting with 
the Office of Government Ethics for my EA dated May 11, 2017, OGE 
believed it was no longer necessary to specifically mention U.S. 
Airways since they arc no longer a viable entity due to the merger.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In accordance with my Ethics Agreement dated May 11, 2017, I will 
not participate personally and substantially in any particular matter 
in which I know that I have a financial interest directly and 
predictably affected by the matter, or in which I know that a person 
whose interests are imputed to me has a financial interest directly and 
predictably affected by the matter, unless I first obtain a written 
waiver, pursuant to 18 U.S.C. 208(b)(1), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C. Sec. 208(b)(2).
    Furthermore, I currently hold assorted stocks of transportation-
related companies. At the present, the total value of these stocks meet 
the de minimis exemption under 5 C.P.R. Sec. 2640.202, and I will 
continue to monitor the value of those interests. As outlined in my May 
11, 2017, Ethics Agreement, if the aggregate value of interests 
affected by a particular matter increases and exceeds the de minimis 
threshold, I will not participate personally and substantially in the 
particular matter that to my knowledge has a direct and predictable 
effect on the interests, unless I first obtain a written waiver 
pursuant to 18 U.S.C. Sec.  208(b)(1).
    Because my accounts are managed by a brokerage firm, on the same 
date that my Ethics Agreement was signed (May 11, 2017), in accordance 
with my EA, I notified my account manager of the need obtain my prior 
approval on a case-by case basis for U1e purchase of any assets other 
than cash, cash equivalents, investment funds that qualify for the 
exemption at 5 C.F.R. Sec. 2640.201 (a), obligations of the United 
States, or municipal bonds. He has agreed to comply.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:

        a. Provide the name of agency, association, committee, or 
        group;

        b. Provide the date the citation, disciplinary action, 
        complaint, or personnel action was issued or initiated;

        c. Describe the citation, disciplinary action, complaint, or 
        personnel action;

        d. Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.

    No
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain. No
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    There is nothing unfavorable.
    As far as favorable information, I would like the Committee to know 
that I have a longstanding commitment to and passion for improving 
transportation safety. As I have for nearly 11 years as an NTSB Board 
Member, if confirmed, I will work diligently to use my knowledge, 
skills and experience to help improve safety in all modes of 
transportation safety. My work ethic is unsurpassed.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firstl1and knowledge of matters of interest to the Committee? Yes
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes
                                 ______
                                 
                      Resume of Robert L. Sumwalt
    Profile: Prominent safety executive with a sustained record of 
leadership and success advancing domestic and international 
transportation safety. Worked across a range of roles and 
responsibilities to decisively improve safety performance in large, 
complex, dynamic transportation organizations in both the private and 
public sectors.
Experience and Achievements
National Transportation Safety Board, Washington, D.C.--2006 to Present
Acting Chairman, Vice Chairman and Board Member (Presidential 
appointee)
Nationally recognized transportation safety advocate and accident 
investigation authority. Responded as part of NTSB's Go-Team to 28 
transportation casualties in all modes of transportation. Conducted 
over 60 on-scene media events including live national television and 
radio network appearances. Provided individual and collective review of 
over 150 major transportation investigations to determine accident 
probable cause and subsequent recommendations to prevent recurrence. 
Served as Chairman of Board of Inquiry for five high-profile accident 
public hearings. Presented over 250 speeches to domestic and 
international audiences. Testified to U.S. Congress on issues involving 
aviation and surface transportation safety.

SCANA Corporation, Columbia, SC--2004 to 2006
Manager of Aviation
Provided strong leadership for operations, personnel, and resources for 
a Fortune 500 company aviation department, including safety, 
operations, maintenance, budgeting, and all associated fiduciary 
matters. Led departmental employees into a cohesive, well-functioning 
team. Managed disposition, acquisition, and deployment of multi-million 
dollar aircraft and support assets, including construction planning for 
a multi-million dollar aviation facility to house company aircraft and 
personnel Supervised department personnel, including hiring of 
departmental employees. Led development of first-ever department 
strategic plan, flight operations manual, and formulated practices to 
ensure standardization in critical flight and maintenance practices.

US Airways, Charlotte, NC--1981 to 2004
Airline Captain
Experienced airline captain in U.S. domestic and Latin American 
markets. Served as check airman, instructor pilot and air safety 
representative. Heavily involved in introducing new jet aircraft into 
airline service. Over 14,000 flight hours and FAA type ratings in five 
multi-engine, turbine-powered aircraft.

Air Safety Representative 1986 to 2004
Served as Chairman of Air Line Pilots Association's (ALPA) Human 
Factors and Training Group. Engaged in the development and 
implementation of several airline safety programs. Served on the U.S. 
Airways Flight Operations Quality Assurance (FOQA) Monitoring Team. 
Directed the U.S. Airways Line Operations Safety Audit (LOSA). 
Contributed heavily in procedural development of the USAir Altitude 
Awareness Program. Co-founded the ALPA Critical Incident Response 
Program that remains in place today.

NASA Aviation Safety Reporting System (ASRS)--1991 to 1999
Aviation Safety Research Consultant
Conducted aviation safety research as a consultant to the NASA ASRS. 
Principal Investigator for three ASRS research initiatives and authored 
articles for ASRS publications.

University of Southern California Aviation Safety Program--2003 to 2006
Human Factors Instructor
Developed and presented academic curriculum for a one-week course on 
``Human Factors in Aviation Safety.'' Taught the course in the 
classroom on seventeen occasions on the USC campus, as well as for the 
U.S. Navy, and internationally in Mexico, Trinidad, and Brazil.
Publications
    Published over 100 articles and papers in industry magazines and 
trade journals with a focus on aircraft accident investigation, flight 
crew procedural issues, human performance, and crew resource 
management. Coauthored a book profiling aircraft accidents, their 
cause, and lessons learned.
    Coauthored a book chapter on Crew Resource Management, and authored 
book chapters in two books on effective aircraft accident investigation 
procedures. Authored foreword in book on safety leadership.
Awards and Recognition

Cecile S. Hatfield Award for Excellence in Aviation, 2017

Bombardier Safety Standdown Award, 2016

Fellow, Royal Aeronautical Society, 2014

Foreign Associate Member, Academie de L'Air et de L'Espace, 2014

Association of Air Medical Services Public Service Award, 2010

South Carolina Aviation Hall of Fame, 2009

Professional Pilot Magazine Aviation Safety Advocate of the Year, 2009

ALPA Air Safety Award, 2004

Flight Safety Foundation's Laura Taber Barbour Air Safety Award, 2003
Education

Master of Aeronautical Science (With Distinction)
Aviation/Aerospace Safety Systems and Human Factors in Aviation Systems
Embry-Riddle Aeronautical University, 2014

Bachelor of Science
Business Administration University of South Carolina, 1979
Testimony, Publications, Speeches and Presentations

    The Chairman. Thank you, Mr. Sumwalt. And we'll begin with 
questions. And as a reminder, of course, we're dealing with the 
nomination today of Robert Sumwalt, of South Carolina, to be 
Member of the National Transportation Safety Board; David Redl, 
to be Assistant Secretary for Communications and Information, 
Department of Commerce; and Derek Kan, of California, to be 
Under Secretary of Transportation for Policy.
    Before asking questions, though, I would ask unanimous 
consent to include in the record letters of support for the 
nomination of David Redl, from Engine Advocacy and the Consumer 
Technology Association. Without objection, those will be 
entered into the record.
    [The information referred to follows:]

                                                     Engine
                                                       June 6, 2017
Hon. John Thune,
Chairman,
Dirksen Senate Office Building,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Hart Senate Office Building,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    Engine wishes to express its strong support for David Redl's 
nomination to the position of National Telecommunications and 
Information (NTIA) Administrator.
    As a non-profit advocacy and research organization that supports 
high-growth startups, one of our highest priorities is ensuring that 
the Internet remains the driver of innovation and economic growth. Many 
decisions made at the NTIA, including promoting secure communications 
networks, efficient use of federally held spectrum, and broadband 
deployment are critical to startups nationwide. From his work in 
Congress and the wireless industry, Mr. Redl is incredibly qualified to 
be the top Federal advisor on all telecommunications issues. His 
experience working with the startup and technology communities over the 
years will be an asset to the NTIA in crafting policies that help drive 
the growth of the Internet, startups, and the economy.
    We hope the Committee will promptly approve his nomination, and we 
look forward to working with him in the coming years.
            Sincerely,
                                             Evan Engstrom,
                                                Executive Director.
                                 ______
                                 
                                                 September 26, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    We write to support the confirmation of David Redl to lead NTIA as 
Assistant Secretary for Communications and Information at the 
Department of Commerce.
    Not only is Mr. Redl extraordinarily well-qualified to deal with 
pressing domestic issues including overseeing FirstNet and identifying 
underutilized government spectrum for commercial use, but we are 
confident in his ability to advise Secretary Ross and President Trump 
on international telecommunications issues consistent with American 
interests and free-market principles.
    Among other important items that fall within NTIA's international 
portfolio, Mr. Redl understands the challenges raised by the Obama 
Administration's poorly-orchestrated transition of the Internet 
Assigned Numbers Authority function to the Internet Corporation for 
Assigned Named and Numbers multi-stakeholder process.
    We had the opportunity to meet with Mr. Redl recently and we were 
impressed by his steadfast resolve to protect American interests 
against the risks of foreign government compromise of Internet 
governance now that the U.S. Government no longer has direct oversight 
over IANA. For example, Mr. Redl is committed to actively engaging in 
the multi-stakeholder process both directly and in cooperation with 
American companies to advocate both for U.S. economic interests as well 
as for our Constitutional values, including a strong commitment to 
First Amendment principles.
    Finally, many of us have worked closely with Mr. Redl over the 
years. Among telecommunications professionals, his reputation is 
impeccable. He is an excellent choice to head NTIA and should be 
quickly confirmed.
            Sincerely,

Phil Kerpen,
President,
American Commitment.

Daniel Schneider,
Executive Director,
American Conservative Union.

Grover Norquist,
President,
Americans for Tax Reform.

Jeff Mazzella,
President,
Center for Individual Freedom.

Katie McAuliffe,
Executive Director,
Digital Liberty.

George Landrith,
President,
Frontiers of Freedom.

Andrew Langer,
President,
Institute for Liberty.

Seton Motley,
President,
Less Government.

Lawrence J. Spiwak,
President,
Phoenix Center for Advanced Legal & Economic Public Policy Studies.

Cc: Members of the Senate Committee on Commerce, Science and 
Transportation

    The Chairman. So, Mr. Redl, I'll start with you. If 
confirmed as NTIA Administrator, you would be tasked with 
overseeing the Federal Government's significant, significant 
inventory of spectrum holdings. As data usage rates and 
technological innovations continue to grow, our commercial 
spectrum needs are greater than ever, and we need to ensure we 
have a pipeline in place for both licensed and unlicensed 
spectrum. Can I get your commitment that you will work with the 
appropriate stakeholders to identify whether there are 
underutilized Federal spectrum bands that might be reallocated 
or repurposed for commercial user sharing?
    Mr. Redl. Thanks, Senator. Yes, of course. One of the core 
jobs that NTIA has is balancing the need for spectrum for 
government users to meet their very important needs, protecting 
the country both physically and our economic well-being, and 
also balancing that with a need for additional spectrum in the 
commercial sector.
    The Chairman. Thank you. And our international competitors, 
including Japan and South Korea, are quickly advancing in the 
telecommunications field to win the race for a widespread 5G 
deployment. In order that we remain globally competitive and 
retain our spot as the world's premier wireless innovator, can 
you commit that if confirmed, you will work with this 
Committee, the FCC, and others to ensure we keep 5G advancement 
a top priority for our nation?
    Mr. Redl. Yes, Senator.
    The Chairman. Thank you.
    Mr. Kan, as you may know, Denver Union Station in my home 
state was recently renovated with support from the TIFIA and 
the RRIF program, loan programs, a rare instance of loan 
programs being used together to finance an innovative project. 
The FAST Act established the Build America Bureau to streamline 
and harmonize applications between the programs, increase 
technical assistance, and improve project delivery, and the 
Under Secretary plays a key role in overseeing the Bureau. 
Could you speak to your vision for the Build America Bureau and 
any plans you might have to improve infrastructure financing 
with the new FAST Act structure?
    Mr. Kan. Yes, Senator. The FAST Act passed this Committee 
and passed the floor I think about a year and a half ago 83 to 
16. It is a great example of the good work that this Committee 
does and the power of bipartisanship. The Build America Bureau 
is one of the most important components of the Department of 
Transportation, and it really tries to solve a key market 
breakdown where you have sources of capital and uses of capital 
sometimes not working together.
    A large part of the reasons why markets sometimes fail is 
when you have too much uncertainty in a market, and the Build 
America Bureau seeks to streamline some of those questions with 
more efficient permitting, a clear one-stop shop to solve many 
of these gaps between sources and uses of funding. I commit to 
work with you and your office to make sure the Build America 
Bureau continues to optimize allocations spent, and not only 
seek to attract private capital, but really try to figure out 
how to bring all stakeholders to the table to deploy capital as 
efficiently as possible.
    The Chairman. Thank you, Mr. Kan. And I appreciate that 
focus. In your opening statement, you talked about permitting, 
and now, of course, talking about permitting, streamlining 
inefficiencies, and I think that's the target of every 
committee that I serve on and I hear in the Senate, how we make 
sure that government is effectively communicating with each 
other, better streamlining the process, and making permitting 
more effective.
    In the FAST Act, I pushed for the inclusion of a Government 
Accountability Office study to evaluate the effectiveness of 
the Federal Railroad Administration, the final rule on quiet 
zones, including a look at the benefits, costs, and challenges 
with establishing quiet zones. I understand that the report 
will be issued in the next few months. Can I get your 
commitment to carefully review the results of that study and to 
consider any necessary and appropriate changes to regulations 
or grant program considerations should the study find any 
pertinent issues to be addressed?
    Mr. Kan. Senator, quiet zones are a very important issue, 
particularly in urban areas and areas where mass and local 
transit flow through. I commit to study the issue closely and 
working with you and your office to understand the products of 
those recommendations.
    The Chairman. Thank you.
    Mr. Sumwalt, in your capacity as a member of the Board at 
the National Transportation Safety Board, where you've served 
for the past 11 years, you've got a unique perspective on the 
challenges the agency currently faces, and I think in your 
opening statement, you talked about the factors underlying the 
accidents that you've investigated. What are your priorities 
going to be? Lay them out again from your opening statement 
should you be confirmed.
    Mr. Sumwalt. Well, Senator, thank you for the question. We 
have our Most Wanted List, and there are 10 items on that, and 
I think each of those items are areas that the Board has 
determined that we really need to move further along on. So I 
want to continue to work on each of those issues.
    We have some challenges within the agency, three that I'd 
like to mention: one would be the budgetary issues; another 
would be maintaining the effective work force; and, finally, 
ensuring that we maintain our competitive edge. I'll be glad to 
discuss any of those that you like.
    The Chairman. Thank you. Perhaps we can get into them 
further.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Mr. Kan, first a little bit about Hawaii. We're the most 
isolated, populated place on the planet. We're 2,500 miles from 
Los Angeles. We're 5,000 miles from the U.S. capital. And we 
really are different from a transportation infrastructure 
standpoint. We depend on aviation for our primary private 
sector economic driver. And, of course, we depend on the 
shipping industry and maritime infrastructure for fuel, for 
food, for construction materials, for our basic sustenance.
    My question for you, Mr. Kan, is my own judgment about the 
Department of Transportation is that you have a lot of 
flexibility within the statute to tailor whatever you can do to 
an individual state's needs. And all I want is your commitment 
to work with us, understanding that coming from an island in 
the Pacific, coming from a place that is far away, that we're 
going to need to work with you in a way that may be different 
from all the other states in the continental United States. Do 
I have that commitment?
    Mr. Kan. Yes, sir.
    Senator Schatz. Thank you very much. I want to talk to you 
about Safe Streets. Nearly 5,000 people were killed by a car 
while walking in 2014. Many of these deaths are preventable 
through highway design that is safer for all. Senator Heller 
and I are working on a Safe Streets legislation. We made some 
progress in the FAST Act. I would like to do more. And I would 
like your commitment to work with us on what can be done 
administratively just to make our streets safer.
    This ought not to be a partisan issue. This ought not to be 
a question of where you come down on issues that are a little 
more contentious, smart growth, density, you know, cars versus 
bikes. All of that stuff I like to set aside. I have my own 
views about that set of issues, but we ought to come together 
when it comes to safe routes to school, when it comes to 
sidewalks, when it comes to crosswalks, and keeping people 
safe. So do I have your commitment to work with us on Safe 
Streets?
    Mr. Kan. Yes, sir.
    Senator Schatz. Thank you.
    Mr. Redl, I want to talk to you about IoT. There's a 
working group on this committee and others who care very deeply 
about the Internet of Things, and it's been a key area of focus 
for our committee as well as the bipartisan IoT caucus. More 
and more technologies come online, and therefore it's critical 
that the government have a consistent approach for encouraging 
the development and deployment while protecting consumers.
    One of the challenges is if you are in the business of, 
say, developing an app, but let's say it monitors certain 
health indicators while you are in your car, it's not at all 
clear under which jurisdiction of the Federal Government you 
may have to operate. As some of these new technologies come 
online, if you're a three- or four-person shop with a really 
good idea and a good technology, in order to scale, 
unfortunately the next thing you need is a lawyer, not new 
creative people, new engineers, new business managers.
    One of the challenges that we see in the private sector is 
that although we want to have a light touch from a regulatory 
standpoint, we do need to provide clarity because all of these 
statutes that were written that may apply to an IoT technology 
were written before the IoT existed. Unless we want some of 
these companies to be operating under 17 different statutory 
regimes, we're going to have to provide some clarity.
    As you probably know, the 2017 Omnibus included report 
language requiring the Commerce Department to coordinate IoT 
efforts with other agencies. Do you commit to pulling together 
an interagency group together to review the policy issues 
impacting IoT?
    Mr. Redl. Senator, I think that's a great point. 
Technology, and particularly communications and information 
portions of technology, are pervasive in our economy. They 
cross across a number of industries, which necessarily, means 
it crosses over portions of our Federal Government. If I'm 
confirmed, I absolutely will work with you and your staff and 
the Committee and all of the folks at the Department of 
Commerce to try and knock down some of those barriers.
    Senator Schatz. OK. That's great, and I understand your 
commitment to working on knocking down barriers, but there is a 
provision in the 2017 Omnibus that calls on Commerce to pull 
together an interagency working group. Do I have your 
commitment to do that?
    Mr. Redl. Yes, to work with the rest of the Department of 
Commerce, yes, sir.
    Senator Schatz. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Schatz.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Mr. Kan, I was struck by Senator Schatz's 
question. And, you know, Honolulu is such a distant, isolated, 
and overcrowded place, I think it's commendable that you would 
be willing to visit such a disadvantaged----
    [Laughter.]
    Senator Wicker. On the other hand, it's a mere two and half 
hours down to the Gulf Coast of Mississippi, and perhaps you 
would like to make that trip first.
    [Laughter.]
    Senator Wicker. The FAST Act mandated that the FRA convene 
a working group to evaluate the restoration of inner city 
passenger rail between New Orleans and Orlando, a corridor that 
was significantly impacted by Hurricane Katrina, as you know. 
What will you do to support the restoration of passenger rail 
along the Gulf Coast, and how will you be the Federal partner 
to these communities that need to realize the economic benefits 
of restoring passenger rail?
    Mr. Kan. Thank you, Senator. I know that this is a very 
important rail line that goes through Gulfport, Bay Saint 
Louis, Pascagoula, and I have studied the rail line, some of 
the options that exist. Senator, it is a very important issue I 
know for not only the state of Mississippi but for some of the 
local states. I look forward to working with you, the Southern 
Rail Commission, with Amtrak, and with the Department to 
identify options and opportunities to try to bring back that 
rail line.
    Senator Wicker. OK. Well, I appreciate that assurance. Let 
me shift to an area where I serve on the Board. That's the 
Merchant Marine Academy. As you know, the Sea Year was 
suspended for a while. Commendably, Secretary Chao has 
reinstated the Sea Year aboard commercial vessels, but there is 
still much work to be done at this, a very excellent, 
university.
    While vessels participating in the Maritime Security 
Program are required to host midshipmen for the Sea Year, there 
is currently no incentive for other vessels to participate in 
this training program. Will you work with MARAD to address this 
issue and ensure that midshipmen receive the training they need 
to serve our merchant mariner workforce?
    Mr. Kan. Yes, sir.
    Senator Wicker. Thank you very, very much.
    Now, Mr. Redl, let me ask you about FirstNet. FirstNet is 
expected to release its draft state plans to each of the states 
and territories by the end of this month. These draft plans 
will detail how FirstNet proposes to deploy the Nationwide 
Public Safety Broadband Network in those areas. The statute 
allows states to opt out of FirstNet's plan and build their own 
radio access network if the states believe they can better 
accommodate the needs of first responders in their own 
jurisdiction. Do you believe the opt-out choice in the statute 
is meant to allow states the true right to opt out of FirstNet 
and construct their own radio access networks?
    Mr. Redl. Senator, I first and foremost hope that when 
these plans come out later this month that every state will 
find them to meet the needs of their state and their public 
safety users. However, as you rightly note, the statute does 
provide an opt-out, and, yes, it is my belief that the states 
should be given the opportunity to truly opt out. But the 
statute also says that it's NTIA's job to make sure that those 
opt-out plans meet the needs of public safety users. If I'm 
confirmed, I will absolutely work with each state that wants to 
opt out to ensure that their opt-out right is recognized and 
that their public safety users get the network that they need.
    Senator Wicker. Do you think the statute allows enough time 
for states to conduct an adequate review of its communications 
and coverage needs before choosing to opt-in or opt-out of 
FirstNet? And explain why.
    Mr. Redl. I certainly hope so, Senator. There has been a 
lot of work done at the state level to date in the lead up to 
this point. The SLIGP process, the State and Local 
Implementation Grant Program, provided states with funding to 
prepare for this decision and to prepare for what their public 
safety users will need. So I certainly hope that the amount of 
time they have will be adequate.
    Senator Wicker. What does the statute say with regard to 
time?
    Mr. Redl. There's a fixed amount of time that they have, 
from the time that they receive their plans to review, and if 
they choose to opt out, then they'll have to opt out I believe 
it's within 90 days they'll have to opt out, and they will have 
to submit their plan to the Federal Communications Commission 
first to see if their plan would be interoperable with 
FirstNet.
    Senator Wicker. With regard to user fees, as Administrator, 
how will you work to ensure that user fees don't become a cost 
burden for rural users, such as those in Hawaii and 
Mississippi?
    Mr. Redl. Networks aren't much without users, Senator, and 
if you've got a network that people can't afford to be on, you 
lose that network effect. So if confirmed, I will work with 
FirstNet to make sure that we get as many people on the network 
as possible.
    Senator Wicker. And Colorado.
    [Laughter.]
    Senator Wicker. Thank you very much. I appreciate it.
    The Chairman. Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, welcome.
    I want to start, Mr. Sumwalt, with a question for you. As 
you know, on July 30th of last year, a commercial balloon 
crashed in Lockhart, Texas, tragically killed 16 people, 
including the pilot, Alfred Nichols. And following that crash, 
a number of facts have become public that are deeply 
concerning. For example, the balloon's pilot, Mr. Nichols, had 
a history that included five DWI arrests, three drug offenses, 
and a medical condition that could disqualify him from being 
able to operate a commercial balloon. The Austin American-
Statesmen has reported that the FAA learned of the pilot's 
criminal record two years before the Lockhart crash and failed 
to take any enforcement action against Mr. Nichols.
    Further, this crash has also brought to attention that the 
FAA exempts commercial balloon pilots from having to obtain a 
medical certificate, and medical certificates are required for 
nearly all commercial pilots, and may have discovered that Mr. 
Nichols was prescribed drugs over the year preceding the crash 
that are listed on the FAA's Do Not Issue--Do Not Fly Guide for 
Aviation Medical Examiners that would have prevented the 
issuance of a medical certificate.
    Do you think the standards are appropriate for commercial 
balloon pilots? And what can be done to better protect the 
flying public?
    Mr. Sumwalt. Senator Cruz, thank you for raising this very 
important issue. I was the Board Member on scene for that 
tragedy. I met with the family groups. And furthermore, I was 
privileged to chair the NTSB's investigative hearing of that 
accident in December. So the issues you have raised have 
certainly gotten my attention, they've gotten the attention of 
our investigators. I do not want to prejudice the outcome of 
the investigation, but I can tell you that it really is 
alarming that this pilot was able to hang out a shingle and fly 
people for hire. That's very much of a concern, and I'm 
confident that our investigation will address those issues. The 
real trick will be having the FAA follow up on those 
recommendations. That's going to be the real trick.
    Senator Cruz. Setting aside the precise cause of that 
crash, which needs to be investigated fairly, do you think 
there are changes in the rules and regulations going forward 
that would be wise to consider?
    Mr. Sumwalt. Well, I certainly believe, Senator Cruz, that 
it would be wise for regulatory changes to be made. Again, I 
don't want to prejudge the investigation, however, it doesn't 
make sense that somebody can operate a balloon commercially 
without a medical certificate. To do an air tour in a 
helicopter or in an airplane, that pilot would have to have a 
medical, but for the same thing in a balloon, they don't have 
to. We think there should be similar standards.
    Senator Cruz. Thank you.
    Mr. Redl, let's shift to a different topic, which is ICANN. 
And I know you're familiar with this issue, that in the end of 
last year, the previous administration allowed the Federal 
Government's contract with ICANN to expire. Do you think that 
was a wise and prudent decision?
    Mr. Redl. Senator, I think there has been a lot of debate 
about that. The reality is that we are in the situation we're 
in. And Secretary Ross, when asked by this Committee what he 
thought about the decision I think hit the nail on the head, 
that the administration supports, as you see in the Fiscal 18 
budget, and as Congress has said, the multistakeholder model of 
Internet governance, and that with the situation in front of 
us, we're going to have to move forward and be a vigorous 
representative of U.S. interests before ICANN.
    Senator Cruz. OK. I'm going to ask the question again. Do 
you think it was a wise and prudent decision?
    Mr. Redl. You know, we spent a lot of time on Capitol Hill 
debating that. The reality of the situation was that once the 
decision was made to announce that it was going to happen, I 
think it would have been very difficult to put the genie back 
in the bottle. I have spent a lot of time in my capacity as a 
congressional staffer working to try to ensure that as we went 
through that process, the U.S. interests were protected. I feel 
confident that given the way the process turned out and the 
changes that were made to the accountability mechanisms at 
ICANN, that the U.S. is in a position to continue to protect 
its interests.
    Senator Cruz. Microsoft and Facebook and YouTube, which is 
owned by Google, all of whom supported President Obama's 
Internet transition, have signed a Code of Conduct with the 
European Union to remove so-called hate speech from European 
countries in less than 24 hours. Do you think these global 
technology companies have a good record of protecting free 
speech? And what can be done to protect the First Amendment 
rights of American citizens?
    Mr. Redl. I think the technology companies have a difficult 
challenge ahead of them trying to do business in multiple 
jurisdictions across very different sets of laws. I can say 
confidently that if I'm confirmed and heading NTIA, I will use 
NTIA's position as an advocate for U.S. interests, including 
freedom of speech and free market economics.
    Senator Cruz. Well, Mr. Redl, I look forward to continuing 
this conversation with you because this is an issue of 
considerable interest to me and I think to a great many Texans. 
Thank you.
    The Chairman. Thank you, Senator Cruz.
    Before I recognize the Senator from Minnesota, I'll have 
you note, Senator Klobuchar, that Mr. Kan has already committed 
to visiting Hawaii, Colorado, and Mississippi first, so the 
Senator----
    [Laughter.]

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Very nice. Hawaii--which? Hawaii, 
Colorado, Mississippi.
    Senator Schatz. He can come to my state fourth because you 
might want to come around January.
    Senator Klobuchar. Yes.
    [Laughter.]
    Senator Klobuchar. But you could come to Minnesota in 
January for the Super Bowl, Mr. Kan, because that's where it 
will be. It will not be in any of those other states at that 
time.
    [Laughter.]
    Senator Klobuchar. OK. So, Mr. Kan, one of the things that 
we're talking about a lot in these hallways is infrastructure 
investment and how important it is. For those of us who have 
rural states, we have some concern about just the public-
private model and what that would mean because we think it 
wouldn't quite create the incentives we need. Obviously, there 
are some things we can do with public-private partnerships. Are 
you willing to work with me and others on this committee to 
find innovative ways to fund our infrastructure?
    Mr. Kan. Yes. Senator, rural transportation patterns are 
distinct from urban city transportation. You see higher car 
ownerships, particularly in states such as Minnesota. And I 
commit to work with you and the members of this Committee to 
think through, how do we allocate capital efficiently, 
particularly in rural America?
    Senator Klobuchar. And you know we don't have toll roads in 
Minnesota or North Dakota or Wisconsin or Iowa or Missouri. OK.
    Open Skies, going to the skies now. Open Skies agreements 
are important for U.S. transportation policy for all carriers. 
I spoke briefly with the Secretary about this the other day. 
Both Democratic and Republican administrations have pursued 
these agreements. Right now we are very concerned that recent 
actions by companies like Norwegian Air International, United 
Arab Emirates, Qatar, are undermining our Open Skies agreements 
and hurting our workers. She said that the Department is 
working on this and will have a decision shortly, but it's 
really becoming a problem because they are subsidizing their 
airlines and then they are undercutting us in the competition. 
It is that simple. What can the Department do, in your mind, to 
ensure American airline workers are not harmed by unfair 
competition that is not an even playing field?
    Mr. Kan. Senator, this is a very important issue. It is a 
topic that the Secretary has spoken about. It is an area that 
will fall under my purview. I commit to quickly, as soon as I 
am confirmed, to investigate and follow up on the analysis to 
see is Gulf air carriers and Norwegian Air are inappropriately 
subsidizing air traffic.
    Senator Klobuchar. One of the FAA's--thank you. One of the 
FAA's most successful government-industry partnerships for, 
again, a lot of rural areas is the FAA Contract Tower Program, 
which provides proven cost effective and critical air traffic 
control safety benefits to 253 smaller airports in the country. 
Do you agree that contract towers are a vital part of our 
aviation system?
    Mr. Kan. I think contract towers, as well as a lot of other 
parts of the aviation system, are critical parts. It is a 
system that is complex with a lot of moving parts. Each of 
these pieces are very important.
    Senator Klobuchar. OK. Thank you.
    Mr. Redl, as Co-Chair of the Next Generation 911 Caucus, I 
know that we need some upgrades to our 911 system, and I've 
been working on the Next Generation 911 Act with Senator 
Nelson. Mr. Redl, are you committed to working with the joint 
911 Implementation and Coordination Office to advance Next 
Generation 911?
    Mr. Redl. Senator, absolutely. 911 is a critical piece of 
our public safety infrastructure, and commercial networks have 
advanced, and FirstNet is getting ready to deploy advanced 
networks for our first responders. 911 is the connectivity 
between the two of them. And I certainly look forward to 
working with the Department of Transportation.
    Senator Klobuchar. Thank you. We're also working on the Dig 
Once concept to help get broadband laid, and so that's 
something else we can talk about later, so I appreciate that.
    Distracted driving, Mr. Sumwalt. In the last 5 decades, 
traffic fatalities on our roads have been declining. However, 
data recently released by the National Highway Traffic Safety 
Administration shows that from 2014 to 2015, there was a 7 
percent, which is high, increase in traffic fatalities. We know 
that the distractions behind the wheel played a major, major 
role in this. I included a provision, along with Senator Hoeven 
in the FAST Act, which made it easier for states to get grants. 
Actually, only the state of Connecticut got a grant one year. 
This is an encouragement to states to try to upgrade their 
laws, as a lot of the enforcement is done on a state-by-state 
basis. Secretary LaHood took this on as a major issue, and we 
appreciated that. Some of this, we understand not everyone is 
going to be able to--police officers are going to spend all day 
looking for distracted drivers, but we do think some of these 
operations going on intermittently are a good idea, that 
upgrading the state laws for both accidents and others, 
education efforts, are key to this. People just don't seem to 
understand that when they look at their phone when they're 
going 65 miles an hour, it is like putting on a blindfold and 
going the entire length of a football field. So could you 
comment on your views on this and what you think we should do?
    Mr. Sumwalt. Absolutely, Senator Klobuchar, and thank you 
very much for your interest in this topic. The NTSB has a Most 
Wanted List. Distractions in transportation is one of those 
items and has been. We are very concerned about it. I 
personally have moderated two roundtables on distractions in 
transportation, primarily the highway mode. You pointed out the 
distractions, that multitasking doesn't work very well. That's 
a myth.
    And we also agree with the three-legged stool, that it 
requires education and awareness, it requires laws, and then 
finally visible enforcement of those laws. So we are concerned 
about distractions in all modes, and we look forward to working 
with you and this committee in looking for ways to curb this 
problem.
    Senator Klobuchar. Thank you very much.
    The Chairman. Thank you, Senator.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman. And gentlemen, 
thank you for your desire to serve your nation.
    Mr. Redl, I just want to mention that I, too, like Senator 
Cruz, have some issues on the ICANN matter, and I think a lot 
of us in the Senate do, so I think it will be important to make 
sure we understand your views on that.
    You know, a lot of us, which is normal in these hearings, 
want to talk about issues that relate to our states. And in 
Alaska, aviation and infrastructure and transportation is 
absolutely critical for us.
    So just a few facts about my state. I think there are only 
17 other countries in the world that are bigger than Alaska. 
Unfortunately Senator Cruz has left, but he has heard the line 
from me before, if you split Alaska in half, Texas would be the 
third largest state in the country. We have 82 percent of the 
communities in Alaska are not accessible by road, 82 percent. 
251 communities in my state are exclusively accessed by air 
only, no roads. Over 60 communities in Alaska are covered by 
the Essential Air Service.
    So, Mr. Kan, I want to talk a little bit about these 
issues. Some people talk about rural. We're extreme rural, as 
you can kind of understand from those facts.
    You and I have talked about this FAA weather policy that 
has put Alaska in this very difficult dilemma where the FAA has 
not funded new weather infrastructure in Alaska since the 
1990s, and yet is now trying to apply a nationwide standard on 
practices that would essentially shut down air service to many, 
many of the communities I just mentioned. Under Secretary Rosen 
committed to me during his confirmation process to work with us 
on this issue. You and I have had a long discussion in my 
office about it. Can I get your commitment here to continue 
that discussion in a way that is resolved satisfactorily to my 
constituents?
    Mr. Kan. Senator, I looked into this. Rural aviation is 
critical. I believe 47,000 jobs in Alaska depend on the 
aviation industry. 82 percent of the communities are not 
accessible except through rural transportation. I commit to 
work with you and your staff on the FAA weather issue to find a 
path forward that is satisfactorily addressed with by you and 
your office.
    Senator Sullivan. Great. I appreciate that. We all want 
safety, it's critical to my state, but we need to actually be 
able to fly into these communities, and a one-size-fits-all on 
air policy does not work in my state for some of the reasons I 
just mentioned.
    Let me talk about another issue. Secretary Chao was in 
front of this Committee just yesterday. A lot of discussion 
with regard to the FAA and the Essential Air Service. A lot of 
people don't remember this, but when there was aviation 
deregulation, there was concern by the Congress that once 
airlines were deregulated, they would no longer fly to smaller 
communities, so they established Essential Air Service to help 
with some of the communities that I just mentioned. Literally 
hundreds in my state, hundreds, with no roads to them.
    So I need your commitment to work with states like mine and 
others on the Essential Air Service program to make sure that 
the promises made during airline deregulation are not now 
forgotten just because it was a couple of decades ago when we 
deregulated.
    Mr. Kan. Senator, the Essential Air Service program, which 
I think was created October 1978 during deregulation, is an 
important program. I understand it serves about 150 rural 
communities, the plurality of those----
    Senator Sullivan. Over 60 of which are in my state.
    Mr. Kan. Exactly.
    Senator Sullivan. And this is not just some kind of 
convenience where, hey, you can either drive to the state or 
get a flight a few hours later. You can't drive to these 
communities, hundreds in my state.
    By the way, I know you've committed to come to beautiful 
places like Hawaii, which is beautiful, but so is my state. So 
I think I already got your commitment to come up, right?
    Mr. Kan. Twice.
    Senator Sullivan. Yes, good.
    [Laughter.]
    Senator Sullivan. Thank you. You can come in the summer, 
but I recommend the winter, too.
    Mr. Kan. Four times.
    Senator Sullivan. Good. So on Essential Air Service?
    Mr. Kan. Yes. I understand it's a very important program, 
and I look forward to work with you and your office and figure 
out how we address some of the needs of rural airports.
    Senator Sullivan. Thank you. One other issue. We're talking 
a lot about infrastructure, and I think there's a lot of 
bipartisan support here. Something else we had talked about, 
we'll be introducing a bill next week, the Rebuild America Now 
Act. You could have a trillion dollar infrastructure fund, but 
if we don't fix our broken permitting system, where now on 
average in America it takes 6 years to permit a bridge, 15 
years to permit a runway, a new runway, in the Sea-Tac Airport, 
the system in terms of infrastructure is going to continue to 
just face enormous challenges.
    Can I get your commitment--I've already got it from 
Secretary Chao and others--to work with me and this Committee 
on looking at ways to further refine, streamline, and make more 
efficient our Federal permitting system, which is broken and 
inhibits the building of infrastructure that is so desperately 
needed throughout our country?
    Mr. Kan. Senator, you have been a leader on this issue and 
made significant progress. We have brought down the permitting 
timelines I think from an average of 72 months now to 44 
months. Forty-four months still seems like a very long time. I 
look forward to work with you and your office to making sure we 
continue to streamline permitting processes, particularly for 
key infrastructure projects.
    Senator Sullivan. Great. Thank you. And I will have 
additional records--questions for the record, Mr. Chairman.
    The Chairman. Thank you. And did you say to make Texas the 
third largest state, split Alaska in half? Is that what you 
said?
    Senator Sullivan. I said if you split Alaska in half, Texas 
would be the third largest state in the country.
    The Chairman. Well, I'm pretty certain if you flatten 
Colorado out, it becomes the fourth, so we might as well just 
start----
    [Laughter.]
    Senator Sullivan. That's a good one. I haven't heard that 
one.
    [Laughter.]
    The Chairman. Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Thank you, Chairman.
    Mr. Kan, yesterday I spoke with Secretary Chao regarding 
the importance of the Capital Investment Grant program to my 
home state of Indiana, the ``Crossroads of America'' we like to 
call ourselves. I was pleased to see the administration 
recognize the importance of this program in their recent FY18 
budget request requesting $1.2 billion for this transit 
program. As you prepare to begin your work with Secretary Chao 
this summer, I want to reiterate the bipartisan support this 
program has here in Congress and the support it has back home 
in my Hoosier state.
    As the Federal Transit Administration works toward the 
release of FY19, the annual report, I would urge you to 
recognize the multitudes of communities across the country, but 
my home state, at South Bend, Gary, and others that are 
depending on the viability of this program in coming years.
    Mr. Kan. Yes, sir. Having been in Indianapolis just 2 weeks 
ago, I recognize a lot of the key infrastructure throughout the 
state. I know that Capital Investment Grants, the CIG program, 
is an important mechanism. I think as part of this 
infrastructure process development, policy development, that we 
are exploring all forms of government programs and what are the 
most efficient ones to keep and optimize, including the 
Capital--the CIG program.
    Senator Young. I'm encouraged to hear that. Thank you for 
visiting Indianapolis in preparation for this hearing. I hope 
you spent a lot of money while you were there.
    [Laughter.]
    Senator Young. Mr. Redl, a great deal of spectrum is 
allocated for use by the Federal Government, but that doesn't 
mean it's always being used by a governmental entity. In the 
House, I served as Co-Chair of the Electronic Warfare Working 
Group, something I mentioned to you when we recently visited. I 
learned a great deal about how the military shares spectrum 
when their needs are limited by time or geography. That said, 
the military and other agencies are hesitant to ultimately give 
up their spectrum for commercial use, typically for 
understandable reasons. What are your thoughts on what more can 
be done to provide reasonable protections for ongoing Federal 
uses without allowing such limited uses to keep nationwide 
spectrum out of the hands of economically productive commercial 
activities?
    Mr. Redl. Well, Senator, I think the NTIA to date has done 
an admirable job of trying to understand the needs of the 
agencies for which they are authorizing spectrum use and 
finding ways to find new synergies, new efficiencies, to get 
more spectrum to the commercial space. That being said, those 
government agencies have essential missions. And we need to 
make sure that we have a process in place and continue to 
engage in that process to protect their interests in their 
missions while still trying to find more space. It's going to 
take some ingenuitive approaches at this point, we're going to 
have to be creative. As it turns out, spectrum demand on both 
sides is going to continue to grow, but it's a challenge that, 
if confirmed, I look forward to.
    Senator Young. And over time, every process can be 
improved, every bit of dialogue between different governmental 
entities can be optimized, so I'll look forward to working with 
you in the future to improve that process.
    Can more be done to leverage commercially available 
services to improve the efficiency, effectiveness, and 
affordability of the Federal telecom systems?
    Mr. Redl. I think so, and I think that's something that I 
would love to work with you and your staff on looking at. It is 
a challenge to get in and talk to these agencies and find out 
how to find synergies, but where we're able to do so, as we 
have in the past, as a congressional staffer, I worked very 
deeply on working on the AWS-3 transition and getting our 
government incumbents to be able to get out of portions of the 
1.7 gigahertz band without compromising their missions, and in 
some cases, that involved looking at whether or not commercial 
alternatives made sense. I would love to continue working on 
that.
    Senator Young. I will look forward to working with you on 
that as well. And do you believe there's an opportunity to 
improve spectrum efficiency through the procurement and 
management of Federal systems?
    Mr. Redl. There's always an opportunity for more efficient 
use of spectrum, and that's the ongoing challenge and frankly 
the fun of working in spectrum policy. The technology keeps 
changing, and it forces you to keep evaluating and figuring out 
how changes on both the government-use side and the commercial 
technology side can be used to make each other better users of 
spectrum.
    Senator Young. Well, I thank you for your service.
    And, Mr. Chairman, I yield back the balance of my time.
    The Chairman. Thank you, Senator Young.
    And, Senator Peters, the author of the great America 
Innovation Act, your turn.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. From one author to another, thank you so 
much, Senator Gardner. It was a pleasure to be part of that 
bipartisan legislation with you. And nice to see you in that 
chair. So thank you for calling on me.
    Very nice to have each of our witnesses here today. Thank 
you for coming to talk about really some--you're going to have 
some exciting times ahead of you really when you think about 
transportation and communications coming together, something 
that I'm very passionate about, being a Senator from Michigan, 
and what will be likely the most transformative technology for 
the auto industry since the first car came off of the assembly 
line, and that's in self-driving autonomous vehicles that will 
be linked with communications systems to each other, have all 
sorts of technology on them to allow very safe operation. And 
from a safety perspective, we may be able to eventually 
eliminate most auto crashes at a time when nearly 40,000 people 
die on our highways. That's obviously a big deal. But we have 
to make sure that this technology continues to move forward, 
the innovation moves forward.
    I'm particularly pleased that the Chairman of this 
Committee, Senator Thune, has been very engaged in this issue 
as well. In fact, the two of us are working on some bipartisan 
legislation that we hope to introduce shortly. We'll likely be 
working with all of you when it comes to actually implementing 
some of these new regulations in order to further the 
technology that is so remarkable coming down the pike.
    So with that, Mr. Kan, I wanted to talk to you a little bit 
about kind of your view, your vision, of where you see this 
technology going, how the Department will continue to further 
it. I was pleased that in the previous administration a 
facility in my state, in Ypsilanti, the American Center for 
Mobility, was selected as one of ten validation sites and 
testing sites.
    These sites are going to be critical to bring all of the 
companies together. These vehicles all have to work together. 
In different companies, it's a different business model. You 
have to have a Toyota talking to a Ford while it's on the road, 
and a Ford to a GM and to a Nissan, and they have to all be 
tested in one place.
    So I'm curious as to your vision for that kind of testing 
regime, also where you see autonomous vehicles going, and how 
you plan to be a part of that process?
    Mr. Kan. Thank you, Senator Peters, for raising this very, 
very important issue. I know that you and Senator Thune have 
been working on this topic for the last three and a half 
months, and we begin to see some of the needs for this 
committee and the Congress to step in. I believe there are 70 
bills across 30 states dealing with AV that have either been 
introduced, acted upon to some extent, and it really highlights 
the need for a Federal role here. I think the vision of AV is 
exciting.
    It is clear from most folks in Silicon Valley that our 
children will be sitting in self-driving cars, and their 
children may be sitting in self-driving flying cars. And, 
Senator, you and Senator Thune have been really the leaders on 
balancing this question of, how do we protect safety while not 
stifling innovation?
    Early at a high level it seems like having the right 
balance of making sure we set some direction without strangling 
innovation is the key balance, and it sounds like you and 
Senator Thune are headed down a right path to find that right 
balance while also not creating an unwieldy patchwork of 
regulations across the country.
    Senator Peters. Well, if confirmed, I will look forward to 
working with you on that. It sounds as if you're enthusiastic 
and excited about the future.
    Mr. Kan. Yes.
    Senator Peters. It is about the balance. And we're going to 
have to figure out this balance for a variety of new 
technologies as they're coming down the pike that we've got to 
be concerned about safety and be concerned about some of those 
core policy issues, but also understand we can't stifle 
innovation because we are living at the verge of a very 
exciting time, even if it leads to self-flying cars, as you 
just mentioned, Mr. Kan, which is certainly an ambitious goal 
to see going forward.
    But part of the ability to achieve this, and, Mr. Redl, you 
addressed this a little bit with Senator Young's comments, but 
I would like both of your comments, both Mr. Redl and Mr. Kan, 
is that in order for this technology to work, we have to share, 
potentially share, some spectrum. As you know, the 5.9 
gigahertz band has been dedicated for short-range 
communications within the auto industry, vehicle-to-vehicle. 
There is a process going forward right now to see whether or 
not that can be shared.
    I would hope that I would have both of your commitments to 
make sure that this is a fair and transparent process that is 
driven by the facts. Sharing can be an important part of it 
all, but we have to understand that these technologies related 
to auto safety, the communications vehicle-to-vehicle using 5.9 
gigahertz, is really about saving lives, and that should always 
be the priority, is to use the spectrum because this is key to 
this technology being fully utilized and this technology 
bringing the incredible advances in auto safety that it 
promises.
    So if you could comment briefly on your commitment to 
making sure this is a fair, transparent process, and only facts 
will drive the ultimate decision, and also understanding that 
safety should be paramount.
    Mr. Redl. Senator, I completely agree. We should be pushing 
for transparency at every venture in everything we do related 
to spectrum. It's critical that as we look particularly at 
DSRC, we've had over 10 years of time, money, and energy 
invested into finding ways to make that spectrum work for auto 
safety, a large chunk of which in the test bed at Ann Arbor. 
And so I think as we go forward and look at ways to increase 
use in that band, just like every other band that NTIA looks 
at, and that the FCC does for that matter, we need to ensure 
that those systems that have been planned for and are incumbent 
are protected as we look at additional uses.
    Senator Peters. Great. Thank you.
    Mr. Kan?
    Mr. Kan. Yes, you have my commitment.
    Senator Peters. Great. Thank you. Appreciate it.
    Mr. Chairman?
    The Chairman. Thank you, Mr. Chairman.
    Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Mr. Chairman, and thank all of 
you for coming today and for your willingness to serve. I 
appreciate that very much.
    I am going to talk--I've met all of you, so I appreciate 
that. One of the things I want to talk about on our nation's 
infrastructure obviously improve safety for motorists, relieve 
congestion, and all of these things, but I am extremely 
interested in how we can increase our high-speed broadband 
Internet access with an infrastructure package. I think that 
rural states like mine are particularly challenged. It needs to 
be available and affordable for all, and it's not. And there 
are technological challenges, but at the same time, they're not 
insurmountable. And so I've talked with each one of you 
individually on this.
    And I would like to say to Mr. Redl, first of all, during 
the stimulus package of 2010, West Virginia received a lot of 
money in the BTOP program to build out our middle mile network, 
yet we're still 48th in the country. It was, I would say--I 
wouldn't say it was an abysmal failure, but there was a lot of 
wasted money in that program.
    So what should we consider, as Congress, for future 
broadband infrastructure investments? Is a lack of broadband in 
rural America, as I believe, a common theme that you see? And 
can you talk more about economic benefits that you see there? 
And will you work with me to help in this endeavor?
    Mr. Redl. Thank you, Senator. We'll start with of course I 
am looking forward to working with you and your staff----
    Senator Capito. Good answer.
    [Laughter.]
    Mr. Redl.--to address rural broadband issues. I grew up in 
a rural part of New York, which I know most people think of New 
York and think of Manhattan, but there's a large rural portion 
upstate. And I saw firsthand as a child as broadband first came 
to my hometown, what that meant for my family's business. It 
meant new markets and new opportunities and new economic value. 
And certainly I think everyone in America should be able to 
benefit from the economic value of broadband. I agree with you, 
that BTOP, the program in West Virginia, was a lost 
opportunity. I think that that program had the best of 
intentions to bring things out, and it just didn't play out in 
West Virginia in a way that brought the most value to West 
Virginians. I spent a fair amount of time in Energy and 
Commerce working on that challenge, and if I'm confirmed, I 
would want to work as part of the administration to look across 
all the different challenges that are facing each individual 
state, and particularly rural areas, and try to find individual 
mechanisms that will help support private sector investment in 
those places.
    Senator Capito. Great. Great. And I look forward to working 
with you.
    I wanted to ask Mr. Kan another broadband question, but I'm 
going to go to Mr. Sumwalt because I want to make sure I have 
time for this. As we talked about, thank you for coming to my 
office and meeting with me. And I just want to take this 
opportunity to thank you and the NTSB for your professionalism 
in an accident that we had and the investigation that's moving 
forward in Charleston, West Virginia. I was particularly 
interested when you told me you started reading accident 
reports when you were in high school, so this has been a 
passion of yours for a long time. And I think the way that 
you've conducted yourself in the past certainly bodes well for 
the NTSB in the future. So thank you very much. And I look 
forward to voting for you.
    Mr. Sumwalt. Thank you so much.
    Senator Capito. Thank you.
    Mr. Kan, very quickly. You're over in Transportation. I've 
been pleading with Secretary Chao, and we've written letters to 
the President to sit with several of my colleagues again on the 
broadband initiative to have it included in an infrastructure 
package. How do you see transportation--I think there are some 
great synergies in transportation and broadband deployment--how 
do you see those as being hand-in-hand?
    Mr. Kan. Thank you, Senator, for this question. It's very 
important. As we begin to get permits for infrastructure, it's 
oftentimes easy, as you find right-of-way issues, to address 
some of the broadband right-of-way issues, and so there are a 
lot of synergies as you begin to gather permits, file 
paperwork, figuring out how to lay roads to lay cable right 
next to them. And therefore especially in rural parts of the 
country--and I was actually in Morgantown this past weekend to 
see that it is important as we begin to address rural 
infrastructure to also think about rural band hand-in-hand.
    Senator Capito. Well, I look forward to that. I think some 
of the permitting issues--I talked with the Forest Service 
yesterday. They could be a good partner there. Obviously, in 
the West there's a lot of forest, but still in the East there 
are lots of forests where you've got to go in and around to get 
to certain areas, and this is an area that they're looking at 
as well in terms of being helpful, not in the private sector, 
but for emergency services and for their own internal work.
    So I look forward to working with you. I hope that coupling 
of traditional transportation issues along with the other 
economic development, particularly broadband, and ease of 
permitting, and really what makes sense policy, in my view, is 
continued under your stewardship. Thank you so much.
    Mr. Kan. Thank you.
    The Chairman. Thank you, Senator Capito.
    And we have now entered the phase of the hearing known as 
the stalling phase. Ah, very good. Senator Thune, just in time.
    [Laughter.]

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Senator Gardner, thanks for 
chairing, and thank you all for being here. We appreciate your 
willingness to serve. It has already been highlighted, we have 
a distinguished group of very well-qualified nominees before 
our Committee today, and if confirmed, each of you is going to 
have an opportunity to serve in a critical position to move the 
Nation forward. And so I've just got a couple of quick 
questions, and we'll wrap this up.
    But this is for Mr. Kan. The FAST Act required the DOT to 
develop a comprehensive multimodal freight map that identifies 
corridors for the movement of goods from origin to destination. 
Last June, DOT published a notice requesting comments on an 
interim national multimodal freight network. In response, the 
South Dakota Department of Transportation, along with most 
other state DOTs, commented that the interim network was 
insufficient and suggested additional designations for the 
network.
    So given the importance of an expanded network, I ask for 
your commitment to consider all the comments from the states on 
ways that the freight network can better represent the flow of 
goods within our multimodal system.
    Mr. Kan. Absolutely, Senator. Having been in South Dakota 
just 2 weeks ago, I traversed 400 of the 678 miles of 
interstate highway along I-90. It is clear that freight plays 
an important role in South Dakota, as well as the Nation. You 
have my commitment to incorporating all--a lot of the state 
input into building that freight map.
    Senator Thune. Great. Thank you. And as Senator Gardner 
pointed out, that you went past Wall Drug if you did that.
    [Laughter.]
    Senator Thune. You also went past my hometown. But we do. 
We rely heavily on the interstate system, all the Federal 
highways and both state and local roads, too, getting our goods 
to the marketplace, agricultural commodities. Of course, during 
the middle of tourism season, the state is very busy, and 
especially the middle of the Sturgis Rally, which will be 
coming up here in a few couple of months.
    But, Mr. Redl, the demand for spectrum, and you've probably 
already been asked about this, but continues to grow with the 
pace of innovation among both private sector and Federal users. 
As you know, we can't create more spectrum, so the government 
is going to have to figure out how to use what we have more 
efficiently. And so my question is, how do you intend to 
balance competing demands for spectrum that's already in short 
supply?
    Mr. Redl. Senator Thune, I think that's part and parcel of 
what NTIA does every day. They've got a great process in place 
and one that I'd like to expand on to make sure that there is 
work through the Policy and Planning Steering Group, which 
meets across the different Federal agencies, as well as the 
Interagency Radio Advisory Committee, the IRAC, to make sure 
that agency needs are met, and, frankly, to bring best 
practices across all of these agencies to try and find 
synergies and efficiencies, and that helps us find additional 
spectrum to bring to the commercial sector.
    Senator Thune. The Spectrum Pipeline Act modified the 
Spectrum Relocation Fund, the SRF, to help Federal agencies 
fund key R&D activities which could lead to freeing up more 
spectrum in the future. Agencies developed R&D plans, which 
have been submitted to NTIA, and until NTIA approves the plan, 
OMB can't release any funds. Concerns have been raised that 
NTIA's review process has slowed so much that SRF funds are not 
being disbursed as Congress had hoped when enacting the 
Pipeline Act.
    If you're confirmed, will you commit to looking into this 
issue and ensuring that SRF funds are disbursed in a timely 
fashion and in accordance with congressional intent?
    Mr. Redl. Yes, Senator.
    Senator Thune. Finally, as you know, FirstNet is an 
independent authority within NTIA tasked with the creation and 
operation of a Nationwide Interoperable Public Safety Broadband 
Network. This spring, FirstNet selected AT&T to be its first 
private partner to build out and operate this network signing a 
25-year agreement in which AT&T will spend about $40 billion to 
build a high-speed network for the millions of public safety 
users in all 50 states, 5 U.S. territories, and the District of 
Columbia, including those serving rural communities and tribal 
lands.
    Should you be confirmed, what will you do as NTIA 
Administrator to maintain visibility into the operations of 
FirstNet and to conduct oversight to see that FirstNet remains 
on time and on budget?
    Mr. Redl. Mr. Chairman, the NTIA is, if nothing else, the 
principal adviser to the President. And FirstNet, as part of 
the Department of Commerce, also falls under the same rubric. 
The statute is clear, that NTIA is to work with FirstNet and 
with the states to make sure that there is deployment 
particularly in rural areas. I think the idea, and then we've 
been happy to see, AT&T has said that they will be able to get 
public safety users on their network as priority users as soon 
as the end of this year. And the rural benchmarks that are in 
the Middle Class Tax Relief and Job Creation Act will help make 
sure that there is build-out to rural areas where we don't 
already have coverage.
    Senator Thune. Mr. Chairman, I have a question for Mr. 
Sumwalt, which I'll submit for the record.
    But I thank you and I thank all of you for your willingness 
to serve and for being here today. Thank you.
    The Chairman. Thank you, Mr. Chairman. Thank you.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman.
    And thank you to all of you for your willingness to serve. 
Let me just say I'm juggling three Committee meetings, so I 
appreciate your indulgence in letting me come.
    Mr. Redl, thank you for coming to visit with me. It was a 
great conversation, so I'd like to start with you if that's all 
right. I enjoyed the conversation, and we talked a little bit 
about your work experience and allowing me to underscore some 
of the challenges we deal with in trying to ensure 
telecommunications technology can reach and effectively work in 
each corner of my state of Nevada, which is both urban and 
rural areas.
    One of the things we discussed is the intent to continue 
working in a collaborative fashion across the Federal 
Government to solve some of the barriers to broadband or 
wireless deployment and reliability. Can I get a commitment 
from you to break down bureaucratic silos to getting timely 
siting of telecommunications technology on public lands, and 
that your interagency working group will be maintained and work 
in concert to help us expand rural broadband to places like 
remote parts of Nevada?
    Mr. Redl. Senator, yes, if confirmed, I intend to continue 
that and to work with my colleagues throughout the Federal 
Government.
    Senator Cortez Masto. Thank you. I appreciate that.
    And, Mr. Kan, thank you again for your willingness to step 
up to the plate and work with us. We have seen upticks in 
roadway fatalities in recent years as well as continued 
concerns with some rail safety operations because of the lack 
of Positive Train Control installed. Obviously, these are 
indications that we need to continue to be vigilant and stay 
focused on raising the bar of safety in our country. I believe 
that's where innovation and technology can be vital. Would you 
concur?
    Mr. Kan. Absolutely, Senator.
    Senator Cortez Masto. Can you commit that during your 
tenure at the Department that you will help advance 
transportation innovation and safety?
    Mr. Kan. Yes, sir. Yes, ma'am.
    Senator Cortez Masto. Thank you. And that you will consider 
and raise concerns when questionable policies like hiring 
freezes or executive orders hold up necessary safety 
regulations where people's lives or livelihoods are at stake?
    Mr. Kan. Absolutely.
    Senator Cortez Masto. Thank you. I appreciate that.
    And then to--I know the question is here somewhere. Oh, I 
thought it was here. Excuse me. Thank you.
    Mr. Sumwalt, as you stated in your testimony, you've been 
at the NTSB since 2006, correct?
    Mr. Sumwalt. That's correct.
    Senator Cortez Masto. Yes. How many derailments or serious 
rail incidents do you think you've had to go to and investigate 
in that span?
    Mr. Sumwalt. Entirely too many.
    Senator Cortez Masto. Yes, that's what I thought. How many 
of those have had various causes?
    Mr. Sumwalt. Well, we find that there are numerous causes, 
but we find that Positive Train Control is one very effective 
mitigation factor, and that's one thing that, of course, has 
been mandated by the Congress, and we're hoping that it will be 
implemented sooner than later. We feel that for every day that 
goes by without PTC, we have a risk of a rail disaster.
    Senator Cortez Masto. I think of rail safety, and while we 
have a very safe industry writ at large, it only takes a small 
mistake to make a big impact, as you well know. Take, for 
example, the February 2015 crude bi-rail event in Mount Carbon, 
West Virginia, or similar event in Oregon from June 2016. These 
incidents were the result of poor inspections by humans, and 
yet they caused significant damage because of the fire caused 
by the nature of the crude oil product that was being shipped. 
As an NTSB Board member, one who led the investigation into 
Amtrak 188, would you be a staunch proponent of the 
installation of Positive Train Control?
    Mr. Sumwalt. Absolutely. NTSB has advocated for that since 
1970, and we have strongly pushed for that, and unfortunately 
it took a disaster to have that be required in the Rail Safety 
Improvement Act of 2008. And so we continue to push for it, and 
we continue to go to accidents that could have been prevented 
had it been in place.
    Senator Cortez Masto. And I think this has been discussed, 
but you'd agree that technology like PTC and ECP brakes are 
incredibly important to raising the bar of safety for rail 
operations in the country.
    Mr. Sumwalt. Indeed.
    Senator Cortez Masto. Thank you very much. I appreciate the 
conversation.
    The Chairman. Thank you, Senator.
    And thank you to all the witnesses again and your families 
for being here, your willingness to serve the country. The 
hearing record will remain open for 2 weeks. During this time, 
Senators are asked to submit their questions for the record. 
Upon receipt, I would ask the witnesses to get their homework 
done as quickly as possible and return it to the Committee.
    Thank you very much for your time today. This hearing is 
adjourned.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                              Derek T. Kan
    Question 1. Mr. Kan, should you be confirmed, you will be charged 
with advising Secretary Elaine Chao on legislative and regulatory 
initiatives and lead policy development across all modes of the 
Department of Transportation (DOT). In your questionnaire, you mention 
that of the many challenges facing the agency, refreshing and 
modernizing our transportation infrastructure to promote economic 
productivity is a priority. What approach should DOT take to improving 
infrastructure and what role do you see public-private partnerships 
playing as we address infrastructure revitalization?
    Answer. If confirmed, I will seek to implement long-term reforms 
for the regulation, funding, delivery, and maintenance of 
transportation infrastructure projects. Simply providing more Federal 
funds, without a strategic approach to infrastructure investment, is 
not an effective solution to the Nation's infrastructure challenges. 
Instead, U.S. DOT investments should be targeted to ensure the greatest 
potential positive impacts on the economy, particularly with respect to 
leveraging state and local resources. It is important to broaden and 
expand participation in infrastructure funding so that more projects 
can be undertaken overall and so that we do not supplant existing 
state, local, or private funds already dedicated to infrastructure. The 
private sector can serve an important role in leveraging existing 
resources for more effective infrastructure development. While public-
private partnerships are not a one-size-fits-all approach for all 
projects, private sector investment and expertise has the potential to 
bring more efficient procurement methods, innovative design approaches, 
market discipline, and a lifecycle focus on asset management.

    Question 2. In the FAST Act, we established the National Surface 
Transportation and Innovative Finance Bureau, which is intended to 
serve as a one-stop-shop for States and local governments to receive 
Federal financing or funding assistance. The President's Fiscal Year 
(FY) 2018 budget includes a request of $3 million, which is the same 
level the Bureau was funded at in the FY 2017 appropriations passed 
into law this past May. The Executive Director for the Bureau will 
report to you as the Under Secretary of Transportation Policy should 
you be confirmed. How will you work with the Bureau to develop creative 
financing solutions to address infrastructure?
    Answer. If confirmed, I will work with the Bureau to develop 
financing solutions that leverage state, local, and private funds for 
infrastructure development. The Bureau's TIFIA and RRIF loan programs 
have proven to be popular tools for the financing of transportation 
infrastructure, with an existing portfolio of over $27 billion in loans 
supporting nearly $90 billion in overall project value. The Private 
Activity Bonds (PABs) program has also been an essential component of 
the financing plans for many public-private partnerships, with over $11 
billion in allocations to-date. I would work with the Bureau to broaden 
the availability and accessibility of such financing tools to more 
state and local decision-makers.
    Furthermore, if confirmed, I will work with the Bureau to develop 
and promote best practices in innovative finance and P3s and provide 
extensive technical resources for states, municipalities, and other 
public and private sector entities that are considering P3s. It is 
critical to ensure that state and local decision-makers, serving on the 
front-lines of our national infrastructure challenges, are equipped 
with cutting-edge resources. This includes P3 toolkit materials, 
training opportunities, project-specific technical assistance, peer 
knowledge exchanges, value for money evaluation tools, and other expert 
resources to support the knowledgeable and responsible implementation 
of innovative project financing and delivery.

    Question 3. In your questionnaire you mention that one of your 
priorities, if confirmed, would be to promote a culture that eliminates 
waste, fraud, and abuse. In February of this year, the Committee held a 
hearing at which DOT Inspector General (IG) Scovel testified that DOT 
continues to face delays in addressing recommendations to improve 
pipeline and hazardous material safety issued both by DOT OIG as well 
as National Transportation Safety Board. If confirmed, what steps would 
you take to eliminate waste, fraud, and abuse at the agency as well as 
address the outstanding recommendations made by DOT regarding pipeline 
and hazardous material safety?
    Answer. If confirmed, I will work with PHMSA to address outstanding 
audit recommendations as well as other problems that are identified.

    Question 4. Until recently, in addition to your role as a Director 
on the Amtrak Board of Directors, you also served as a Manager for 
Lyft, a company which has testified before this committee on the topic 
of self-driving cars. Should you be confirmed, how will the Department 
work to integrate emerging technologies such as self-driving vehicles?
    Answer. If confirmed, I can assure you that the thoughtful 
integration of technology into the transportation system to achieve our 
national goals will be a top priority of mine. I believe this can be 
done through several different approaches. First, the Department will 
take an active role in encouraging open communication with the public 
and key stakeholders to identify where technological improvements can 
have a beneficial impact on safety, our economy, improving fuel 
efficiency, enhancing mobility, and reducing congestion. Second, I will 
work to ensure the Department continues to seek ways to reduce 
regulatory burdens and other institutional barriers, where possible, to 
support industry innovations reaching full deployment in the shortest 
time possible. Third, I will work to streamline internal Departmental 
reviews and expedite the necessary research and analytical processes to 
help match the pace of private sector innovations. Lastly, but most 
importantly, I will ensure that improving transportation safety remains 
our top priority. The adoption of innovative technologies offers 
tremendous potential to realize dramatic safety outcomes for our 
Nation. Encouraging new ideas that deliver safer vehicles will be a 
near term focus area. However, I will also seek to balance the pace of 
innovation with proper safety assurances and oversight. The Department 
will continue to play an active role in ensuring that automated 
vehicles and other emerging technologies receive the necessary 
development, validation, and performance testing required to reliably 
integrate these technologies in a manner that will deliver many 
benefits, but first and foremost, improve transportation safety.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                              Derek T. Kan
    Question 1. Mr. Kan, to ensure the economic security of our 
country, freight must be able to move smoothly across several modes of 
transportation. Our intermodal connections are critical for ensuring 
freight continues to flow. The FAST Act requires a National Strategic 
Freight Plan, and the Department of Transportation has issued a draft 
for public comments. During this time I look forward to reviewing 
additional proposals to address intermodal connections. What do you 
believe are the best strategies for improving our intermodal 
connections?
    Answer. I agree that the efficiency of goods movement depends on 
high performing intermodal connections among our road, rail, and 
waterborne transportation systems. First and last mile connections that 
connect freight producers and distributors with major rail, port, 
airport, and intermodal facilities are critical for the timely and 
reliable movement of freight.
    One step that we can take is to more clearly articulate the 
importance of intermodal connectors as critical links in freight 
transportation supply chains serving local economies and national and 
global markets, which can help ensure that improvements for intermodal 
connections are fully considered in the transportation planning 
process.

    Question 2. Mr. Kan, as you know, both rural and urban communities 
face different infrastructure challenges. What works in one area may 
not work in another. That's why I am in favor of the formula freight 
program, which provides each state guaranteed funding for a wide array 
of urban and rural corridor highway freight projects. Do you believe 
that the freight program can represent an equitable way to strengthen 
our infrastructure for both rural and urban communities?
    Answer. In the next 30 years, the U.S. economy is expected to 
double in size and the Nation's population is projected to increase by 
68 million people. Driven by this projected economic and population 
growth, freight movements across all modes are expected to grow by 
roughly 42 percent by the year 2040. We also recognize that this 
projected freight growth may affect rural and urban communities 
differently, and that the Department's freight efforts must ensure that 
rural communities' unique challenges are addressed.

    Question 3. Mr. Kan, I am pleased to see the President and 
Secretary Chao talk about the importance of regulatory reform as a way 
to address infrastructure investment and freight movement. Federal 
regulations tend to be prescriptive, where the government dictates how 
industry will meet a standard. I'm looking at ways we can adopt 
performance-based standards, which would allow stakeholders to develop 
innovative methods for achieving a regulatory goal. Do you agree that 
performance-based standards could facilitate innovative compliance and 
safety technologies? If so, what modes of transportation or issues do 
you believe would be best suited for using performance-based standards?
    Answer. As I understand it, all the modes within the Department 
look at the possibility of performance-based standards to ease 
compliance while maintaining safety. If confirmed, I plan to use 
performance-based standards wherever possible consistent with 
maintaining the highest level of safety.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Derek T. Kan
    Question 1. President Trump has talked about investing $1 trillion 
in our infrastructure. The President's recent budget proposal, however, 
would slash infrastructure funding. These cuts will hurt many projects 
in Florida. If confirmed, what would your recommendation be to the 
President on how to invest in infrastructure?
    Answer. It is my understanding that the Department seeks to broaden 
and expand participation in infrastructure funding so that more 
projects can be undertaken overall and so that we do not supplant 
existing state, local, or private funds already dedicated to 
infrastructure. If confirmed, I will take a holistic approach when 
considering how best to make national infrastructure investment 
recommendations to Secretary Chao in support of the President's agenda.

    Question 2. Do you support direct Federal funding for Amtrak and 
capital investment grants?
    Answer. If confirmed, I will look into Amtrak funding issues and 
capital investment grants. I think it is important to evaluate Federal 
funding and capital investment grants in the context of other economic 
and transportation priorities.

    Question 3. In 2016, a record 32 panthers were killed by cars in 
Florida. We are working very hard to bring this endangered species back 
from the brink of extinction, but that could be wasted effort if we are 
not able to protect panthers from being hit by vehicles. That's why 
wildlife crossings are such an important conservation tool for 
panthers, black bears, and other animals. Do you support funding or 
resources for wildlife crossings, especially along roads like Alligator 
Alley (I-75) that would otherwise create habitat fragmentation?
    Answer. We should seek to protect wildlife while facilitating 
efficient transportation, and to use data to set sound policy. If 
confirmed, I will work with the Federal Highway Administration and 
other DOT entities working on this issue to develop and support cost-
effective strategies to reduce wildlife strikes, habitat loss, and 
habitat fragmentation.

    Question 4. There are many important rail projects in Florida that 
rely on Federal support through funding, financing, and assistance with 
advancing projects. Further, according to Operation Lifesaver, Florida 
is one of the worst states for highway-rail grade crossing fatalities.
    The FAST Act required the Department of Transportation to convene 
the Gulf Coast Working Group to evaluate options for restoring Amtrak 
service in the Gulf Coast region, including along the panhandle of 
Florida. The report from the working group was due in September 2016. 
Do you commit to quickly submit this report to Congress?
    Answer. If confirmed, I will check on the status of this report and 
try to expedite its completion

    Question 5. The FAST Act included provisions to streamline the RRIF 
loan process and increase utilization of the program. Will you ensure 
those provisions are implemented expeditiously?
    Answer. Yes, if confirmed, I will work to ensure that those 
provisions of law are implemented expeditiously with the goal of 
streamlining the process consistent with protecting the taxpayers' 
interests. I understand that the Department, through its Build America 
Bureau, has already been working to streamline the RRIF loan process 
and increase utilization of the program, in accordance with provisions 
in the FAST Act.

    Question 6. What additional steps can the Department take to help 
applicants move through the RRIF process?
    Answer. If confirmed, I will explore ways the Department can help 
move applicants through the RRIF process more quickly. With the 
establishment of the Build America Bureau, in accordance with the FAST 
Act, there has been a focused effort to identify inefficiencies in the 
RRIF process and to reduce the time required for certain steps.

    Question 7. The All Aboard Florida project was issued a final 
environmental impact statement over 18 months ago. The Department has 
yet to issue a Record of Decision on the project. Will you commit to 
look into this issue?
    Answer. Yes, if confirmed, I will look into this issue.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                              Derek T. Kan
    Question. Last November, the voters of the Puget Sound Region voted 
to increase their taxes in order to expand our light rail system to a 
116-mile network. The congestion in the Puget Sound Region has almost 
doubled in just the last five years. In fact, when Sound Transit opened 
just two new light rail stations in March of 2016, ridership on the 
system spiked by more than 70 percent. This expansion was made possible 
through a combination of local funds and Federal funds from DOT.
    Looking forward, Sound Transit has been working their way through 
the FTA pipeline to advance expansions to the cities of Lynnwood in the 
North and to Federal Way in the South. These projects will create 
thousands of quality construction jobs. The Lynnwood Extension is in 
the Engineering phase has a commitment from the FTA for $1.17 billion 
and received the first installment of $100 million in FY 2017 from 
Congress. The Federal Way Extension is in the Project Development phase 
of the pipeline and expected to enter the engineering phase in FY 2018.
    However, rather than support the commitment by our local 
communities to transit projects by following the clear statutory 
requirements of the program, the Administration's budget request is 
punishing them for that effort, and using these local efforts as a 
justification for slashing Federal spending on transit.
    The Administration's position brings uncertainty to nearly 60 
projects in 20 states already in the CIG pipeline. In many regions, 
including in the Puget Sound, taxpayers agreed to support transit 
projects with the expectation of a reasonable level of Federal support.
    Local support of transit projects is not--as the administration 
wrongly concluded in the budget submission--a reason to end the very 
partnership voters relied upon when supporting these expansions.
    As you develop policies at the Department of Transportation, will 
you advance and fund these projects that provide commuters the 
opportunity to get out of ever-worsening congestion and have 
significant local financial support?
    Answer. If confirmed, I will look into these issues. It is my 
understanding that the Department is continuing to implement the CIG 
program in accordance with program provisions as authorized in statute 
and as appropriated, including advancing projects through the various 
phases of the program.
    It is also my understanding that the Department seeks to broaden 
and expand participation through the President's infrastructure 
initiative so that more projects can be undertaken overall and so that 
we do not supplant existing state, local, or private funds already 
dedicated to infrastructure. If confirmed, I intend to take a holistic 
approach when considering how best to make national infrastructure 
investment recommendations to Secretary Chao.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                              Derek T. Kan
    Question 1. President Trump's Plan to Pay for $1 Trillion in 
Infrastructure. In late May, the administration released its budget 
request for 2018. Within the budget is a request for $200 billion 
spread out over ten years. That $200 billion is eclipsed by drastic 
cuts to other programs. Cuts to transportation--like the TIGER program 
and Amtrak. Cuts to many other critical programs, like housing and the 
environment and education and our workforce--cuts that undermine our 
economy.
    Elsewhere in the budget there's talk of tolling, privatizing 
infrastructure, ending regulations, curtailing litigation, minimizing 
the Federal role in transportation, and making states pay more--what 
the administration calls ``self-help.'' And on top of this, the 
administration has thrown its support toward massive tax cuts for the 
wealthy and corporations.
    You will lead policy development at DOT. And you've served on 
Amtrak's board. President Trump proposed a $1 trillion infrastructure 
package. Where would the other $800 billion come from?
    Answer. The Administration is working on a comprehensive proposal 
to spur additional infrastructure investments, through innovation, 
incentives for increased local support and more private sector 
investment, as well as streamline government involvement to deliver 
infrastructure improvements faster and more cost effectively. The 
Administration's goal is to seek long-term reforms on how 
infrastructure projects are regulated, funded, delivered, and 
maintained.

    Question 2. Is a cut of approximately $700 million to Amtrak's 
budget responsible?
    Answer. As I understand it, the cut eliminates Federal support for 
Amtrak's long distance train services, which have been the primary 
driver of continual operating losses. The elimination of long-distance 
subsidies will likely create some level of disruption, particularly in 
the short-run.

    Question 3. Is it possible to support tax cuts while also claiming 
to want a $1 trillion plan?
    Answer. Yes. I believe both policies will lead to increased growth, 
strengthening our country. More specifically, the President's target of 
$1 trillion will be met with a combination of new Federal funding, 
incentivized non-federal funding, and expedited projects.

    Question 4. Can you ensure the administration's plan won't just 
lead to increased costs on consumers?
    Answer. If confirmed, I will be very engaged in working to ensure 
the new infrastructure initiative will not unduly lead to increased 
costs on consumers.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                              Derek T. Kan
    Question. White House and the Office of Legal Counsel has recently 
asked Federal Government agencies to only answer oversight requests 
from committee chairmen, rather than all members of Congress, including 
the ranking member. Do you personally commit to responding to oversight 
requests and letters from minority members of Congress in a timely 
manner?
    Answer. If I am confirmed I plan to respond to Congressional 
letters is a timely and bipartisan manner, including those from 
minority members of Congress.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Corey Booker to 
                              Derek T. Kan
    Question 1. On June 2, 2017, the Federal Motor Carrier Safety 
Administration announced a withdrawal of the proposal to increase the 
minimum insurance for trucks and buses. A fatal, multi-vehicle truck 
accident can cost over $20 million to compensate families, care for the 
injured, and pay for the destruction of our Nation's highway 
infrastructure. However, the requirement to carry at least $750,000 in 
minimum insurance for trucks has not been increased in 30 years, and 
has not been tied to inflation, which has led to taxpayers having to 
foot the bill in the aftermath of major truck accidents. Can you commit 
to relook at the minimum insurance issue?
    Answer. If confirmed, I will commit to look at the minimum 
insurance issue, along with others in the Department

    Question 2. Mr. Kan, as you know, President Trump's budget proposed 
eliminating bipartisan and highly popular infrastructure programs such 
as TIGER grants and funding for Amtrak's long distance passenger 
trains. Do you recognize that cutting Amtrak's long-distance service 
routes would increase costs and have a devastating impact on state 
supported routes and the Northeast Corridor?
    Answer. Cutting long-distance service routes would likely increase 
costs in the short-run related to wind down; however, such an approach 
would likely bring down operating costs in the long-run. There would be 
an impact to state-supported routes and, to some extent, the Northeast 
Corridor.

    Question 3. Will you support Amtrak's long-distance train services?
    Answer. If I am confirmed, I will look into Amtrak's long-distance 
train services. I think it is important to evaluate increased Federal 
funding for long-distance rail in the context of other economic and 
transportation priorities. One continual challenge has been that long-
distance passenger rail service has been operating with financial 
losses, while providing a service to specific communities.

    Question 4. Mr. Kan, as you know, the TIGER grant program receives 
strong bipartisan support in Congress and is oversubscribed around the 
country. Will you advocate the benefits of the TIGER grant program in 
your role at USDOT?
    Answer. The Department takes a holistic approach when considering 
how best to make national infrastructure investment decisions. The 
TIGER program has not been formally authorized as part of a long-term 
surface transportation bill. Many projects funded by TIGER are also 
eligible under DOT's other mandatory highway and transit formula 
programs. Furthermore, the Nationally Significant Highway and Freight 
Projects discretionary grant program provides DOT the ability to award 
competitive grants to projects of national or regional significance and 
is authorized at $4.5 billion through 2020. DOT's credit and finance 
programs also have additional capacity for financing many 
transportation projects. Therefore, the Department will continue to use 
all Congressionally funded programs to meet our national infrastructure 
needs. Given the fact that Congress has appropriated $500 million in 
FY17 for the TIGER program, if confirmed, I will help to ensure that 
the Department executes this program in accordance with Congressional 
requirements to seek the best possible transportation outcomes for our 
Nation.

    Question 5. I'm very concerned about recent trends in the 
subcontracting among airlines of services like cabin cleaning, 
catering, and those who are wheelchair attendants. Last month, Senator 
Brown and I sent letters to the CEOs of each of the major airlines 
asking for more information about their increased reliance on the 
subcontracted workforce. Do you think we can and should do more to 
improve labor conditions for workers that play these vital roles?
    Answer. If confirmed, I will look into the role subcontractors' 
play in airline services like the ones you mentioned.

    Question 6. What do you think airlines can do to improve labor 
conditions for workers--both the primary workers employed by the 
airlines, and the workers employed by the companies airlines 
subcontract with?
    Answer. If confirmed, I will look into this issue and consult with 
the Department of Labor.

    Question 7. For decades, the United States Department of 
Transportation has required airports to set goals for the inclusion of 
minority-owned, women-owned, and disadvantaged businesses in federally-
funded projects. This is a successful program across multiple 
transportation agencies, which is why I included an amendment to last 
year's FAA reauthorization legislation that aligns the Department of 
Transportation (DOT)'s definition of a small business with that used by 
the Small Business Administration (SBA). This amendment passed the 
Senate but unfortunately it was not included in the FAA extension bill 
that became law. Do you agree that it is important to include small 
business owners from historically disadvantaged groups in federally-
funded airport infrastructure projects?
    Answer. If confirmed, I will work with the Secretary to continue 
DOT's outreach to small, women and minority-owned businesses in 
federally-funded projects.

    Question 8. Will you commit to work with Congress to expand access 
and remove obstacles to participation for disadvantaged small business 
owners in these projects?
    Answer. If confirmed, I will work with Congress to expand access 
and remove obstacles for all groups, including disadvantaged small 
business owners, related to infrastructure projects.

    Question 9. The Airport Improvement Program (AIP) and the Passenger 
Facility Charge (PFC) are both important funding streams for airport 
infrastructure projects. However, unlike the AIP, the PFC program does 
not set participation goals for women-and minority-owned small 
businesses, otherwise known as disadvantaged business enterprises 
(DBEs). Meanwhile, PFCs are eclipsing AIP as the primary funding source 
for airport infrastructure. This means that DBEs are missing out on 
more and more contracting opportunities for these projects. According 
to a 2015 report prepared for the Airport Minority Advisory Council, 
the cost of these missed opportunities may be as high as $564 million. 
What is the Department's plan to improve DBE participation in PFC-
funded projects?
    Answer. Ever since the PFC program was established by law 27 years 
ago (in 1990), it has been treated as a special form of local revenue 
but subject to Federal approval. The PFC program has never been subject 
to any of the Federal requirements associated with Federal funds.
    PFCs do play an important role in airport infrastructure funding. 
PFCs can be used in conjunction with public-private partnerships and 
alternative project delivery methods. Airports also like the PFC 
program because PFCs can be used to pay interest on bonds--in fact, a 
third of the approved PFC collections has been specifically for 
interest (rather than hard construction).

    Question 10. Would it be helpful to update legislation in this 
area?
    Answer. If Congress wants to add DBE requirements to the PFC 
program, then legislative action would be needed.

    Question 11. Mr. Kan, can you commit to work in your new role to 
help the Department of Transportation do everything it can to advance 
construction of the Gateway Project including the Hudson River tunnels?
    Answer. Infrastructure in the tri-state area is of great importance 
to the daily lives of millions of Americans. If confirmed, I will 
request a full briefing on the status of the various projects that 
comprise the ``Gateway'' program to ensure that the Department is well-
apprised as to any applications pending or submitted to DOT with regard 
to these.

    Question 12. One critical component of the Gateway Program is the 
replacement of the century-old swing span Portal Bridge in New Jersey 
that carries 450 passenger trains between Newark and New York City each 
day. The environmental review process for the Portal Bridge concluded 
years ago and the bridge design completed in June 2013. Given the 
importance of this project to the entire Northeast Corridor, can you 
commit to working to help make sure the Department of Transportation 
does everything it can to facilitate construction on this project in 
FY18?
    Answer. If confirmed, I intend to: (1) request a full briefing on 
the Portal Bridge project, (2) review the status of any application 
related to this project, and (3) work with you and other stakeholders 
to ensure that the project is not bogged down in a long permitting 
process. Streamlining the permitting process is a goal we should pursue 
for all infrastructure projects.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             David J. Redl
    Question 1. Mr. Redl, as you know, last fall, the National 
Telecommunications and Information Administration's (NTIA) contract 
with the Internet Corporation for Assigned Names and Numbers (ICANN) to 
perform the Internet Assigned Number Authority (IANA) functions was 
allowed to lapse, effectively transitioning oversight of the IANA 
functions from the U.S. Government to the global multi-stakeholder 
community.
    What do you see as NTIA's role going forward with regard to ICANN 
and the global multi-stakeholder community model for Internet 
governance, and how engaged will you be in representing U.S. interests 
at ICANN's Governmental Advisory Committee, should you be confirmed?
    Answer. Both Congress and the Trump Administration (through the 
President's FY18 budget) have expressed support for the 
multistakeholder approach to Internet governance and NTIA remains the 
United States' representative on ICANN's Governmental Advisory 
Committee. I believe that NTIA should continue to serve as a vigorous 
advocate for the United States' interests at ICANN and other fora where 
Internet governance issues may be raised. I believe that the power of 
the Internet to bring free speech and free-market commerce to every 
corner of the world is one of the most potent gifts the United States 
has given the world, and as such, if confirmed I plan to be very 
involved in working to preserve, protect, and expand the reach of the 
Internet.

    Question 2. Mr. Redl, as you know, the ICANN is a California-based 
nonprofit corporation that serves as the convening authority for the 
global multi-stakeholder community. One of the key concerns of those 
who criticized last year's transfer of the IANA functions from NTIA 
oversight to ICANN and the global multi-stakeholder community, was that 
it could lead to ICANN moving outside the jurisdiction of the United 
States. My understanding is that place and jurisdiction of 
incorporation and operations, including governance of internal affairs, 
tax systems, and jurisdiction of places of physical presence are all 
still open topics for discussion. Needless to say, ICANN shifting its 
legal jurisdiction of incorporation to another country would be deeply 
concerning to many in Congress.

    Question 2a. Do you share the concern about ICANN shifting its 
legal jurisdiction to another country? Will you commit to informing 
Congress if you observe any efforts by ICANN to move to another 
country?
    Answer. The accountability mechanisms created by the 
multistakeholder process and adopted by ICANN are rooted in the laws of 
the state of California. Therefore, if confirmed, I will work with 
Federal agencies and Congress work to ensure that ICANN remains 
headquartered in the United States.

    Question 2b. Another concern voiced by many critics of last year's 
transition of the IANA functions from NTIA oversight to the multi-
stakeholder community was whether it would enhance the role of 
authoritarian regimes in Internet governance. Will you commit to 
informing Congress if you observe any actions by authoritarian regimes 
to enhance their role with respect to Internet governance?
    Answer. As a congressional staffer, I witnessed firsthand, on 
several occasions, attempts by some countries to impose more government 
control over governance of the Internet. The cooperative relationship 
between all parts of the U.S. Government is necessary to ensure that 
these countries don't succeed. If confirmed, I will work with Congress 
to counter any actions by authoritarian regimes to enhance their role 
with respect to Internet governance.

    Question 3. Mr. Redl, we are all aware that certain nation-states 
such as Russia and China, as well as the United Nations (UN), through 
its agency known as the International Telecommunication Union (ITU), 
are constantly seeking opportunities to replace the global multi-
stakeholder community approach to Internet governance with a top-down, 
government-controlled model. Obviously, government control of the 
Internet would have profoundly negative implications for free 
expression, free enterprise, and democratization. Many worry that the 
UN will again seek to implement a top-down model for Internet 
governance at the ITU's World Telecommunications Development Conference 
in Buenos Aires in October and at the 2018 ITU Plenipotentiary 
Conference in Dubai. Should you be confirmed, what efforts will you 
engage in to preserve the global multi-stakeholder model, and to 
prevent a top-down approach to Internet governance such as that 
envisioned by the UN?
    Answer. Preserving the multistakeholder approach to Internet 
governance will be an ongoing challenge not only for the United States 
government, but for all stakeholders the world over. Challenges to this 
successful approach will certainly continue given the importance of the 
Internet in global discourse and commerce. At a minimum, it is critical 
that NTIA have the resources to be present at every step of these 
multistakeholder and multilateral processes. As Chairman Upton often 
reminded the staff of the Energy and Commerce Committee, ``you have to 
be there on the takeoff if you want to be there for the landing.'' 
Without strong, informed voices like those of the talented 
professionals at NTIA engaging at every stage of the debate, we run the 
risk of giving ground to those who do not share our vision of the 
Internet. If confirmed, I will work with the staff of NTIA, and across 
the U.S. Government, to ensure that we are represented wherever these 
debates are happening.
    Additionally, the strength of the multistakeholder process is 
inclusive participation. It is incumbent on the United States--all 
stakeholders in the United States--to be informed advocates for the 
Internet that we depend on and love. That means working across the 
United States government to engage companies large and small, 
universities, advocates, and individual citizens to participate in the 
process. If confirmed, I will work to ensure that Americans and 
American interests are represented in these important debates.

    Question 4. Mr. Redl, as you know, the First Responder Network 
Authority (FirstNet) is an ``independent authority'' within NTIA tasked 
with the creation and operation of a nationwide interoperable public 
safety broadband network. This spring, FirstNet selected AT&T to be its 
private partner to build out and operate this network, and it appears 
that the ambitious project to build a nationwide interoperable public 
safety broadband network is finally under way.
    Keeping in mind that FirstNet is an ``independent'' authority 
within NTIA, what role do you envision playing as NTIA Administrator 
with regard to FirstNet, should you be confirmed?
    Answer. FirstNet has a very important task in front of it, and we 
stand on the cusp of its realization. NTIA has a specific role under 
the terms of the Middle Class Tax Relief and Job Creation Act of 2012 
(MCTR) with respect to states that ``opt-out'' of FirstNet's radio 
access network (RAN). While I am hopeful that FirstNet and AT&T's plans 
for deployment of RAN in each state will be met with approval, the 
statute is very clear and states have the choice to opt-out if they 
believe they can better meet their public safety users' needs. In MCTR, 
Congress adopted provisions that require states that opt-out make 
certain showings to establish that a state can build and operate the 
RAN so that first responders get mission critical service. If 
confirmed, NTIA will follow the statute and work to ensure that opt-out 
states are able, through a network partner, to provide any first 
responder high quality, reliable broadband service for the long-term.
    Additionally, as FirstNet is an independent authority within NTIA, 
if confirmed I will work with FirstNet to ensure that its mission is 
achieved. The professionals at NTIA have a wealth of experience in 
networks and Federal contracting that compliments the public safety 
experience amassed at FirstNet. There should be ways to work together 
to achieve the National Public Safety Broadband Network Congress 
envisioned.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                             David J. Redl
    Question 1. I worked with the Office of Management and Budget (OMB) 
on legislation that was ultimately included in the Bipartisan Budget 
Act of 2015 to provide more funding and flexibility for Federal 
agencies to use the Spectrum Relocation Fund (SRF) for research and 
development related to their spectrum activities. It was our intention 
that this additional funding and flexibility would result in more 
efficient use of spectrum by Federal users and free up more government 
spectrum for commercial use. OMB oversees the fund in consultation with 
the National Telecommunications and Information Administration (NTIA). 
Can this committee count on you to ensure that the SRF is being 
utilized by agencies to achieve these goals?
    Answer. Yes.

    Question 1a. The U.S. Government Accountability Office (GAO) issued 
a report in 2011 that basically said that NTIA needed to improve its 
spectrum-management policies to promote more efficient use of Federal 
spectrum. To put it bluntly, NTIA oversees the Federal use of spectrum, 
but is sometimes ``pushed around'' by the large departments that 
utilize the spectrum. Often large organizations within the Federal 
Government do not have much of an incentive to relinquish valuable 
spectrum, even if they're not using it efficiently. Do you agree that 
changes should be made to NTIA's process when evaluating the spectrum 
needs of other departments and agencies, so that NTIA can more 
effectively manage such a valuable Federal resource?
    Answer. Ensuring that Federal agencies have the spectrum resources 
to meet their missions efficiently is part of NTIA's mission and will 
continue to be a priority if I am confirmed. I believe that a 
functional process--one that adapts to the rapid changes in spectrum-
based technology--is critical to achieving this goal. If confirmed, I 
will work to ensure that NTIA's processes continue to evolve to meet 
our national needs.

    Question 2. As a concerned representative of rural Kansas, I have 
been focused upon both spectrum policy and how to effectively see 
wireless services deployed in the smaller, rural reaches of my home 
state. I gather from your previous experiences that you understand the 
challenges that places like Kansas face and that the NTIA has played a 
vital role in the past in helping assess the state of deployment across 
the Nation. I hope you will work with me and my colleagues to ensure 
that rural Kansans are not relegated to inferior wireless service. An 
accurate assessment of not only what urban consumers have available but 
what rural consumers experience will be essential to helping guide this 
Administration's and Congress' policy decisions to build out to the 
``hard-to-reach'' corners of this country. What tools are available to 
you at NTIA to ensure my constituents will have high quality wireless 
service?
    Answer. My experiences have shown me that if we want to have a 
coherent policy for bringing broadband to rural and hard-to-reach 
areas, we need to understand the challenges. To that end, NTIA used to 
administer a program to ensure a National Broadband Map. This map 
provided a crucial tool to understand the scope of the challenge and to 
appropriately target support. Unfortunately, NTIA lacked the resources 
to continue to maintain the map and without updates it no longer 
represents the state of broadband in America. With appropriate 
resources, the National Broadband Map represents a first step in 
understanding the broadband needs of rural America.
    In addition to understanding the scope of the problem, typically, 
in rural and hard-to-reach areas economics are the overarching 
challenge.
    The economics of wireless are heavily impacted by population 
density. Each cell site in a rural area serves fewer customers and each 
site needs backhaul to bring the traffic into the larger network. 
Therefore, the investment in the site itself takes longer to recoup--
sometimes longer than the lifecycle of the equipment given the rapid 
pace of wireless evolution. At least part of this challenge can be 
alleviated though smart policies and incentives to promote investment. 
NTIA has been hard at work to help address some of these challenges 
through the BroadbandUSA program--developing best practices and 
providing technical assistance for state and local governments to 
foster private-sector investment.
    If confirmed, I will work with the staff of NTIA and across the 
Federal Government to tackle these challenges.

    Question 3. Due to the leadership of the Kansas 9-1-1 Coordinating 
Council and AT&T, Kansas is well-positioned to serve as a leading model 
in the operation of a nationwide interoperable public safety broadband 
network pending some additional decision-making within the state. How 
do you plan to use successful models of coordination, like those in 
Kansas, to attract other states' to opt-in to the program?
    Answer. The experience of states like Kansas were very instructive 
as FirstNet went through the State and Local Implementation Grant 
Program as well as the process of developing its RFP for a public-
private partner. If confirmed, I will work with FirstNet--an 
independent authority within NTIA--to ensure FirstNet succeeds in its 
mission to deploy a nationwide interoperable public safety broadband 
network.

    Question 3a. What are some of the major barriers or issues you 
expect to come across in your efforts to stand up this high-speed 
FirstNet system built specifically for the millions of public safety 
users in all 50 states and five U.S. territories?
    Answer. NTIA has a specific role under the terms of the Middle 
Class Tax Relief and Job Creation Act of 2012 (MCTR) with respect to 
states that ``opt-out'' of FirstNet's radio access network (RAN). While 
I am hopeful that FirstNet and AT&T's plans for deployment of RAN in 
each state will be met with approval, the statute is very clear and 
states have the choice to opt-out if they believe they can better meet 
their public safety users' needs. In MCTR, Congress adopted provisions 
that require states that opt-out make certain showings to establish 
that a state can build and operate the RAN so that first responders get 
mission critical service. Going forward, NTIA's biggest challenge will 
be to faithfully follow the statute and work to ensure that opt-out 
states are able, through a network partner, to provide any first 
responder high quality, reliable broadband service for the long-term.

    Question 4. The American Recovery and Reinvestment Act of 2009, 
commonly referred to as the ``Stimulus,'' provided $4.35 billion to 
NTIA to fund broadband projects through grants. As this Committee is 
once again posed to debate and hopefully pass an infrastructure bill 
that likely will include money to expand broadband, what assurances can 
you give this committee that NTIA will not pursue a policy of using 
government money to overbuild existing broadband networks? And will you 
commit to working with Congress to limit the opportunity of government 
policies that overbuild existing networks?
    Answer. If confirmed, I will work with the staff of NTIA to 
honestly and effectively implement the laws adopted by Congress. That 
includes any work to bring infrastructure to America's unserved 
population. And yes, if confirmed I will work with Congress to ensure 
our national investments in infrastructure are best targeted to serve 
the unserved.

    Question 4a. Americans today enjoy a wide platform of broadband 
delivery options. Will you commit that NTIA will pursue a policy that 
encourages the expansion of broadband to rural America on a 
``technology neutral'' platform, especially when direct government 
funding is being used?
    Answer. Yes.

    Question 5. There are numerous efforts underway to add Dynamic 
Spectrum Access to Federal spectrum bands to facilitate sharing, but 
these are mostly being done as one-off solutions unique to specific 
bands. Would it be more efficient and effective in the long-term for 
NTIA to consolidate these under a single spectrum management system 
that can provide a common platform to support these band-specific 
efforts?
    Answer. The current efforts to employ Dynamic Spectrum Access (DSA) 
are in their early stages. It is too early to know if these types of 
efforts will be successful at facilitating better sharing than other 
methods. Additionally, each spectrum band presents unique challenges 
both because of the spectrum characteristics, but also because of the 
nature of the incumbent operations. Work to expand DSA might prove to 
be a valuable way to get more from our spectrum assets, but at this 
point it is too soon to tell. If confirmed, I will work with the staff 
of NTIA, the FCC, and Federal incumbents to evaluate the effectiveness 
of DSA and its suitability to other bands of spectrum.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                             David J. Redl
    Question 1. What should happen if NTIA doesn't like an alternative 
plan from a state that chooses to opt-out of FirstNet building and 
operating the Radio Access Network within their state, and how will 
NTIA work with states who choose to opt-out?
    Answer. By law, an opt-out state must submit to NTIA an application 
for required spectrum rights from FirstNet and optional funds for 
construction of the radio access network (RAN) in its state. To qualify 
for either, the law requires a state to demonstrate five RAN attributes 
that are necessary to ensure that a first responder has consistent, 
sustainable, high-quality, and secure broadband service across the 
nation--regardless of whether a state or FirstNet operates the RAN in a 
state. NTIA is currently developing its Notice of Funding Opportunity, 
which will detail how a state may make these demonstrations. NTIA 
should only disapprove a state's opt-out application if a state fails 
to make those statutory demonstrations. If given the opportunity, I'll 
work to ensure that opt-out states clearly understand what they need to 
demonstrate to NTIA.

    Question 2. Will NTIA work with states who choose the opt-out 
option to remedy any perceived deficiencies in their alternative plans, 
and what recourse does a state have if it disagrees with NTIA's 
findings on their alternative plans?
    Answer. NTIA has stated that applicants will be provided 
opportunities to remedy deficiencies before an application is 
recommended for disapproval. NTIA intends to rely on no less than three 
independent, subject matter experts to review applications based on 
review standards and criteria that will be clearly laid out in the 
grant guidance. NTIA will provide feedback from the technical review 
panel to states and provide the states with opportunities to remedy 
their application.

    Question 3. Can you give your commitment that if a state chooses to 
opt-out, that NTIA won't seek to thwart that choice, but will review an 
alternative state plan objectively and with an eye toward respecting a 
state's legally enshrined opt-out right?
    Answer. Yes.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                             David J. Redl
    Question 1. Given the Senate Commerce Committee has jurisdiction 
over both the FTC and the Internet, I want to bring to your attention 
concerns regarding the potential confusion arising from the Internet 
Corporation for Assigned Names and Numbers (ICANN) not implementing 
proper safeguards when awarding certain generic top-level domain 
strings (gTLDs).
    Accountants in Nevada have provided me with some details about the 
Association of International Certified Professional Accountants' 
(AICPA's) situation with the pursuit of the .cpa gTLD, and I understand 
that you are familiar with that issue as well.
    NTIA plays an important role in the proper operation of the 
Internet. What you can do as NTIA Administrator to ensure that 
consumers are not faced with fraudulent and deceptive practices that 
may arise from the awarding of a domain name to an entity that may 
misuse that domain and foster misrepresentations about certified public 
accountants?
    Answer. NTIA remains the United States' representative on ICANN's 
Governmental Advisory Committee and I believe that NTIA should continue 
to serve as a vigorous advocate for the United States' interests at 
ICANN. The accountability mechanisms at ICANN include tools to address 
disputes regarding new gTLDs. I understand that AICPA is engaged in 
this process. If confirmed, I will work with other Federal agencies, 
including the Federal Trade Commission, to represent interests at ICANN 
on these and other matters.

    Question 2. Everyone in Congress agrees spectrum is valuable, and 
we need it now to continue innovating, create jobs, and boost the 
economy.
    But it seems that time is the critical factor. In the past, it's 
taken 13 years on average from start to finish to reallocate spectrum.
    Looking at the 2012 legislation that reallocated spectrum, many of 
those bands had been identified long before the auction took place.
    We need spectrum now, not 13 years from now.
    What are your ideas for speeding up the reallocation process? Is 
there a specific reason it takes this long?
    Answer. Finding opportunities for reallocation, and actually moving 
very expensive and technologically complex government systems can be a 
complicated and time consuming process. Congress has already begun the 
process of making this process more fluid through the changes made to 
the Spectrum Relocation Fund and the concept of a spectrum pipeline. 
While it will continue to take time to evaluate, upgrade, or relocate 
government spectrum systems, doing so on an ongoing basis with SRF 
funding for research and development will help us continually find 
opportunities. If confirmed, I look forward to further reviewing the 
various processes and identifying efficiencies where able.

    Question 3. Given that NTIA manages Federal spectrum, my view is 
that your most important job, if confirmed, is to find more spectrum to 
bring to market. Is there anything Congress can do to give NTIA more 
authority and more leverage to convince Federal agencies to give up 
some of their spectrum?
    Answer. The work Congress has done to adapt the Spectrum Relocation 
Fund to provide incentives for Federal agencies to part with spectrum 
or upgrade systems along with the spectrum pipeline are in the process 
of delivering results. If confirmed, I will work with the NTIA staff, 
Federal agencies and Congress to provide the right incentives for 
efficiency that can go a long way toward meeting our spectrum needs.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                             David J. Redl
    Question 1. Mr. Redl and Mr. Kan, there are numerous examples of 
autonomous technologies, whether it's trucks, ports, or railroads, 
which are moving to a more connected transportation system. We need to 
ensure the Federal Government will keep pace with these technologies. 
Regulatory silos, in which agencies across the government are creating 
duplicative and counter-productive regulations, are also a concern. 
What will both of you do to incentivize the growth of new technologies 
safely? And what methods can the government adopt to ensure duplicative 
regulations and silos do not hinder these technologies?
    Answer. The FY17 Omnibus Appropriations Act included report 
language encouraging the Commerce Department to ``continue its 
consideration of how to appropriately plan for and encourage the 
proliferation of network connected devices, including soliciting input 
from: industry stakeholders; subject matter experts; businesses . . . 
and relevant Federal agencies.'' If confirmed, I will work with the 
staff of NTIA to implement this provision and convene an interagency 
group to review the policy issues impacting the Internet of Things, 
including those related to transportation.

    Question 2. Mr. Redl, Senators Booker, Gardner, Schatz, and I have 
been working to develop a better understanding of the Internet of 
Things here in the Senate. As the administrator of the NTIA, you would 
have a significant role in developing the government's position on IoT. 
What do you see as the greatest challenges facing IoT technologies, and 
what can we do to promote innovation?
    Answer. I believe the greatest challenge for IoT will be 
cybersecurity. While most Americans have embraced the idea that they 
need to do more to protect themselves when they are on their computers 
or smartphones, IoT presents different challenges. Many don't regard 
their thermostats, lightbulbs, cars, or appliances as computers that 
may have cybersecurity risks, but in the age of IoT, they can be. If we 
want to promote innovation, we must ensure that Americans trust the IoT 
devices in their lives. NTIA already plays a role in both cybersecurity 
and in the Internet of Things. If confirmed, I will work with the staff 
at NTIA and across the Federal Government to promote smart IoT policies 
that incorporate security and protect American consumers.

    Question 3. Mr. Redl, the American Recovery and Reinvestment Act 
(ARRA), commonly referred to as the ``Stimulus Act,'' provided $4.35 
billion to NTIA to fund broadband projects through grants. As Congress 
is once again posed to debate and an infrastructure bill that may 
include money to expand broadband, what assurances can you give this 
committee that NTIA will not pursue a policy of using government money 
to overbuild existing broadband networks?
    Answer. I share your concern that Federal dollars be spent to bring 
broadband to unserved areas, rather than competing with private capital 
in areas that already have broadband. If confirmed, I will work with 
Congress to ensure our national investments in infrastructure are best 
targeted to serve the unserved.

    Question 4. Mr. Redl, the Global Positioning System (GPS) plays a 
critical role in today's ``precision agriculture'' and will continue to 
do so as farmers face the ever-increasing need to produce more on less 
land using less seed, water, fertilizer, and pesticide. The expanding 
use of GPS on rural croplands and ranchlands may be the largest single 
technological advancement for farmers and ranchers in the past 30 
years. With the help of location and navigation services made possible 
by precision GPS, farmers today can use advanced tracking and automated 
machine systems to conduct tilling, seeding and spraying operations at 
levels of precision within 2 cm. Farmers are always looking for ways to 
avoid personnel and equipment downtime, analyze soil, seed and other 
inputs crops for optimum yield and efficiently manage inputs. Based on 
government crop statistics, annual reported costs of each input, and 
actual field savings data from the past 10 years, U.S. farmers could 
save $8.2 billion annually by using GPS technology. If GPS technology 
is compromised or cannot be used in the future, rural American 
economies that are tied to the agricultural sector will be harmed, U.S. 
leadership in agricultural production and trade will suffer, and 
American consumers would likely see a significant uptick in food costs 
across the board.
    In the past few years, multiple Federal agencies, including the 
FCC, the NTIA, the FAA and DOT, after significant testing, all 
recognized that a proposal to convert mobile satellite spectrum for the 
use of terrestrial wireless services would interfere with GPS and, 
among other problems, would harm high precision GPS services integral 
to U.S. agriculture. That proposal was rejected based on potential harm 
to GPS. How would you ensure that any future spectrum proposals would 
not interfere with or undermine such GPS-based services?
    Answer. GPS is one of the United States military's greatest 
technological advancements. Its use in the commercial sector and just 
how pervasively it powers our economy cannot be overstated. In addition 
to agriculture, nearly every aspect of our daily lives relies on the 
GPS constellation at some point in its lifecycle. Protection of GPS has 
been, and should be, a priority for NTIA. However, that does not mean 
that the remainder of the L-band cannot be maximized for other uses. 
Improvements in technology and coordination between users should be 
part of the discussion as we look to best ensure no part of the 
spectrum goes underused. If confirmed, working cooperatively with all 
of the stakeholders in the GPS community would be a priority when it 
comes to addressing additional uses in the L-band.

    Question 5. Mr. Redl, many government and private commercial 
stakeholders have said that GPS is a critical national asset that has 
led to innovation not only in the agriculture sector in precision 
farming, but also in military, surveying, aviation, automotive, 
automatic highways, and consumer technologies. Do you agree and, if so, 
what steps would you take to protect GPS from encroachment as the 
Nation looks to find more and more wireless spectrum for re-allocation 
to mobile broadband?
    Answer. Protection of GPS has been, and should be, a priority for 
NTIA. However, that doesn't mean that the remainder of the L-band 
should not be maximized for other uses. Improvements in technology and 
coordination between users should be part of the discussion as we look 
to ensure no part of the spectrum goes underused. If confirmed, working 
cooperatively with all of the stakeholders in the GPS community would 
be a priority when it comes to addressing additional uses in the L-
band.

    Question 6. Mr. Redl, the introduction and use of GPS-enabled 
devices have brought significant advances in aviation safety and 
greatly benefited the flying public. Numerous studies have documented 
and quantified these life-saving benefits. Today, virtually all types 
of aircraft utilize GPS for navigation and approaches. For the majority 
of these aircraft, GPS is the primary means of navigation. As you may 
be aware, GPS is a critical building block for TAWS (terrain awareness 
and warning system), which has been responsible for reducing CFIT 
(controlled flight into terrain) accidents among U.S. airlines. Such 
incidents have dropped from a leading cause of deadly crashes to zero.
    Given how dependent pilots have become on GPS features in avionics 
equipment, particularly certified equipment, how would you ensure that 
their ability to rely on GPS continues uninterrupted in the future by 
potential interference from new spectrum services?
    Answer. Protection of GPS has been, and should be, a priority for 
NTIA. However, that does not mean that the remainder of the L-band 
cannot be maximized for other uses. Improvements in technology and 
coordination between users should be part of the discussion as we look 
to best ensure no part of the spectrum goes underused. If confirmed, 
working cooperatively with all of the stakeholders in the GPS community 
would be a priority when it comes to addressing additional uses in the 
L-band.

    Question 7. Mr. Redl, GPS is the foundation for modernizing the 
Nation's air traffic control system. The Capstone project in Alaska, 
the original precursor to nationwide roll-out of the new reforms, 
produced concrete evidence that GPS-enabled devices improve aviation 
safety. What steps would you take to ensure that the full benefits of 
GPS, unimpaired by the effect of future spectrum proposals, remain 
available for modernizing the air traffic control system?
    Answer. Protection of GPS has been, and should be, a priority for 
NTIA. However, that does not mean that the remainder of the L-band 
cannot be maximized for other uses. Improvements in technology and 
coordination between users should be part of the discussion as we look 
to best ensure no part of the spectrum goes underused. If confirmed, 
working cooperatively with all of the stakeholders in the GPS community 
would be a priority when it comes to addressing additional uses in the 
L-band.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             David J. Redl
    Question 1. As you know, spectrum is a finite resource. Given that 
both Federal and non-Federal spectrum uses are critical, what are your 
policy priorities in key areas such as increasing bi-directional 
spectrum sharing and similar access opportunities for both Federal 
Government and commercial users?
    Answer. As you note, spectrum needs are going to continue to 
increase for both Federal and non-Federal users. In order to ensure 
that we are getting the most out of this precious national resource, 
NTIA will need to continue to work closely with both commercial and 
Federal spectrum users to take advantage of every opportunity. If I am 
confirmed, I intend to see to it that NTIA follows through on this 
mission. NTIA has existing advisory groups, both within the Federal 
Government (PPSG, IRAC) and with non-Federal interests (CSMAC) that 
have been working productively on these issues. Coordination and 
collaboration between NTIA and the Federal Communications Commission 
also plays a key role.
    Among the priorities for NTIA and the advisory groups, should I be 
confirmed, will be examining how new commercial technologies can 
improve Federal spectrum efficiency, how geographic and temporal 
sharing between Federal and non-Federal users can improve spectrum 
access for both, and how commercial systems can be leveraged to meet 
government needs.

    Question 2. The FCC recently released large amounts of millimeter 
wave band spectrum (i.e., above 24 GHz). NTIA had an important role in 
assisting with that effort, including making sure that Federal 
operations were not hampered by future commercial operations. That 
said, large-scale commercial operations (particularly wireless 
broadband operations) are untested in millimeter wave spectrum. Would 
it be useful now for NTIA and the FCC to focus on implementation 
measures with respect to commercial operations in the bands already 
made available to ensure the success of deploying 5G service to U.S. 
consumers before focusing efforts on making available even more 
millimeter wave bands in the short term?
    Answer. Deployment and implementation of 5G technologies and making 
additional spectrum available are interrelated goals. 5G technologies 
have the potential to significantly change the way spectrum is used by 
both Federal and non-Federal users. How that technology can be 
implemented to meet our national needs is a priority in which NTIA can, 
and does, play a large role. If confirmed, I will work with the NTIA 
staff and Federal agencies to assess how 5G can be brought to Federal 
users to meet mission needs and whether this could lower the spectrum 
footprint needed for Federal users to perform their critical missions.
    Additionally, as we look to implementation of 5G, NTIA's Institute 
for Telecommunication Sciences (ITS) can play an important a role 
through its spectrum research and testing. The applied spectrum 
research done at ITS will be key to ensuring that we maximize use of 5G 
technologies without hampering existing spectrum operations.

    Question 3. According to some analysts, the cost of deploying 
advanced wireless technologies is a fraction of what it was even a few 
years ago. We have had testimony before the Committee that indicates 
wireless carriers no longer have to rely exclusively on additional 
spectrum to increase network capacity. How do you see these 
developments impacting the market for spectrum and auction revenues, 
particularly in light of the statutory directive for auction revenues 
to cover relocation costs of Federal operations?
    Answer. While technology has certainly impacted the way that 
commercial carriers use spectrum, there continues to be demand for 
additional spectrum. The recent incentive auction of broadcast spectrum 
is indicative of this need and demonstrates that, even with the 
incentive payments to broadcasters, there was tens of billions of 
dollars worth of capitol interest in the licenses.
    However, demand for spectrum is multifaceted and is dependent on 
the characteristics of the specific band being considered and the 
requirements of the technology to be deployed. Thirty years ago, the 
2.4 GHz band was considered a ``junk band'' and given away for 
unlicensed experimentation. Today, that band is the workhorse of 
unlicensed allocations, fueling hundreds of millions of Wi-Fi devices. 
And, just a few years ago, the spectrum in the millimeter wave bands 
was considered too challenging for commercial wireless use. However, 
now it is seen as a critical component of 5G services. As we look 
forward, careful consideration of the needs of spectrum users, along 
with the state of technological development band, will be critical to 
determining the right path forward for each band of spectrum.

    Question 4. Given the importance of GPS to the United States 
(including for navigation, timing, banking, global operations, 
transportation, and economic prosperity to name a few examples), would 
you offer your thoughts regarding the importance of GPS operations as 
NTIA and the FCC explore how to maximize use of various spectrum bands?
    Answer. GPS is one of the United States military's greatest 
technological advancements. From transportation to agriculture, nearly 
every aspect of our daily lives relies on the GPS constellation at some 
point in its lifecycle. Protection of GPS has been, and should be, a 
priority for NTIA. However, that does not mean that the remainder of 
the L-band cannot be maximized for other uses. Improvements in 
technology and coordination between users should be part of the 
discussion as we look to best ensure no part of the spectrum goes 
underused.

    Question 5. The evolution of our Nation's 9-1-1 infrastructure to 
Next Generation 9-1-1 is a national imperative. That is why Senator 
Klobuchar and I have developed our Next Generation 9-1-1 Act of 2017, 
which is designed to give states and localities the Federal resources 
and support they need to upgrade their existing 
9-1-1 systems to benefit our citizens and first responders who put 
their lives on the line every day. NTIA has an important role in 
helping promote and support Next Generation 9-1-1 as one of the two 
Departments who support the work of the Next Generation 9-1-1 
Implementation and Coordination Office. Do you agree that the Nation's 
transition to Next Generation 9-1-1 systems is a national imperative, 
and that additional Federal support would help speed up that 
transition?
    Answer. Sadly, our Nation's 911 system has not kept pace with the 
technological innovations of the communications sector. The dedicated 
professionals who answer the emergency calls made from smartphones and 
dispatch first responders that will be taking advantage of FirstNet are 
unfortunately stuck in the middle with last century technology. If 
confirmed, I would work to ensure that the potential of FirstNet is 
reached, and that the power of the smartphone is realized for saving 
lives by taking the needed steps to upgrade our Nation's 911 call 
centers. I agree that this should be a national imperative and that 
ensuring a speedy transition to Next Generation 9-1-1 will be dependent 
on the availability of sufficient resources.

    Question 6. Will you commit to fully supporting the work of the 
Next Generation 9-1-1 Implementation and Coordination Office as it 
moves forward on Next Generation 9-1-1 issues?
    Answer. Yes.

    Question 7. Will you commit to working closely with the Department 
of Transportation, the other Department that supports the Next 
Generation 9-1-1 Implementation and Coordination Office, to help speed 
up the work of the Office?
    Answer. Yes.

    Question 8. Demand for spectrum is increasing among both commercial 
and Federal users at a prodigious pace. You have a long history in this 
space, including working for a trade association representing the 
wireless industry. It is imperative that the Nation maintain a balanced 
approach to spectrum policy that ensures that there are adequate 
spectrum resources made available to all users. As head of NTIA, will 
you commit to being an honest representative of the needs of Federal 
spectrum users in the debate over the Nation's spectrum policy?
    Answer. Yes.

    Question 9. How do you plan to ensure a balance in spectrum policy 
to meet the needs of both Federal and non-Federal users?
    Answer. I take very seriously NTIA's statutory responsibility to 
ensure this balance. If confirmed, I plan to ensure that NTIA's 
existing resources, including the CSMAC, PPSG, IRAC, and ITS, are 
leveraged to fully examine the needs of both Federal and non-Federal 
users and that this information is used to help make informed spectrum 
policy decisions.

    Question 10. Mr. Redl, as you are aware, FirstNet has made great 
strides over the last few years toward beginning deployment of the 
nationwide wireless broadband network for first responders. Part of 
this success has been a good working relationship with NTIA leadership, 
who have respected FirstNet's status, as established by Congress, as an 
independent entity within NTIA. Will you commit today to continuing 
that cooperative relationship between NTIA and FirstNet, and respecting 
FirstNet's statutory independence?
    Answer. FirstNet enjoys a unique position within NTIA as an 
independent authority. However, the Middle Class Tax Relief and Job 
Creation Act of 2012 also creates a specific role for NTIA in the 
establishment of the National Public Safety Broadband Network, 
specifically with respect to states that opt-out of having FirstNet 
deploy their Radio Access Networks. If confirmed, I will work with the 
staff of NTIA to continue the cooperative relationship that exists 
between FirstNet and NTIA, and work to provide any additional support 
FirstNet needs to succeed in its important mission.

    Question 11. Will you commit to being an advocate inside the 
Department of Commerce on behalf of FirstNet, including with respect to 
the need for the Department's leadership to respect FirstNet's 
statutory status as an independent entity within the Department?
    Answer. If confirmed, I will work with the staff of NTIA to 
continue the cooperative relationship that exists between FirstNet and 
NTIA, and work to provide any additional support FirstNet needs to 
succeed in its important mission.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                             David J. Redl
    Question 1. One of the biggest challenges we face as a nation is 
making sure robust broadband reaches the most remote parts of our 
Nation. Thirty nine percent of rural Americans (23 million people) lack 
access to high speed broadband. By contrast, only 4 percent of urban 
Americans lack access to high speed broadband. And 41 percent of 
Americans living on Tribal lands (1.6 million people) lack access high 
speed broadband. Broadband is not a luxury--it is the infrastructure 
that is needed to participate in the modern Internet economy. If you 
are confirmed, you will be at the helm of an agency that has had a 
significant role advancing broadband. NTIA has administered grant 
programs to advance broadband. Additionally, the BroadbandUSA program 
has received high marks for providing technical support and metrics to 
public and private sector stakeholders for its ongoing broadband 
programs. If you are confirmed, do you intend to continue the work of 
BroadbandUSA and leverage those resources to continue the work to 
support the deployment of broadband networks rural America?
    Answer. I agree that bringing the economic opportunity of broadband 
to every corner of America is a goal that we should all share. Rural 
America and Tribal lands are particularly affected by this divide 
largely because the economics of broadband are influenced greatly by 
population density. BroadbandUSA has been working for several years to 
provide state and local governments with the tools needed to attract 
private investment in broadband and to better measure the effectiveness 
of broadband deployment programs. If confirmed, I will work with the 
BroadbandUSA team, and across the Federal Government through the 
Broadband Interagency Working Group, to improve access to broadband in 
rural and Tribal areas.

    Question 2. With regard to broadband on Tribal Lands, NTIA, the 
Department of Agriculture Rural Utility Service and the Federal 
Communications Commission have been criticized for not coordinating or 
pooling resources and information in order to address the truly 
unacceptable lack of broadband on tribal lands.
    Answer. See my answer to Question 3.

    Question 3. How do you intend to use your resources to address the 
problem of lack of broadband on Tribal Lands?
    Answer. There are many challenges that Tribal areas face when it 
comes to the deployment of broadband and many parts of the Federal 
Government have responsibilities that affect the effort. If confirmed, 
I will work through the Broadband Interagency Working Group, which is 
co-chaired by the Department of Agriculture Rural Utility Service and 
includes the Federal Communications Commission, to improve access to 
broadband in rural and Tribal areas.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             David J. Redl
    Question 1. White House and the Office of Legal Counsel has 
recently asked Federal Government agencies to only answer oversight 
requests from committee chairmen, rather than all members of Congress, 
including the ranking member. Do you personally commit to responding to 
oversight requests and letters from minority members of Congress in a 
timely manner?
    Answer. Yes.

    Question 2. Can you commit to working with OMB to produce a report 
to the Committee with recommendations on options to reform the Spectrum 
Relocation Fund addressing how the Fund could cover costs incurred by 
Federal entities related to sharing bands with unlicensed users by 
November 1, as is required in the FY17 omnibus?
    Answer. Yes.

    Question 3. The FY17 omnibus included report language encouraging 
the Commerce Department to ``continue its consideration of how to 
appropriately plan for and encourage the proliferation of network 
connected devices, including soliciting input from: industry 
stakeholders; subject matter experts; businesses . . . and relevant 
Federal agencies.'' Can you commit to convening an interagency group to 
review the policy issues impacting the Internet of Things?
    Answer. Yes.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                         Robert L. Sumwalt III
    Question 1. Mr. Sumwalt, your distinguished 11-year career at the 
National Transportation Safety Board (NTSB) as well as your background 
as a commercial pilot gives you substantial perspective regarding the 
challenges and opportunities at this agency. One of the issues you 
cited in your questionnaire mentions the challenges associated with 
integrating new technologies such as self-driving vehicles, unmanned 
aerial systems, and commercial space vehicles.
    How will the agency, from an investigative standpoint, deal with 
safety challenges affiliated with these rapidly advancing technologies 
and what is the agency's strategy for addressing any knowledge or skill 
gaps NTSB employees currently face in the context of these 
technologies?
    Answer. Self-driving vehicles. As you well are aware, this 
technology is advancing extremely rapidly.
    The NTSB is involved with our first investigation of a crash 
involving an automobile being operated in the autopilot mode. This 
crash involved a Tesla colliding with a 18-wheeler truck in Williston, 
Florida in May 2016. Although this vehicle is not a completely 
autonomous vehicle, this crash is allowing NTSB's investigative staff 
to explore aspects associated with self-driving cars. We are also 
engaging with auto manufacturers, including their participation as 
party members in our investigations. We expect to have the report of 
this crash completed this fall and will keep your staff apprised of the 
precise date of the board meeting, as well as the findings and 
recommendations that emerge from the investigation.
    Unmanned Aerial Systems. The NTSB completed our first investigation 
of a UAS in 2007. That crash involved a General Atomics Predator B, 
operated by U.S. Customs and Border Protection (CBP), which crashed 
into a sparsely populated neighborhood in Nogales, Arizona. As a result 
of this investigation, the NTSB issued 22 safety recommendations to the 
Federal Aviation Administration and CBP, all of which have been 
satisfactorily closed.
    We have kept abreast of technological and regulatory developments 
in the UAS industry since 2007, and have a very thorough and robust 
capability and knowledge base in order to conduct an investigation of 
any accident or incident regarding UAS that comes under our authority.
    In August 2010, we revised our regulations to clarify that our 
aviation accident and incident notification requirements also apply to 
UAS. We released an advisory to operators in July 2016 to clarify 
requirements for reporting--for example, if there is death or serious 
injury, the aircraft weighs more than 300 pounds and sustains 
substantial damage, or other specific serious incidents occur. To date, 
we have investigated 35 events involving UAS.
    In addition, we have implemented a plan for technical and 
procedural training for staff who will participate in UAS accident and 
incident investigations. The agency's lead investigator for UAS has 
training and experience operating various types of UAS, including the 
MQ-9 Predator-B, Insitu Scan Eagle, and numerous small UAS. Training 
continues to focus on technical areas such as air traffic procedures 
and technologies, vehicle performance, recorded data logging, battery 
technology, operational training, and maintenance. We are also 
conducting outreach with other investigative agencies and industry 
stakeholders to become aware of best practices and techniques and 
lessons learned from their experiences, and also to explain and clarify 
our role and safety initiatives.
    Finally, we have deployed UAS as an investigation tool in aviation 
and rail accidents to provide aerial imagery and other technical 
capabilities.
    Commercial space vehicles. The NTSB has the authority to 
investigate commercial space launch accidents under its general 
authority to conduct transportation accident and incident 
investigations for the purpose of improving transportation safety for 
the public.
    In July 2015, we completed the investigation of the October 31, 
2014, accident involving SpaceShipTwo, a reusable suborbital rocket 
which was operated by Scaled Composites LLC. The spaceship broke up 
into multiple pieces during a rocket-powered test flight and impacted 
terrain over a 5-mile area near Koehn Dry Lake, California.
    We issued eight safety recommendations to FAA and two to the 
Commercial Spaceflight Federation. NTSB staff has established relations 
with numerous commercial space stakeholders and key government agencies 
and we will continue to work to develop the necessary expertise.
    While the NTSB believes it has general authority to conduct 
investigations of commercial space accidents, that authority is not 
expressly spelled out in NTSB's enabling legislation. To relive such 
ambiguity in the event of future commercial spaceflight accidents, it 
would be useful for Congress to consider specifically granting that 
authority.

    Question 2. Mr. Sumwalt, as you know, the NTSB has a meticulous 
investigatory process for discerning the primary causes and 
contributing factors to accidents. Could you speak to your approach as 
a Board Member to publicly speaking or publicly identifying a 
particular cause or contributing factor, or a recommendation for 
addressing the cause or factor, prior to the results of the 
investigation?
    Answer. The NTSB's ultimate goal is to prevent similar accidents 
from occurring in the future. If we focus only on the obvious error, we 
miss valuable accident prevention opportunities because systemic flaws 
may remain undetected and thus, uncorrected.
    I have a sign posted in my office that states: ``The discovery of 
the human error should be considered as the starting point of the 
investigation, not the ending point.'' I use these words as a constant 
reminder that our investigations must examine the entire system and not 
just focus on errors of front line personnel.
    When preparing for board meetings, I firmly believe it is my 
responsibility to be fluent with the facts, circumstances, and 
conditions surrounding that accident; studying these issues is a duty I 
take seriously. I carefully study the report and meet with staff to 
outline my concerns and areas where I have questions. As a quality 
check on the draft report, I draft my own version of the probable cause 
to ensure that the analysis is supported by the facts, the analysis 
supports the findings and probable cause, and these support the 
recommendations. I then compare my draft probable cause with that of 
what staff has drafted. I typically delve into the public docket and 
party submissions to understand more than is just presented in the 
draft report. I encourage parties to the investigation to meet with me 
so I can better understand their perspective. I then take all of this 
into account when I vote on an accident product.

    Question 3. Mr. Sumwalt, in some instances, as a result of limited 
technical capacity and budget constraints, the development process or 
expenditure of resources on a particular safety improvement may divert 
attention or resources from another type of safety improvement. To what 
extent does the NTSB consider these types of trade-offs that may have 
unintended consequences for safety?
    Answer. I believe our job, as an accident investigation agency, is 
to determine what led to the accident and then look for ways that could 
prevent future similar accidents. The NTSB does not consider cost vs. 
benefit when issuing safety recommendations. This does not mean we are 
unconcerned about the practicality of our recommendations.
    I believe we must challenge industry and government to raise the 
bar on safety by issuing recommendations that sometimes may be 
considered to be ``stretch goals'' for the recommendation's recipient. 
I believe unless we push the envelope on some issues, we won't achieve 
breakthrough safety improvements.
    As an example, as a result of the TWA 800 crash, a Boeing 747 that 
crashed into the Atlantic Ocean shortly after departure from John F. 
Kennedy International Airport, NTSB issued a recommendation in 1996 
calling for improved fuel tank flammability standards. Most in the 
industry believed that this could not be accomplished cost effectively 
for transport category aircraft. FAA initially responded to the 
recommendation, stating that such a recommendation would have ``little 
benefit'' and would have ``significant economic implications.'' 
However, because of NTSB's recommendation--indeed a stretch goal--FAA 
and industry pursued ways to develop affordable, practical, and 
effective flammability reduction systems. Based on its success of this 
undertaking, on July 21, 2008, the FAA adopted a requirement for 
certain transport category aircraft to have fuel tank inerting systems. 
I believe had NTSB not issued this recommendation in 1996, these 
requirements may not have been implemented.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                         Robert L. Sumwalt III
    Question 1. The Medallion Foundation was founded in Alaska in 2001 
to improve pilot safety awareness. One of its goal is to get operators 
to voluntarily train and commit to higher standards of operational 
safety through audits, simulator training and classroom training. Do 
you agree that voluntary participation, in conjunction with normal 
regulatory oversight, is an effective approach to increasing aviation 
operational safety?
    Answer. I firmly believe that voluntarily submitted safety 
information is key to uncovering safety deficiencies. From 1991 through 
2009, I was an outside consultant to NASA's Aviation Safety Reporting 
System (ASRS). ASRS is a government-funded and operated program that 
collects voluntarily submitted incident and safety reports from 
aviation industry employees. These reports often contain rich 
narratives and explanations of information that would not otherwise be 
known. Through analyzing such information, we were able to identify 
intervention measures to improve safety.
    Additionally, as an airline pilot who worked in the airline's 
safety department, I can state with authority the importance of having 
voluntary nonpunitive safety reporting systems. Through these programs, 
the airline was able to learn of safety-related issues that may not 
have been highlighted until after an accident or serious incident.
    Before being appointed to the NTSB in 2006, I ran the small flight 
department for a Fortune 500 company. There I put in place the elements 
for a confidential nonpunitive safety reporting system, as well as the 
practice of internal and external audits. Now at the NTSB, when 
speaking at safety conferences, I encourage the practice of internal 
and external audits, as well as confidential nonpunitive safety 
reporting systems.
    NTSB has protections in our enabling legislation (49 USC 1114) and 
regulations (49 USC 831.6) to protect voluntarily submitted safety 
information. If confirmed, I will fight to ensure we do everything we 
possibly can to encourage collection of such information, and that the 
protections granted by the legislation and regulations remains in 
force.

    Question 2. The FAA and the Medallion Foundation have created a 
partnership that has constituted a paradigm shift in public policy that 
has resulted in dramatic improvements in aviation safety. Do you think 
the NTSB would be interested in establishing a partnership with the 
Medallion Foundation to help improve aviation safety?
    Answer. I am familiar with the Medallion Foundation and appreciate 
the work they have done to improve safety in Alaska. I believe in order 
for the Medallion Foundation to be effective, a partnership with the 
regulator (FAA) is essential. As the regulator, the FAA has the ability 
to encourage such programs, and in my opinion, programs such as the 
Medallion Foundation should be part of the FAA's ``safety tool box.''
    On the other hand, the NTSB is not the regulator. Through the 
Independent Safety Board Act of 1974, as amended, Congress intended for 
us to be independent accident investigation agency, free from outside 
influences. Keeping with that line of thinking, I believe the NTSB must 
not compromise our independence by partnering with outside 
organizations or agencies. This does not mean, however, that we should 
not work with organizations such as the Medallion Foundation, and 
government agencies, to encourage their endeavors to continue working 
diligently to improve safety.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Robert L. Sumwalt III
    Question 1. In October 2015, the El Faro tragically sank and all 33 
crewmembers were lost. The National Transportation Safety Board has 
been investigating the sinking. It's critical that we know what 
happened so that we can prevent this kind of tragedy in the future. I 
am anxious to hear the NTSB's recommendations for how we can prevent 
this kind of tragedy from happening again. When can we expect this 
report?
    Answer. A Board meeting to determine the probable cause and issue 
safety recommendations is planned for late fall of this year. I will be 
sure that you are kept updated as more information is available.

    Question 2. Are there specific safety issues that the NTSB has 
identified so far?
    Answer. Among other things, the investigation is looking into 
decision-making processes regarding vessel operations in hurricanes and 
other heavy weather occurrences, as well as tropical cyclone/hurricane 
weather forecasting and dissemination.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                         Robert L. Sumwalt III
    Question 1. In 2013 and 2014, Metro-North experienced a series of 
crashes and collisions that led to six deaths and scores of injuries. 
The NTSB, as an independent safety authority, was instrumental in 
investigating those incidents, culminating in an exhaustive report in 
late 2014. You were critical to that investigation and report. Some of 
the many key findings were that Metro-North needed to better address 
worker fatigue as well as install Positive Train Control--something 
your agency has been urging for nearly five decades.
    In late May, Metro-North had yet another derailment when a train 
entered a part of track in Rye where Metro-North knew there was a 
defect. A dozen riders were sent to hospitals.
    I wrote Metro-North demanding answers that ensure Metro-North 
installs PTC by the 2018 deadline. I received a response yesterday that 
says the railroad ``continues to work diligently to implement'' by 
2018.
    I also understand you are investigating. What are your findings 
about the incident in Rye?
    Answer. The NTSB dispatched an investigative team to examine the 
factors surrounding the derailment. The investigators gathered 
information regarding the track's condition and operational factors 
related to the derailment, and they are currently analyzing their 
findings. I will be sure to continue to provide you with more 
information as updates become available.

    Question 2. What can you say about Metro-North's improvements as a 
railroad since your 2014 report?
    Answer. As part of the investigation into the derailment in Rye, we 
are also evaluating Metro-North's progress toward addressing the 
organizational issues raised in our 2014 investigation report of five 
significant Metro-North Railroad accidents that occurred in 2013 and 
2014. We will continue to provide you with more information as updates 
become available.

    Question 3. In February 2015, a Metro-North train collided into a 
car at a grade crossing north of New York City, killing the driver of 
the car and five on the train. It was a horrific event, and based on 
that I worked closely with my colleagues to craft measures to improve 
grade-crossing safety.
    But there is much work to be done. I am eager to learn more about 
how we can further prevent such tragedies. It is important to know more 
about how the event took place.
    You have led the agency's response to this incident and the 
subsequent investigation. I recognize it was a unique incident with 
many complicated technical issues about the train and intersection, but 
it has been over two years.
    When should we expect a report with conclusions about the incident?
    Answer. A Board meeting to determine the probable cause and issue 
safety recommendations is scheduled for this summer. I will be sure 
that you are kept updated as more information is available.
    I share your concerns regarding the time-frame for completing this 
and other investigations, and, if confirmed, I pledge to continue to 
push for timely completion of accident reports, which requires the 
availability of adequate resources.

    Question 4. What can you share about your findings?
    Answer. The investigation is considering the adequacy of grade-
crossing warning systems, roadway and track conditions, and driver 
behavioral factors, as well as analyzing the rail and the 
crashworthiness of the railcar to determine if further safety 
improvements are warranted.
    The Board will consider the findings of the investigation during 
the Board meeting.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Brian Schatz to 
                         Robert L. Sumwalt III
    Question. White House and the Office of Legal Counsel has recently 
asked Federal Government agencies to only answer oversight requests 
from committee chairmen, rather than all members of Congress, including 
the ranking member. Do you personally commit to responding to oversight 
requests and letters from minority members of Congress in a timely 
manner?
    Answer. Yes.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                        to Robert L. Sumwalt III
    Question 1. Would you agree that technology like PTC and ECP brakes 
are incredibly important to raising the bar of safety for rail 
operations in this country?
    Answer. The NTSB has long called for Positive Train Control and we 
have investigated numerous accidents that could have been prevented if 
an operational PTC system been in place.
    The NTSB does not have a position on ECP brakes, but in a study 
performed by our staff, it was determined that ECP brake systems out-
performed distributed power configurations and conventional brake 
systems. The study provides detailed description and analysis of each 
rail braking system and the stopping distances they achieved under 
various circumstances. While ECP brake systems performed best, 
increasing the net braking ratio for any brake system substantially 
improved its stopping performance. Improving braking capability is one 
component of improving rail safety.

    Question 2. Could provide us a round estimate on how many rail 
investigations you've known about at NTSB that were PTC preventable?
    Answer. Since 1969, the NTSB has investigated 148 rail accidents 
that could have been prevented if an operational PTC system been in 
place.

    Question 3. In your safety expert opinion, do you think there would 
be safety concerns with large amounts of nuclear waste traveling from 
say Minnesota, Texas, or Mississippi, all the way to Nevada, by rail?
    Answer. By statute, the NTSB is primarily an accident investigation 
agency. To my knowledge, NTSB has never investigated an accident or 
incident involving transport of nuclear waste by rail. Regulating the 
safety of these shipments is the joint responsibility of the Nuclear 
Regulatory Commission (NRC) and the Department of Transportation (DOT).
    I believe that in order to ensure highest levels of safety of our 
Nation's railway system, it is necessary to take a holistic approach to 
managing safety. There is no single magic bullet.
    From a high-level perspective, there needs to be an absolute 
commitment to safety by the leaders and management of the railroad, as 
well as that of the frontline employees. Leaders and individuals to 
must have a collective commitment to emphasize safety over competing 
goals to ensure protection of people and the environment. A culture 
must exist where errors and unsafe acts can be brought to the attention 
of management without fear of retribution or punishment, so that safety 
concerns and deficiencies can be identified and corrected before an 
accident or serious incident occurs.
    Aggressive risk assessment and mitigation measures must be 
employed. For example, when transporting flammable liquids by rail, the 
railroad is required to consider 27 risk factors when evaluating route 
selections.
    Drilling down further, there needs to be adequate track inspection 
and maintenance. In addition, because we continue to see transportation 
accidents related to sleep apnea, the NTSB has recommended that the 
Federal Railroad Administration implement a requirement for railroads 
to conduct sleep apnea screening. We also have called for inward facing 
cameras to be installed in the controlling locomotive cabs. PTC is, of 
course, an essential component of maximizing railroad safety.
    Measures such as these are necessary to ensure the highest levels 
of safety.

    Question 4. Are you aware if we have a safe and certified rail car 
available to move spent nuclear fuel?
    Answer. I am not aware of this but, if confirmed, pledge to look 
into these standards.

    Question 5. Would you think it would be a logical expectation that 
we wouldn't move significant amounts of nuclear waste by rail until 
those operations have trustworthy innovations like PTC and ECP brakes 
more roundly installed, and utilized, by the industry?
    Answer. I believe that transport of nuclear waste, like transport 
of all hazardous materials, absolutely needs to be conducted in a 
manner where risks are managed to an acceptable level. The measures 
outlined in my response to Question 3, as well as those identified by 
other agencies such the DOT, Department of Energy, and NRC, as well as 
by the railroad and nuclear industries, must be implemented to ensure 
that nuclear waste is transported safety.

                                  <all>







      
</pre></body></html>
